<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2010</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2010

                              ----------                              


                       WEDNESDAY, MARCH 25, 2009

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:04 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Leahy, Durbin, Murray, Cochran, 
and Bond.

                         DEPARTMENT OF DEFENSE

                             National Guard

STATEMENT OF LIEUTENANT GENERAL CLYDE A. VAUGHN, 
            DIRECTOR, ARMY NATIONAL GUARD

             OPENING STATEMENT OF SENATOR DANIEL K. INOUYE

    Chairman Inouye. This morning the subcommittee meets to 
receive testimony on the status of the National Guard and 
Reserve components. From the National Guard, we are pleased to 
have the Vice Chief of the Army National Guard, General Clyde 
Vaughn, and the Vice Chief of the Air National Guard, General 
Harry Wyatt.
    Before I proceed, I would like to apologize for this brief 
lateness, but the traffic is, as always, terrible.
    And from the Reserve, we welcome the Chief of the Army 
Reserve, General Jack Stultz, Chief of the Navy Reserve, Vice 
Admiral Dirk Debbink, Commander of the Marine Forces Reserve, 
Lieutenant General John Bergman, and the Chief of the Air Force 
Reserve, General Charles Stenner.
    We are very pleased to have you here today and look forward 
to working with you in the coming years in support of our 
guardsmen and our reservists.
    The subcommittee is sorry that General McKinley was not 
able to be here today to testify, but we thank him for 
submitting written testimony for the record.
    This hearing will be unlike prior years in that we have not 
received the fiscal year 2010 budget, nor the fiscal year 2009 
supplemental request. For this reason, many members of the 
subcommittee may wish to submit additional questions after we 
receive the budget request later this spring, and we ask for a 
timely response to these questions.
    Gentlemen, the National Guard and Reserve components have 
maintained a high operational tempo for over 6 years in support 
of the operations in Iraq and Afghanistan. Through the 
admirable service of thousands of guardsmen and reservists, the 
Reserve components have provided essential combat, logistics, 
and other support capabilities to these operations.
    However, the strain of these deployments is beginning to 
show. Suicide and divorce rates, for example, are on the rise, 
unfortunately. We must make certain that we are doing 
everything we can to provide our servicemembers the support 
they need during and after deployment. Reintegrating after 
deployment can be particularly difficult for guardsmen and 
reservists who lack the support network provided at an active 
duty installation. For this reason, reintegration programs are 
important in helping our guardsmen and reservists transition 
back to civilian life.
    Despite providing additional resources for these programs 
in the last year's supplemental funding bill, a Department-wide 
approach to reintegration activities has been very slow to 
develop, and our subcommittee hopes that the Department will 
work quickly to create an effective program that fits the needs 
of our returning servicemembers without using a one-size-fits-
all for all of the Reserve components. What works for the Army 
may not work for the Navy Reserve.
    It is a testament to the dedication and patriotism of our 
guardsmen and reservists that retention levels remain strong 
despite the strain of frequent deployments. Recruiting has also 
continued to improve for all Reserve components. In fact, for 
the first time in several years, all of the Reserve components 
are consistently achieving their recruiting goals.
    However, as we all agree, challenges remain. Many of the 
Reserve components are increasing their end strength, which 
will require continued focus on recruiting and retention, 
particularly for high-demand specialties. And as the active 
components continue to grow, it will be increasingly difficult 
for the Reserve components to attract prior-service candidates. 
Therefore, we must continue to provide sufficient resources to 
attract and retain high-quality personnel.
    The success of the Guard and Reserve components would also 
not be possible without the support of our Reserve employers. 
Employers must fill the holes left by deployed reservists who 
are sometimes on their second deployment in only a few years' 
time. The strain has become even greater during the current 
economic recession, and I look forward to hearing what is being 
done to make certain that we continue to have the support of 
our business community in hiring and supporting our reservists.
    The subcommittee is pleased to see that equipment shortages 
continue to be reduced, although we know significant shortfalls 
still remain. It is important that the Department continues to 
focus on equipping the Reserve components by requesting 
sufficient funding in annual budget submissions and 
prioritizing the fielding of equipment to the Reserve 
components. We must make certain that the Guard and Reserves 
have the equipment they need for training and operations at 
home and abroad.
    I look forward to hearing your perspective on these issues 
and your recommendations for strengthening our forces during 
this most demanding time. And I thank you for your testimony 
this morning, and may I assure you that your full statements 
will be made part of the record.
    We will begin our hearing with the panel of the National 
Guard, but first, I would like to turn to my distinguished vice 
chairman, Senator Cochran of Mississippi, for any remarks he 
may wish to make.

                   STATEMENT OF SENATOR THAD COCHRAN

    Senator Cochran. Mr. Chairman, thank you very much. I am 
pleased to join you in welcoming the leaders of our National 
Guard and Reserve components to today's hearing.
    Today's citizen soldiers, sailors, airmen, and marines are 
an indispensable and operational reserve. The days of the 
weekend warrior are history. These everyday people balance a 
day job, family interests, and are now volunteering for 
deployments, humanitarian missions, and nonservice traditional 
assignments around the globe. When they are not supporting 
operational needs of combatant commanders, they stand ready to 
assist in dealing with natural disasters here at home.
    We appreciate the service that you provide our Nation. 
Thank you very much. We look forward to your testimony.
    Chairman Inouye. Now may I call upon the man who is in 
charge of the Guard? General Vaughn.
    General Vaughn. Mr. Chairman, Mr. Vice Chairman, it is a 
privilege to be here with you. As you stated, we have turned in 
our statements for the record, and so I will be very brief, and 
I look forward to answering the questions.
    The first thing I would like to do is to introduce to this 
subcommittee a great noncommissioned officer. He happens to be 
the noncommissioned officer of the year for the entire 1.1 
million of our men and women Army. He is a National Guardsman 
from Montana, and his name is Sergeant Michael Noyce Marino, 
and he has his wife with him, Shelly.
    Of course, we talk very emotionally about what a close-knit 
family we are in the Guard and Reserve, and that is where our 
strengths come from, from our communities. So today, as we were 
having a discussion in my office before we started over here, I 
asked the typical question, where is everybody from. Shelly's 
mother and I grew up in the same 4,000-person town in Dexter, 
Missouri, and Senator Bond--I am sure you know I am going to 
tell him that deal too. Unbelievable sometimes.
    I really appreciate what you have done. You know we look to 
your leadership with the National Guard and Reserve equipment 
appropriations. We know what has been done there. We know the 
money that you put in there, especially for the full-time 
support piece. Your confidence in us has been well justified. 
You know we are the strongest Army National Guard right now of 
all time, and we are making progress every day. We are ready to 
do whatever the State and the Nation ask us to do, and it is 
because of your great support that has made that possible.
    As you know, the 2010 budget is not here, and so when it 
comes, we just ask for your help, again just like you have 
always given us in doing the right thing.
    Please take a look at funding for civil support teams 
(CSTs), a critical element in our organizations. We want to 
make sure that they are sufficiently taken care of.
    And the last thing is it is probably my last time to appear 
before this subcommittee, and it has been a privilege and an 
honor to come over here and testify, something that I will 
always cherish and remember. So thank you very much.
    I look forward to your questions.
    [The statement follows:]

        Prepared Statement of Lieutenant General Clyde A. Vaughn

                 NATIONAL GUARD POSTURE STATEMENT 2010
                  INTRODUCTION AND EXECUTIVE OVERVIEW
        GENERAL CRAIG R. MC KINLEY, CHIEF, NATIONAL GUARD BUREAU
                             NEW BEGINNINGS

    2008 was a year filled with positive change for the National Guard. 
The National Defense Authorization Act (NDAA) of 2008, enacted in 
January, designated the National Guard Bureau (NGB) as a joint activity 
of the Department of Defense (DOD). The law also elevated the grade of 
the Chief, National Guard Bureau to the rank of General. With this new 
stature and an explicit linkage to the Secretary of Defense, through 
the Chairman of the Joint Chiefs of Staff (CJCS), NGB is better 
positioned to represent National Guard issues and concerns at the 
highest levels in the DOD.
    The Report of the Commission on the National Guard and Reserves and 
NDAA 2008 both identified the need for a new NGB charter. After almost 
a year of close collaboration among NGB, the Combatant Commanders, the 
CJCS, the Armed Services and the DOD staff, Secretary Robert M. Gates 
signed DOD Directive 5105.77, National Guard Bureau. This unprecedented 
directive formally lays out the full scope of NGB's functions, roles, 
and authorities--embedding NGB in DOD's strategic processes. It is 
sound DOD policy.

                          AN OPERATIONAL FORCE

    The depth provided by the National Guard is no longer the ``once in 
a lifetime'' use of a strategic reserve as envisioned during the Cold 
War. The National Guard has become an operational force that is an 
integral part of the Army and Air Force; it is populated by seasoned 
veterans with multiple deployments in support of operations in Iraq, 
Afghanistan, the Balkans, and many other locations around the world.
    In addition to the thousands of National Guard Soldiers and Airmen 
currently activated for ongoing federal missions, the National Guard 
provides significant response to unexpected contingencies. Despite 
major overseas commitments, during the 2008 hurricane season over 
15,000 Guardsmen responded on short notice to catastrophic events 
unfolding in Louisiana and Texas. The National Guard serving here at 
home also fought extensive fires and flooding and provided disaster 
relief to numerous states throughout the year.

                               READINESS

Personnel
    Our most precious assets flow from our communities. Citizen-
Soldiers and Airmen are employed by their Governors every day to 
protect American lives and property in the homeland from weather-
related events to suspected biochemical contamination. Despite all we 
have asked of them in the overseas warfight as well as here at home, we 
are recruiting and retaining National Guard members in impressive 
numbers. Americans join and stay in the National Guard. But as 
successful as we have been to date, we need continued support for 
recruiting and retention efforts as well as increased endstrength 
authorizations.
Equipment
    The National Guard must have modern equipment if we are to remain 
successful as defenders of the homeland at home and abroad.
    Army National Guard (ARNG) units deployed overseas have the most 
up-to-date equipment available and are second to none. However, a 
significant amount of equipment is currently unavailable to the Army 
National Guard in the states due to continuing rotational deployments 
and emerging modernization requirements. Many states have expressed 
concern about the resulting shortfalls of equipment for training as 
well as for domestic emergency response operations.
    The Army is programming $20.9 billion for ARNG equipment for fiscal 
year 2009 through fiscal year 2013 to procure new equipment and 
modernize equipment currently on hand. We appreciate that support and 
also the strong interest of the Congress and the Department of Defense 
in closing the gap between our domestic requirements and the available 
equipment in our armories and motor pools.
    The Air Force is in the midst of modernizing and recapitalizing its 
major weapons platforms, and the Air National Guard (ANG) must be 
concurrently recapitalized, particularly in order to avoid near to mid-
term ``age out'' of the majority of its fighter force. Our primary 
concern is that 80 percent of our F-16s, the backbone of our Air 
Sovereignty Alert Force, will begin reaching the end of their service 
life in 8 years. To that end, we support the Air Force's 
recapitalization plan, but request that all roadmaps be inclusive of 
the Air National Guard as a hedge against this ``age out.''

                       STATE PARTNERSHIP PROGRAM

    The National Guard State Partnership Program (SPP) establishes 
enduring and mutually beneficial partnerships between foreign countries 
and American states through the National Guard. This program is an 
important component of the Department of Defense's security cooperation 
strategy, the regional Combatant Commanders' theater engagement 
program, and the U.S. ambassadors' Mission Strategic Plans. A primary 
aim is to promote partnership among the many nations working with us to 
advance security, stability, and prosperity around the globe. Today, 
American states are partnered with 60 foreign nations (a 60 percent 
increase over the past 5 years) to focus on military-to-military, 
military-to-civilian, and civil security activities.
    Created in 1993, SPP has helped the United States European, 
African, Southern, Pacific, and Central Commands engage the defense and 
military establishments of countries in every region of the globe. The 
program's benefits include:
  --Providing Combatant Commanders and U.S. ambassadors with avenues 
        for building international civil-military partnerships and 
        interoperability during peacetime by linking state capacities 
        to the goals and objectives in the Foreign Assistance Framework 
        of the U.S. Government.
  --Enhancing current and future coalition operations by encouraging 
        and assisting partner nations to support efforts such as NATO's 
        Operational Mentor and Liaison Team program in Afghanistan, and 
        exercises supporting the Association of Southeast Asian Nations 
        region.
  --Building more cultural and global awareness into Citizen-Soldiers 
        and Airmen to help them operate in today's complex multi-
        national and multi-agency operations.
    This valuable mutual security cooperation program will continue to 
expand in size and strategic importance to the Combatant Commanders, 
ambassadors, and broad U.S. Government interagency requirements as we 
enter the second decade of the 21st century.

                               THE FUTURE

    The National Guard, the nation's community-based force, will always 
answer the call of the President and the Governors.
    Our priorities are constant: Provide for the security and defense 
of our homeland at home and abroad; support the Global War on Terror; 
and respond to America's need for a reliable and ready National Guard 
that is transformed for the 21st century.
    It is an honor to be named the 26th Chief of the National Guard 
Bureau. As a synchronized joint activity, we will capitalize on 
momentum gained over the past several years and will build new 
relationships based on our new roles and responsibilities.
    The National Guard will remain ``Always Ready, Always There.''
    The following pages offer a full report on our recent 
accomplishments along with our ongoing responsibilities for fiscal year 
2010.

LIEUTENANT GENERAL CLYDE A. VAUGHN, DIRECTOR, ARMY NATIONAL GUARD, ARMY 
                             NATIONAL GUARD
                       MESSAGE FROM THE DIRECTOR

    Army National Guard (ARNG) Citizen-Soldiers continue the proud 
tradition of service to our nation both at home and around the world. 
Our Citizen-Soldiers consistently proved themselves capable of 
operating across a wide spectrum of missions in Iraq, Afghanistan, 
Belgium, Bosnia, Djibouti, Egypt, Germany, Honduras, Kosovo, Kuwait, 
and the Philippines.
    The ARNG continues to achieve outstanding results meeting 
recruiting and retention goals. As of December 31, 2008, Army National 
Guard assigned strength was 365,814 Citizen-Soldiers, a gain of 
approximately 35,000 Citizen-Soldiers in about 3 years. At the same 
time we have reduced our non-participating numbers to 5,404 (from 6,082 
in July 2005).
    With thousands of our Citizen-Soldiers ``on the ground'' in foreign 
lands, we are equally busy at home. National Guard units fought 
wildfires in California, aided hurricane victims on the Gulf Coast, and 
assisted numerous environmental clean-up activities around the country. 
These responses from across our land demonstrate the importance of 
training and equipping our Soldiers so they are ready to render service 
and assistance to home communities.
    We are committed to deploying Citizen-Soldiers with the best 
equipment and training possible. The U.S. Army's similar assurance and 
ongoing Congressional interest in the welfare of our people will ensure 
the success of the Army National Guard.

                 INVESTING IN PRESENT AND FUTURE VALUE

    Mobilizations, deployments, modular force conversions, counterdrug 
assistance, and disaster response dominated the ARNG's efforts to 
answer needs at home and abroad. But to remain America's vital force, 
the ARNG must invest in people, equipment, operations, and technology 
like never before.
Meeting Mission Requirements
    Heavy demands on personnel and declines in equipment-on-hand due to 
increased mobilizations and deployments continued in fiscal year 2008. 
The Army National Guard effectively met mission requirements and 
continued to support ongoing conflicts. However, for some units 
returning from deployment, equipping and training levels decreased 
readiness.
Modular Force Conversion and Rebalance
    The Army National Guard successfully met its 2008 goal of 
transforming 1,300 operating force units to a modular design. This 
brings the total number of units transformed to more than 2,800.
    Converting Army National Guard units to modular configuration in an 
era of persistent conflict has significantly increased equipment and 
modernization requirements and has also increased equipment readiness.
    The Army National Guard brigade combat teams (BCTs) are composed 
identically to the active Army and can be combined with other BCTs or 
elements of the joint force to facilitate integration, 
interoperability, and compatibility. The Army National Guard 
transformation into these modular formations provides an enhanced 
operational force. This is key to meeting the goal of making at least 
half of Army and Air assets (personnel and equipment) available to the 
Governors and Adjutants General at any given time. This transformation 
effort impacts over 87 percent of Army National Guard units across all 
50 states, three territories, and the District of Columbia, and crosses 
every functional capability in the force.

                         INVESTING IN PERSONNEL

    Our greatest asset is our people. We have the best trained force in 
the world. But we also have unparalleled support of our Citizen-
Soldiers and their families. This support is paramount in maintaining 
our superior standing in the world.
Endstrength: Recruiting and Retention
    As previously noted, recruiting and retention was exceptional with 
an end-of-calendar year assigned strength of 365,814 Citizen-Soldiers. 
The following programs provided the impetus for these gains.
  --The Army National Guard's Recruiting Assistance Program (G-RAP) is 
        a civilian contract recruiting program that, as of December 9, 
        2008, has processed 80,000 enlistments since its inception in 
        December 2005. At the end of fiscal year 2008, approximately 
        130,000 recruiting assistants were actively working. In August 
        2007, G-RAP expanded to include incentives for officer 
        accessions.
  --The Recruit Sustainment Program (RSP), launched in 2005, improves 
        our training success rate by easing newly enlisted National 
        Guard Soldiers into the military environment through Initial 
        Entry Training--a combination of Basic Combat Training and 
        Advanced Individual Training.
    The war on terror, transformation to modular formations, and 
domestic operations will continue to test the all-volunteer force. 
However, the Army National Guard is optimistic and confident that it 
will grow the force and have manned units to meet all missions at home 
and abroad.
Full-Time Support
    Full-time support (FTS) personnel play a vital role in the ARNG's 
readiness both at home and abroad. Active Guard and Reserve (AGR) 
Soldiers and Military Technicians sustain the day-to-day operations of 
the entire Army National Guard. The AGR and Technician force is a 
critical component of readiness in the ARNG as the Reserve Components 
transition to an operational force.
Medical Readiness
    Funding, treatment authorities, and medical readiness monitoring 
through Medical Operations Data Systems (MODS) have helped the ARNG 
increase medical readiness throughout the nation and allow deploying 
units to report at all-time high medical readiness levels.
    In 2008, 92 percent of ARNG Soldiers reporting to mobilization 
stations were determined to be medically deployable. This represents a 
significant improvement upon previous years. This increased readiness 
throughout the ARNG has reduced pre-deployment training time lost due 
to required medical corrective actions. The ARNG is implementing the 
Army Select Reserve Dental Readiness System that will enable commanders 
to achieve 95 percent dental readiness in support of DOD Individual 
Medical Readiness standards.
Incapacitation Pay
    The Army National Guard Incapacitation (INCAP) benefit provides 
interim pay to ARNG Soldiers with a service-connected medical condition 
(provided that they are not on active duty). The INCAP pay software, 
released in early fiscal year 2008, facilitates the administration of 
this benefit.
    The INCAP process provides compensation in two situations. First, a 
Soldier who is unable to perform military duty may receive military pay 
less any civilian earnings. Second, a Soldier who can perform military 
duty, but not a civilian job, may receive lost civilian earnings up to 
the amount of the military pay. INCAP incorporates a detailed 
accounting system of tracking Soldiers who receive INCAP pay, the date 
initiated, the amount received, and when terminated. INCAP quickly 
compensates Soldiers, therefore allowing them to concentrate on the 
rehabilitation process, and focus on their families.
Survivor Services
    The ARNG renders dignified Military Honors according to service 
tradition for all eligible veterans. The ARNG supports 79 percent of 
all Military Funeral Honors for the Army and 51 percent of all Funeral 
Honors for all services. In fiscal year 2008, the ARNG provided 
Military Funeral Honors for over 97,000 veterans and 200 Soldiers 
killed in action.

                 INVESTING IN EQUIPMENT AND FACILITIES

    Upgrading and maintaining our equipment and facilities is becoming 
increasingly vital as we face challenges at home and abroad. The era of 
persistent conflict demands nothing less.
Equipment on Hand and Equipment Availability
    The historic equipment on-hand (EOH) percentage for the ARNG has 
been about 70 percent. In fiscal year 2006, EOH declined to 
approximately 40 percent due to cross-leveling of equipment to support 
immediate deployment requirements. It increased to about 49 percent in 
fiscal year 2007. By the end of fiscal year 2008, the ARNG had 76 
percent of its required equipment on-hand when deployed equipment is 
included.
Equipment Readiness Levels
    When items supporting mobilized and deployed units are subtracted 
out of this equation, the current warfighting equipment on-hand 
percentage falls to 63 percent of Modification Table of Organization 
and Equipment (MTOE) requirements available to the Governors of the 54 
states and territories.
    Domestic response is a critical ARNG mission. The Chief of the 
National Guard Bureau has pledged that 50 percent of Army and Air Guard 
forces will be available to a Governor at all times to perform state 
missions.
    The Army has taken positive steps to improve the Army National 
Guard equipping posture. The Army's goal is to fully equip all BCTs, 
regardless of components, by 2015.
    Congress has been very responsive to ARNG equipping requirements 
through funds in the National Guard and Reserve Equipment account. This 
much needed funding has been used to procure critical dual-use items to 
support the ``Essential 10'' capabilities.
Ground and Air Operating Tempo
    The ground operating tempo (OPTEMPO) program is one of the 
keystones in equipment readiness. Direct ground OPTEMPO pays for 
petroleum, repair parts, and depot-level repairables. Indirect OPTEMPO 
pays for expenses such as administrative and housekeeping supplies, 
organizational clothing and equipment, medical supplies, nuclear, 
biological and chemical (NBC) supplies and equipment, and inactive duty 
training (IDT) travel which includes Command Inspection, staff travel, 
and cost of commercial transportation for Soldier movement.
    In 2008, ground OPTEMPO funding for the Army National Guard totaled 
$901 million in base appropriation plus $73 million in supplemental for 
a total of $974 million. This funding directly impacts the readiness of 
ARNG units to participate in global operations as well as domestic 
preparedness. Significant equipment remains in theater after Guard 
units return from deployments. Equipment shortages at home stations 
compel greater use of what is available. These demanding conditions 
have resulted in rapid aging of equipment. While the ground OPTEMPO 
sustains equipment-on-hand, it does not replace major-end items that 
are battle-lost or left in the theater of operations.
    The air operating tempo (OPTEMPO) program supports the ARNG Flying 
Hour Program which includes petroleum-oil-lubricants, repair parts, and 
depot-level repairables for the rotary wing helicopter fleet.
    In 2008, air OPTEMPO funding for the Army National Guard totaled 
$280 million in base appropriation plus $128 million in supplemental 
for a total of $408 million. This funding provides for fuel and other 
necessities so that 4,708 ARNG aviators can maintain currency and 
proficiency in their go-to-war aircraft. Achieving and maintaining 
desired readiness levels will ensure aircrew proficiency and risk 
mitigation, which helps to conserve resources. ARNG aviators must 
attain platoon level proficiency to ensure that they are adequately 
trained to restore readiness and depth for future operations.
Reset Process
    The Army continued to work with Army National Guard leaders to 
refine requirements for critical dual-use equipment and to ensure that 
the states and territories can adequately protect the lives and 
property of American citizens during a catastrophic event.
    Several changes helped resolve reset issues during 2008. The 
biggest change provided funds directly to the Army National Guard. This 
allowed the ARNG to conduct reset operations at home stations. The Army 
National Guard's initial $127 million, plus $38 million from the Army, 
supported the ARNG's reset efforts. This streamlining process enabled 
the states to have their equipment immediately available.
Logistics-Depot Maintenance
    The Army National Guard Depot Maintenance Program continued to play 
an integral part in the ARNG sustainment activities during 2008. This 
program is based on a ``repair and return to user'' premise as opposed 
to the equipment maintenance ``float'' (loaner) system used by the 
active Army.
    The amount of equipment qualifying for depot repair increased by 
26.7 percent in fiscal year 2009. This increase was due primarily to 
the rebuilding of the ARNG's aged tactical wheeled vehicle fleet. 
During 2008, the Army National Guard Depot Maintenance Program funded 
the overhaul of 3,405 tactical vehicles as well as calibration 
services.
Facilities and Military Construction
    In more than 3,000 communities across America, the local National 
Guard readiness center (armory) is not only the sole military facility 
but also an important community center. For National Guard members, 
these facilities are critical places where we conduct training, perform 
administration, and store and maintain our equipment. Many of our aging 
facilities are in need of repair or replacement. The continuing strong 
support of the Congress for Army National Guard military construction 
and facilities sustainment, restoration, and maintenance funding is 
crucial to our readiness.
    In fiscal year 2008, Congress made $843 million available for 
facility operations and maintenance in the ARNG. This level of funding 
covered ``must fund'' operations including salaries, contracts, 
supplies, equipment leases, utilities, municipal services, engineering 
services, fire and emergency services, and program management.
Environmental Program
    Recent success in the ARNG's Environmental Program underscores its 
mission to excel in environmental stewardship to ensure the welfare of 
all citizens and communities while sustaining military readiness. 
Program highlights include:
  --The Army Compatible Use Buffer (ACUB) program that supports Soldier 
        training by protecting an installation's accessibility, 
        capability, and capacity while sustaining the natural habitat, 
        biodiversity, open space, and working lands. Since this program 
        began in 2003, the National Guard, along with civilian 
        partnership contributions, helped to protect 40,000 military-
        use acres from encroachment at nine ARNG training centers.
  --Cleanup and restoration programs that continue to make steady 
        progress at Camp Edwards, Massachusetts, where five major 
        groundwater treatment projects have been completed.
  --The final stages of cleaning up an open detonation area that will 
        eventually become maneuver training land at Camp Navajo, 
        Arizona.

                        INVESTING IN OPERATIONS

    Sound management practices demand that we stay focused on 
operational issues and missions such as readiness, training, ground 
operating tempo, and aviation, including the Operational Support 
Airlift Agency.
Domestic Operations
    The Army National Guard Domestic Operations Branch coordinates and 
integrates policies, procedures, and capabilities to ensure critical 
operations are continued in the event of an emergency, or threat of an 
emergency, anywhere in the United States and its territories.
    The following missions in 2008 exemplify the National Guard's 
resolve in protecting and preserving the homeland.
  --In June, National Guard troops provided sandbagging, search and 
        rescue, power generation, logistical support, food and water 
        distribution, debris removal, shelter set up, and support to 
        law enforcement during Mississippi River flooding. Over a 3-
        week period, more than 6,800 Soldiers from Iowa, Indiana, 
        Illinois, Missouri, and Wisconsin provided their respective 
        states with critical capabilities.
  --In California last summer, 8,300 wildfires consumed over 1.2 
        million acres. The California ARNG supplied 1,350 Citizen-
        Soldiers to protect people and property around the state, 
        including 400 Citizen-Soldiers deployed to the front lines to 
        fight fires. California air crews, assisted by Army and Air 
        National Guard aviation teams from 12 other states, dumped 4.2 
        million gallons of retardant to extinguish the blazes.
  --In August, over 15,000 Citizen-Soldiers from Texas, Louisiana, and 
        other states supported relief efforts after Hurricanes Gustav 
        and Ike. Their mission included food and water distribution, 
        search and rescue, air medical evacuations, communication 
        support, hazardous material assessments, shelter operations, 
        and debris removal.
    Army National Guard Citizen-Soldiers stand ready throughout the 54 
states and territories to respond to any crisis.
Operational Support Airlift Agency
    The Operational Support Airlift Agency is a Department of the Army 
field operating agency under the National Guard Bureau that supports 
114 aircraft worldwide and over 700 personnel. During 2008, these 
aircraft flew over 54,000 hours, transported about 21 million pounds of 
cargo, and carried more than 100,000 passengers. This included combat 
support in the Middle East and Africa, relief efforts for the Gulf 
Coast and California wildfires, and criminal investigation task force 
efforts in Columbia and Cuba.
Training
            Muscatatuck Urban Training Center
    The 974-acre Muscatatuck Urban Training Center (MUTC), located in 
Indiana, is a self-contained, contemporary urban training environment.
    In its second year of operation, more than 19,000 trainees from 
military (including 13,000 Army National Guard and Reserve Soldiers), 
government, and private agencies used the facilities at MUTC. Training 
helps prepare Soldiers to fight in foreign cities and helps prepare 
Soldiers and others to deal with the aftermath of attacks on U.S. 
cities. In the future, MUTC could train as many as 40,000 troops 
annually at the urban warfare practice facility.
            ARNG eXportable Combat Training Capability
    The Army National Guard's eXportable Combat Training Capability 
(XCTC) is a fully instrumented group of field training exercises that 
provide tough, realistic training for every ARNG unit during pre-
mobilization training.
    This training incorporates the most current tactics, techniques, 
and procedures used in theater. In fiscal year 2008, the ARNG conducted 
two XCTC rotations (Illinois and Oregon) and trained a total of eight 
battalions. Planning is underway to conduct six XCTC rotations that 
will provide training for 18 battalions.
    By training and certifying pre-mobilization training tasks, the 
XCTC reduces post-mobilization training time and thus increases the 
availability of units for ``boots on the ground'' time in the warfight.

                  INVESTING IN INFORMATION TECHNOLOGY

    During fiscal year 2008, ARNG information technology (IT) resources 
supported these network security projects:
Network Services
    The ARNG IT organization reviewed the communications and network 
service capabilities that states and territories will require in the 
event of a natural or man-made disaster or contingency. The solution 
restores access to network services should a readiness center (armory) 
lose connectivity regardless of local infrastructure availability. Each 
deployment will bring a virtual Joint Force Headquarters (JFHQ) node to 
the affected area and provide voice, video, Internet Protocol (IP) 
data, and push-to-talk services to a site within 36 hours.
    Other specific actions include:
  --Acquiring network simulator training that provides network 
        operators and defenders a safe network environment to conduct 
        initial qualification, mission qualification, crew training, 
        position certification, and exercises.
  --Planning and implementing secure network access for deploying 
        Brigade Combat Teams and their supporting Battalions.
  --Strengthening the Enterprise Processing Center by incorporating 
        backup and storage capability in accordance with the National 
        Guard Bureau's continuity of operations requirements.

  LIEUTENANT GENERAL HARRY ``BUD'' WYATT, III, DIRECTOR, AIR NATIONAL 
                                 GUARD
                       MESSAGE FROM THE DIRECTOR

    The Air National Guard (ANG) is both a reserve component of the 
Total Air Force (USAF) and the air component of the National Guard. As 
a reserve component of the Total Air Force, the ANG is tasked under 
Title 10 U.S. Code, ``to provide trained units and qualified persons 
available for active duty in the armed forces, in time of war or 
national emergency . . .''--in essence, a combat-ready surge 
capability. The ANG augments the regular Air Force by providing 
operational capabilities in support of Homeland Defense both 
domestically and overseas. As the air component of the National Guard, 
the ANG provides trained and equipped units and individuals to protect 
life and property, and to preserve peace, order, and public safety.
    As a reserve component of the Total Air Force, ANG members 
regularly perform operational missions both in the United States and 
overseas. For example, over 6,000 ANG members vigilantly stand guard 
protecting the homeland. Overseas, more than 7,000 National Guard 
Airmen are deployed at any given time, whether in Southwest Asia or 
little known locations around the world, providing airpower 
capabilities such as strike, airlift, air refueling, and intelligence, 
surveillance, and reconnaissance (ISR) to joint and coalition forces.
    The ANG provides a myriad of capabilities to support state and 
local civil authorities in protecting life and property. We provide 
capabilities in areas such as airlift, search and rescue, aerial 
firefighting, and aerial reconnaissance. We also furnish critical 
support capabilities such as medical triage and aerial evacuation, 
civil engineering, infrastructure protection, and Hazardous Materials 
(HAZMAT) response. During 2008, National Guard Airmen helped their 
fellow citizens after Hurricanes Gustav, Hanna, and Ike; protected life 
and property from wildfires in the West, tornados in the Midwest, and 
blizzards and ice storms across the country; and assisted with security 
at the Republican and Democratic National Conventions.
    The ANG faces today's challenges by examining the past, serving in 
the present, and planning for the future. We are preserving our 
heritage as a community-based, predominantly part-time force while we 
adapt to numerous force structure changes, placing our ANG on a clear 
path for future missions. While we cannot know every potential threat 
we will face, we do know that success depends on our ability to 
continually adapt and evolve toward new and exciting missions and 
capabilities. In order to adapt and effectively support our national 
security objectives, we must focus our efforts in three areas:
  --Modernize and recapitalize the aging ANG fleet of aircraft to 
        ensure that we, as the proven leader in air dominance today, do 
        not become complacent and fail in our vigilance against those 
        who seek to challenge our mastery of the air.
  --Maximize the use of associations and community basing to better 
        support the Air Force mission.
  --Evolve future mission areas to better support the overall Air Force 
        mission.

                             A QUICK REVIEW

    The ANG's global presence throughout 2008 was felt in the following 
ways:
  --Deployed 20,231 service members to 85 countries on every continent, 
        including Antarctica.
  --Participated in missions in Iraq, Afghanistan, and Bosnia; 
        humanitarian airlifts to Southeast Asia and Africa; drug 
        interdiction in Latin and South America; exercises in Europe 
        and Japan; and many other missions.
  --Provided not only airpower capabilities, but capabilities in 
        medical, logistics, communications, transportation, security, 
        civil support, and engineering.
    This was another crucial year for the ANG as its men and women 
continued to defend America's interests worldwide in waging the Global 
War on Terror. Simultaneously, we continued to bring our force 
structure into balance following historic mission changes initiated by 
Base Realignment and Closure (BRAC), and Air Force modernization and 
recapitalization initiatives.

                      DEVELOPING ADAPTABLE AIRMEN

    The Air National Guard values our Airmen, their families, 
employers, and our civilian employees as our greatest resources. The 
current corps of Air Guard members contains some of the most skillful 
and talented in our history. We remain committed to recruiting, 
retaining, and cultivating Airmen who are ready, willing, and capable 
of meeting 21st century challenges and leading with a vision that looks 
beyond tomorrow.
Recruiting and Retention
    With the support of Congress, and the use of innovative approaches 
by our recruiters, the ANG finished fiscal year 2008 with an assigned 
strength of 107,679 Airmen. We surpassed our recruiting objective for 
the first time since 2002, achieving 126 percent of our goal. This 
accomplishment occurred despite a historically high operational tempo, 
executing BRAC decisions, and implementing Total Force Initiatives.
G-RAP
    One program proving highly successful for ANG recruiters was the 
Guard Recruiting Assistance Program (G-RAP). With the help of current 
and former (including retired) members, our recruiters tapped into a 
larger circle of influence that let friends, family, and associates 
know about the tangible and intangible rewards that come with service 
in the Air National Guard. In fiscal year 2008, 3,676, or 34 percent, 
of our enlistments originated from leads generated by G-RAP volunteers. 
An overall 90 percent retention rate also bolstered our recruiting 
success for fiscal year 2008. By maintaining a high retention rate, the 
Air National Guard decreases the cost of replacing valuable members.

                               READINESS

    Even though we met our recruiting and retention goals this year, we 
face the growing challenge of training the right people with the right 
skills to meet mission changes while responding to high wartime 
commitments and dealing with resource constraints. To deal with this we 
must focus on the three primary areas of readiness--personnel, 
training, and equipment.
Personnel
    Personnel readiness, including skills affected by equipment 
shortages which bear upon our ability to train, has the greatest impact 
upon ANG overall readiness rates. As previously mentioned, working 
through a period with such a large number of units changing missions 
also skews the percentages. To a lesser degree, but still important, 
are the numbers of personnel on medical or dental profiles--an issue 
that affects our ability to deploy worldwide. The Air National Guard is 
placing increased emphasis upon these many challenges that affect our 
personnel readiness.
    The ANG continues to maintain personnel readiness by supporting our 
people returning from deployments. We must maintain the ANG readiness 
posture by ensuring our Airmen receive appropriate and timely medical 
and dental assessment and treatment at all levels. We offer this 
through Frontline Supervisors and Landing Gear training programs, and 
through the Post Deployment Health Reassessment process.
Training
    Training readiness is an ongoing challenge as we strive to meet 
training standards. In order to retain our highly qualified, 
experienced personnel, we must have the ability to train to both 
domestic operations and combat standards while meeting deployment 
demands. Equipment shortages of emergency management equipment for ANG 
civil engineers, weapons for security forces, and aircraft engines 
adversely impact training capabilities, and could negatively affect 
retention rates. While the volume of mission-related training 
requirements seems to grow exponentially, we will continue to explore 
and take advantage of every opportunity to meet training requirements 
in a timely manner.
    The most significant challenge for the ANG, however, has been to 
fit its wartime requirements and mission changes into the traditional 
framework of a community-based, predominately part-time force. Our 
members have a history of answering the call to service, and have not 
lost sight of their mission: to be a combat-ready Air Force composed of 
dedicated, professional Airmen serving in both state and federal roles.
Equipment
    ANG equipment readiness presents greater challenges as long-term 
costs in operating and maintaining older aircraft continue to rise due 
to more frequent repairs, fuel prices, and manpower requirements. 
Although fuel prices have declined in recent months, the cost of 
aircraft maintenance continues to rise significantly as we struggle to 
extend the life of our aging fleet.
    The current air traffic control system is 1950s technology that 
received minor radar upgrades in the 1980s. Replacement parts are 
obsolete and no longer available on the market. Modifying and upgrading 
the old system would cost more than a new system. The Air National 
Guard provides 62.5 percent of the United States Air Force's air 
traffic control (ATC) wartime mission. In support of Operations 
Enduring Freedom and Iraqi Freedom, the ANG deployed five mobile ATC 
Radar Approach Controls. Additionally, the ANG has peacetime 
obligations to support the National Airspace System, providing ATC 
services at designated military/civil airports.
    In the final analysis, the Air National Guard will meet 21st 
century challenges by proactively shaping its future with combat-ready, 
adaptable Airmen at its core.

                       MODERNIZE AND RECAPITALIZE

    The age of the ANG fleet is of grave concern. Aircraft and 
equipment in both the regular Air Force and the ANG are quickly wearing 
out. The average age of ANG aircraft is now over 25 years, with KC-135s 
being the oldest at 49 years. The high operational tempo since 1990 has 
added flying hours that have accelerated this aging process. As already 
mentioned, long-term costs to operate and maintain these older aircraft 
have increased. Additionally, our potential adversaries have improved 
their capabilities, raising concerns about the ability of our current 
aircraft to defend U.S. interests around the globe.
    Modernization of our equipment and training platforms is based on 
capabilities needed by the Air Force. As the ANG moves increasingly 
into the worlds of command and control, intelligence, reconnaissance, 
surveillance, unmanned systems, and cyberspace, the process has 
expanded to include expert warfighters in these areas. As a 
capabilities-based force, the ANG can better assess, plan, and support 
its federal (Title 10) and state (Title 32) missions, remain relevant 
to operations, and be interoperable with other forces.
    Changing the force structure and orientation of units away from 
airborne platforms to unmanned systems and capabilities is a difficult, 
yet necessary transition. These efforts to redefine the ANG will be 
expanded upon in the Future Mission Areas section of this report.
    The ANG is committed to seamlessly integrating into the operational 
environment. Our modernization program is based on Air Force and 
Combatant Command requirements and vetted among reserve component and 
active duty warfighters. Some examples include:
Mobility Aircraft
    The ANG will pursue further modifications to flight instruments, 
communications, navigation, and terrain/traffic avoidance systems along 
with upgrades to engines and missile warning and countermeasures on ANG 
mobility aircraft (C-5, C-17, C-130, KC-135) and other aircraft.
Combat Aircraft
    Air National Guard combat aircraft (A-10, F-15, and F-16) comprise 
about one-third of the Air Force's combat capability. Eighty percent of 
our F-16s will begin reaching the end of their service life in 8 years. 
While our maintainers continue to keep our fleet combat ready and 
available, we must replace our legacy systems to remain viable and 
relevant.
Unmanned Aircraft Systems
    The Air National Guard expansion into the world of unmanned 
aircraft systems continues to move forward in Arizona, California, 
North Dakota, New York, Nevada, and Texas Air National Guard units, as 
illustrated with the development of integrated Predator and MQ-9 Reaper 
Operations Centers. These centers will not only allow smooth operation 
and control of current and future transformational warfighting and 
homeland defense missions, but will integrate multiple systems 
currently running independently. The RQ-4 Global Hawk continues to 
provide high quality intelligence, surveillance, and reconnaissance 
(ISR) support for Operation Iraqi Freedom while also supporting 
homeland missions.
MC-12 and Project Liberty
    Mississippi's 186th Air Refueling Wing is taking on an additional 
mission, training aircrews for the Air Force's newest manned ISR 
platform, the MC-12. Designated Project Liberty, the program will train 
nearly 1,000 Airmen during the next 2 years at Key Field near Meridian, 
Mississippi, at a cost of about $100 million. The MC-12 is expected to 
bolster the Department of Defense's intelligence gathering capability 
in Operations Iraqi Freedom and Enduring Freedom.
Dual-Use Capabilities
    Developing and fielding ``dual-use'' capabilities are the 
cornerstone to the ANG's cost effective contribution to combat and 
domestic operations. Many domestic operations capabilities are outlined 
in the National Guard Bureau's ``Essential 10'' core military 
capabilities relevant to Civil Support. In fiscal year 2010, with the 
support of Congress, we will address critical shortfalls in medical, 
communications, transportation, logistics, security, civil support 
teams, engineering, and aviation. The ANG will continue to increase 
capabilities for use during domestic missions for the foreseeable 
future.
    Competing sustainment costs and funding requirements for 
recapitalization present challenges for the Total Force. However, by 
similarly equipping the ANG and the regular Air Force, we directly 
support efforts in Total Force Integration (TFI). In short, the ANG 
needs to be concurrently equipped with the active duty force to support 
our total Air Force mission--to be the dominant air power, second to 
none.
Maximize Associations and Community Basing
    Since Vietnam, the Air Force has understood the importance of unit 
integrity on combat effectiveness, and has reflected this in war plans 
for unit mobilizations. As such, the ANG, Air Force Reserve (AFRES), 
and active Air Force have formed unique alliances that promise to 
increase mission effectiveness while reducing costs.
    Under three types of constructs known as ``associations,'' ANG, 
AFRES, and active Air Force units share not only facilities and 
equipment, but knowledge and experiences (many ANG members spend their 
careers with the same unit and equipment).
  --Under ``classic associations'' the active duty unit retains 
        principal responsibility for its equipment and the reserve unit 
        shares in operating and maintaining it.
  --With ``active associations'' active duty personnel are assigned to 
        reserve units in local communities where they share in the 
        operation and maintenance of reserve-assigned assets.
  --The last association, called ``reserve associate,'' is similar to 
        the ``active'' and ``classic'' relationships in that one air 
        reserve unit retains ownership of the assets and another unit 
        shares in operating and maintaining the equipment as an air 
        reserve component associate unit.
    ``Community basing'' is a core characteristic that forms the 
foundation of our competitive edge as a cost effective combat-ready 
reserve. Over 60 percent of the ANG force consists of ``traditional'' 
part-time, professional Airmen, who train to the same standards, supply 
the same capabilities and provide the same response times as the 
regular Air Force.
    The ANG is closely tied to our communities. Generally our members 
are recruited locally, hold civilian jobs there, and maintain close 
ties throughout most of their careers in the ANG. Unlike regular Air 
Force Bases which tend to be self-sufficient, we also depend on our 
local communities for many common resources needed to support the 
mission. Shared infrastructure, such as retail stores and housing, 
reduces operating costs significantly (66 of 88 ANG flying units are 
co-located at civilian airports, sharing runways, taxiways, and fire/
crash emergency response).
    The synergy resulting from these relationships is fundamental to 
the mission readiness of the ANG in these ways:
  --Ties to the local area provide personnel stability, resulting in a 
        high level of unit integrity and experience.
  --Long-term relationships position the ANG to plan, exercise, and 
        respond to natural and man-made domestic emergencies.
  --Shared civil/military work force provides the ANG and the community 
        with broad skill sets.
Future Mission Areas
    The ANG is prepared to take on more mission sets to better support 
the overall Air Force mission. The ANG will continue to work with the 
Adjutants General to refine and update the modernization and 
recapitalization plans outlined previously. We will not only support 
our Governors at home with quick responses to natural and man-made 
disasters, but will also support the Combatant Commanders with improved 
mobility, agile combat support, and other mission sets, both tried and 
new.
            Rapid Global Mobility
    Continuing ANG participation in inter-theater or strategic airlift 
(C-5, C-17), intra-theater or tactical airlift (C-130, future C-27/
JCA), and air refueling (KC-135, KC-10, future KC-45) is important. 
Within the Strategic Reserve construct, strategic airlift and air 
refueling are central due to their surge-to-demand operation and 
ability to meet scheduled operational force requirements rapidly. 
Tactical airlift fits well with dual capabilities required by the ANG's 
state and federal roles. Its versatility makes it especially valuable 
in responding to domestic needs, such as Modular Aerial Fire Fighting 
(MAFF), and aerial delivery of food and supplies to disaster victims, 
and in search and rescue.
            Agile Combat Support
    Expeditionary Combat Support (ECS) units will continue to provide 
essential combat service support in sustaining all elements of 
operating forces, providing medical support, services, security forces, 
civil engineers, transportation, logistics support, and airfield 
maintenance. ECS also includes ANG support to National Guard Civil 
Support Teams (CSTs) and Chemical, Biological, Radiological, Nuclear, 
and high-yield Explosives (CBRNE) Enhanced Response Force Packages (NG-
CERFP) to assist civil authorities' response to domestic CBRNE 
incidents. These units are at the forefront of our dual-use 
capabilities in responding domestically to man-made and natural 
disasters as well as overseas disasters and operational missions.
            Intelligence, Surveillance, and Reconnaissance (ISR)
    The ANG can help meet rapidly increasing ISR requirements for the 
Joint Force, in areas such as the following: ISR in Special Operations; 
Distributed Ground Stations; Human Intelligence; National Tactical 
Integration; ISR Center of Excellence (Nellis AFB, Nevada); Air Force 
Expeditionary Signals Intelligence; Computer Network Exploitation; 
Tactics Analysis; Global Aviation Analysis Support Team; and All Source 
Intelligence Analysis.
    United States Special Operations Command (USSOCOM) requested 
investment in manning ISR aerial ports, which points to the need to 
further invest in small aircraft to support specific ISR requirements, 
something the ANG is uniquely qualified to do since it already 
possesses the appropriate aircraft and experienced aircrews. Platforms 
such as these have dual-use capability for both homeland and 
expeditionary operations. Specifically, it can support DOD's ``Building 
Partnership Capacity'' efforts with nations desiring a partnership 
arrangement involving a low-cost multi-utility platform, which could 
further enhance the National Guard State Partnership Program (SPP). 
This manned ISR mission, using the small aircraft platform, is 
potentially the most promising initiative for the ANG in the near 
future.
Cyberspace
    This year the Air National Guard continued to grow into cyberspace 
by establishing three more information operations squadrons, raising 
the number of operational units to eight. These new units include the 
166th Network Warfare Squadron based at New Castle Airport, Delaware, 
the 273rd Information Operations Squadron (IOS), Lackland AFB, Texas, 
and the 229th IOS, located in the Vermont National Guard Armory. While 
the specifics of each unit's mission vary slightly, all are dedicated 
to deterring the ever growing number of daily attacks against this 
nation's cyber-based infrastructure.
Space Operations
    ANG units support space and missile operations at several locations 
in Alaska and the continental United States. Air Force Space Command 
desires increased ANG involvement in space operations, to include 
Missile Warning associate squadrons, Missile Operations support 
squadrons, Distributed Command and Control Mission expansion, and Space 
Launch/Range operations.
Continuing Missions
    The ANG will retain some existing mission sets, such as those 
associated with Global Persistent Attack. This mission is a surge task 
that requires a large number of fighter aircraft, particularly in the 
early stages of a conflict. The Air Force Reserve Components provide 
the most cost effective way to maintain this surge capability.
    The Air Force will not be able to recapitalize its fighter force 
structure on a one-to-one basis, which means that some ANG fighter 
units have been required to transition to other mission areas. 
Developing active and classic associations such as those mentioned 
above are now underway as we transform to new and promising mission 
sets.
    For fiscal year 2010, fully rebalancing and training will involve a 
complex interchange of people, training, and resources. These mission 
changes will directly impact about 15,000 Air National Guard members 
across the nation.
    In an environment where change is considered a constant instead of 
a variable, we continue to move forward knowing a more capable Air 
National Guard will better serve the needs of our nation tomorrow and 
far into the future.

 MAJOR GENERAL PETER M. AYLWARD, DIRECTOR, JOINT STAFF, NATIONAL GUARD 
                                 BUREAU
                       MESSAGE FROM THE DIRECTOR

    Today's National Guard faces a more complex and challenging world 
than ever before. There are no easy solutions to our comprehensive 
problems. America must remain ready to fight and win across the full 
range of military operations. Enemies are finding new ways to overcome 
the difficulties of geographic distance. The increase in travel and 
trade across U.S. borders has created new vulnerabilities for hostile 
states and actors to exploit opportunities to perpetrate devastating 
attacks on the U.S. homeland. U.S. military forces enjoy significant 
advantages in many aspects of armed conflict, but we will be challenged 
by adversaries who possess or design novel concepts to overcome our 
advantages.
    At home, the terrorism threat coincides with violent drug-
trafficking organizations and border security challenges. These trends 
produce a geopolitical setting that is increasingly complex and 
unpredictable. Therefore, the National Guard must be flexible and 
prepared for the unexpected. In addition, the way the National Guard is 
organized, equipped, and trained provides the unique ability to respond 
quickly and effectively to natural disasters and man-made catastrophic 
events. The National Guard Bureau's Joint Staff has taken on these 
challenges with the following efforts, teams, and programs.

                          DOMESTIC OPERATIONS

Weapons of Mass Destruction Civil Support Teams (WMD-CST)
    The National Guard continues to strengthen its ability to respond 
to chemical, biological, radiological, nuclear, and high-yield 
explosive incidents with 55 WMD-CSTs and two newly established units 
going through the DOD certification process. These units are manned by 
22 full-time Army and Air Guard personnel who provide each Governor 
with an immediate response capability, specialized expertise, and 
technical assistance that can be provided to local incident commanders 
nationwide. WMD-CSTs do not duplicate state CBRNE response 
capabilities, but support civil authorities by identifying CBRNE agents 
or substances, assessing current or projected consequences, advising on 
response options, and assisting with requests for state support. 
Congress recently expanded the use of CSTs to include response to 
intentional or unintentional HAZMAT incidents and natural or manmade 
disasters.
    The National Guard's Civil Support Teams, which are so essential to 
the security of the American people on an almost daily basis, depend on 
the availability of adequate operations and maintenance funds to carry 
out their tasks. Any reduction in funding below that requested carries 
the risk of hindering the operational capability of these essential 
teams.
Chemical, Biological, Radiological, Nuclear, and High-Yield Explosive 
        (CBRNE)--Enhanced Response Force Package (CERFP) Teams
    Army and Air National Guard Citizen-Soldiers and Airmen with 
technical response skills in this area make up 17 CERFP teams covering 
every region of the country. The CERFP team is designed to locate and 
extract victims from a collapsed structure in a contaminated 
environment, perform medical triage and treatment, and conduct 
personnel decontamination from a weapon of mass destruction incident.
CBRNE Consequence Management Response Forces (CCMRFs)
    Each CCMRF provides 4,700 trained and equipped active and reserve 
component military personnel ready to assist civil authorities in 
response to a CBRNE incident. CCMRF capabilities include: CBRNE 
reconnaissance and detection; casualty search and extraction; 
decontamination; hazardous material handling and disposal; medical 
triage, treatment, and care; aero-medical evacuation; explosive 
ordnance disposal; air and land transportation; and mortuary affairs.
    The National Guard Bureau continues to support planning for the 
standup of all CCMRFs.
Joint Force Headquarters-State (JFHQ-State)
    The National Guard continues to strengthen and refine the 54 Joint 
Force Headquarters throughout the United States. JFHQ-State works to 
enable effective domestic responses while conducting traditional state 
National Guard training responsibilities for Army and Air Force reserve 
component forces. Each JFHQ-State provides the Governor with 
information and command and control for effective National Guard 
response; provides improved situational awareness to DOD before, 
during, and after an emergency response; and facilitates unity and 
continuity of military (federal and state) effort during Continental 
U.S. (CONUS) operations.
Critical Infrastructure Program--Mission Assurance Assessment (CIP-MAA) 
        Teams
    National Guard CIP-MAA teams are comprised of Citizen-Soldiers and 
Airmen trained to assess the vulnerability of industrial sites and 
critical U.S. Government infrastructure to attack. Their analysis helps 
various government agencies direct prevention, deterrence, mitigation, 
and response efforts. Currently, three teams are assessing Defense 
industrial base sites and ten teams are assessing Department of 
Homeland Security sites.
Joint Enabling Team (JET)
    The National Guard Bureau's highly trained professionals making up 
Joint Enabling Teams establish a logistics and support link between 
NGB, the supported state, and supporting states and agencies. The JETs 
help identify potential mission shortfalls and facilitate missions by 
assisting with the collection, reporting, and sharing of information. 
They ensure that resources are available and that personnel directly 
involved in the mission are effectively supported for domestic 
operations involving floods, hurricanes, and tropical storms.
National Guard Reaction Force (NGRF)
    Within hours of an incident, upwards of 500 individuals can assist 
state and local law enforcement by providing site security, presence 
patrols, show-of-force, establishment of roadblocks and/or checkpoints, 
control of civil disturbances, force protection and security for other 
responders, and protection of DOD assets as required.
Task Force for Emergency Readiness (TFER)
    The TFER program enlists National Guard officers at the state level 
to write comprehensive ``state'' Homeland Security Plans that address 
the eight national planning scenario sets. The Federal Emergency 
Management Agency (FEMA) is currently funding five pilot states 
(Hawaii, Massachusetts, South Carolina, Washington, and West Virginia) 
with the intent of expanding TFER to all states based on the 
anticipated success of the pilot program.

                          COUNTERDRUG PROGRAMS

    In 2008, some 2,400 National Guard personnel supported law 
enforcement agencies in seizing illegal drugs with a street value of 
approximately $28 billion. The National Guard supports law enforcement 
counterdrug operations with 125 specially equipped Army National Guard 
OH-58A helicopters and 11 Air National Guard counterdrug RC-26B fixed-
wing aircraft.
    Synchronizing counterdrug information-sharing among law enforcement 
agencies, the National Guard, and Department of Defense agencies has 
greatly increased the efficiency and speed of the effort.
Stay on Track
    In 2008, National Guard personnel reached over 3 million people 
with their positive anti-drug messages. Drug demand reduction programs 
such as Stay on Track have reached over 115,000 middle school students 
in 215 schools around the country since 2007. In 2009, Stay on Track 
plans to reach out to another 150,000 students.

                          OPERATION JUMP START

    The National Guard and the U.S. Border Patrol marked the end of the 
Operation Jump Start (OJS) mission in 2008 with ceremonies in 
Washington, D.C. Operation Jump Start began June 15, 2006, and 
officially ended July 15, 2008. At its peak, the operation saw up to 
6,000 National Guard Citizen-Soldiers and Airmen assisting the Border 
Patrol to increase security and vigilance along the nation's southern 
border.
    OJS assistance not only freed up hundreds of Border Patrol agents 
to perform their normal law enforcement duties, but it also allowed 
time for the Border Patrol to hire and train more agents. ``Within law 
enforcement, there is one word that we put a lot of weight on,'' said 
David V. Aguilar, Chief of the Border Patrol. ``That is the word 
`partner.' Today, I am very proud to call every individual who wears 
the uniform of the National Guard, has ever worn it, or will wear it, 
or is in any way affiliated with the National Guard . . . our true 
partners, and for that we truly thank you.''
    Over the 2-year period, more than 29,000 troops from all 54 states 
and territories participated. As we look back on this operation, we 
count the following successes:
  --Assisted with over 176,000 immigration violation apprehensions;
  --Aided in seizing over 315,000 pounds of marijuana;
  --Aided in seizing 5,000-plus pounds of cocaine;
  --Helped build more than 19 miles of road;
  --Helped repair more than 717 miles of road;
  --Helped construct 38 miles of fencing; and
  --Helped erect 96 miles of vehicle border barriers.
    The National Guard provided the Border Patrol logistical and 
administrative support by operating detection systems, providing 
communications, and analyzing border-related intelligence. Citizen-
Soldiers and Airmen also built new infrastructure, conducted training, 
and provided additional aviation assets and ground transportation.

                     JOINT AND INTERAGENCY TRAINING

    To continue providing quick and effective support of local and 
state response forces, the National Guard must continue expanding its 
capacity to conduct joint and interagency training in a domestic 
environment. We can accomplish this by increasing the number of 
National Guard, state and local response forces, DOD, and federal 
agencies participating in the U.S. Northern Command (USNORTHCOM) and 
NGB Joint Interagency Training Capability (JITC) programs.
    Increased participation by these and other agencies will improve 
tactical interoperability as well as unity of effort among state, 
local, and federal agencies during catastrophic man-made or natural 
disasters. Increasing the number and scope of National Guard regional 
training centers (such as the Joint Interagency Training and Education 
Center (JITEC) in West Virginia) will also improve response proficiency 
and standardize tactics, techniques, and procedures for National Guard 
teams dealing with chemical, biological, radiological, nuclear, and 
high-yield explosives (CBRNE).
Joint Interagency Exercise Program (VIGILANT GUARD)
    This exercise program conducts four National Guard regional 
exercises each year that provide valuable experience and training 
opportunities to the following force elements:
            JTF Commander Training Course
    This course prepares potential JTF commanders to operate, organize, 
and function in the unique federal and state environment. The 4-day in-
residence course is conducted twice a year at USNORTHCOM in Colorado 
Springs.
            JFHQ/JTF Staff Training Course (JSTC)
    This course provides comprehensive training and education for joint 
staff to support JFHQ and JTF missions in state or federal status.
            Collective CBRNE Training Program
    Seventeen CBRNE Enhanced Response Force Packages (CERFPs) and 57 
Weapons of Mass Destruction--Civil Support Teams (WMD-CSTs) learn to 
respond to a catastrophic CBRNE event in this program.
            Joint Interagency Training and Education Center (JITEC)
    In addition to the Joint Interagency Training Capability, JITEC 
plays an integral part in continuing the National Guard's 
transformation for the future by building relationships and 
capabilities with our interagency partners. Joint Interagency 
highlights include:
  --Providing more than 30,000 duty-days of training and interaction in 
        over 800 exercises to some 90 different organizations and 
        agencies since September 11, 2001; and
  --Scheduling more than 200 training, exercise, or assessment 
        activities in 2010.
    With continuing support from both DOD and Congress, the National 
Guard will continue to transform itself into a premier homeland 
security and defense organization, leveraging state and federal 
responses, capabilities, and expertise.
       technology revolutionizes emergency response and training
    Technology has played a key role in enhancing the National Guard 
Joint Staff's effectiveness in America's emergency preparedness and 
response. Emergency response training, information exchange, and 
command and control activities are more robust than ever to support 
local communities during a time of catastrophic events. The following 
highlights our progress.
Joint CONUS Communications Support Environment (JCCSE)
    The JCCSE is the National Guard Bureau and USNORTHCOM umbrella 
platform that establishes communications and information sharing for 
Homeland Defense and Civil Support missions from the national to the 
state or territory level. The JCCSE platform ensures the National 
Guard's capacity to provide Command, Control, Communications, and 
Computer (C\4\) support necessary to carry out National Guard 
responsibilities. These capabilities directly supported FEMA operations 
during Hurricanes Gustav and Ike.
    Communications, situational awareness, and command and control were 
bolstered with the following JCCSE enhancements:
  --NGB acquired 84 Joint Incident Site Communications Capability 
        (JISCC) systems to be distributed to the 54 states and 
        territories. These sets provide interoperable communications at 
        the incident site along with a satellite link to command and 
        control centers to share information and tools needed to 
        request or direct support.
  --NGB established a Joint Command, Control, Communications, and 
        Computer (C\4\) Coordination Center (JCCC) to monitor the 
        status of all National Guard communications to the Joint Force 
        Headquarters in each state, FEMA, and all emergency agencies 
        involved. During an incident, the JCCC provides help-desk and 
        satellite link support to teams deploying with JISCC.
  --NGB established the Joint Information Exchange Environment (JIEE) 
        as a web-based application to provide a common operating 
        picture of all non-federalized National Guard activities. JIEE 
        provides the ability to monitor, track, and share operational 
        information with mission partners in a trusted domestic 
        operations environment that extends down to the incident level. 
        This capability is not currently available in DOD programs of 
        record.
    The domestic information environment in which JCCSE must 
interoperate continues to evolve. Consequently, NGB will continue to 
request funding to both sustain and adapt JCCSE capabilities as the 
domestic response requirements emerge.
Emergency Management Staff Trainer (EMST)
    The Emergency Management Staff Trainer is a new virtual training 
application that provides extremely low-cost, scenario-driven training 
that can be repeated as many times as needed. This capability offers 
training that is geographically specific, allowing National Guard and 
civilian emergency management personnel to engage in training specific 
to their own city or state.
    Scenarios developed to date include Hurricane Preparation and 
Response, Earthquake Response, Building Collapse, and Pandemic 
Influenza Answer.
Regional and State Online Resource--Emergency Management (RaSOR-EM)
    RaSOR-EM supports training activities by combining commercially 
available mapping programs with links to thousands of emergency 
management databases and other information sources, dramatically 
enhancing speed and access to this critical information. All 54 states 
and territories, numerous federal agencies, and personnel from the 
Department of Homeland Security currently use the program. Data layers 
have been added to include critical infrastructure data, locations of 
schools and reserve centers, and other valuable data.

                       SUPPORTING THE WARFIGHTER

    An effective Citizen-Soldier or Airman is one who knows his or her 
family is safe, secure, and able to function efficiently while he or 
she is deployed. An effective Soldier or Airman also needs support in 
transitioning back to civilian life after long deployments. Keeping our 
Soldiers and Airmen ready, both physically and mentally, requires the 
National Guard's support through programs for the individual and the 
family.
Transition Assistance Advisors
    Sixty-two Transition Assistance Advisors (TAAs) were hired in the 
states, territories, and District of Columbia to provide personalized 
service to Guard and family members. They educate and assist them on 
constantly evolving benefits information, assist them in obtaining 
their federal and state benefits and entitlements, and help them file 
and track benefits claims. These personalized services include linking 
Guard members and families to behavioral health resources, disability 
claims filing, and obtaining disability compensation. These advisors 
work closely with the liaisons from the NGB and Department of Veterans 
Affairs (DVA) and have proven themselves invaluable by educating 
National Guard leadership, Guard members, and veterans on the myriad of 
complex benefits and entitlements earned through their military 
service.
    In one instance, the TAA, the Seattle Veterans' regional office, 
and the Washington National Guard teamed up to test an idea that allows 
persons to file for Veterans Administration benefits and process them 
within 6 to 8 days of their units returning from active duty--a method 
previously reserved only for returning active duty units. This is made 
possible by allowing access to military medical records, often a large 
factor for delays in claims. The units also complete medical benefits 
forms on site.
National Guard Joint Family Program
    The National Guard Joint Family Program (JFP) provides direct 
support to the 54 state and territory family program directors, youth 
coordinators, and 92 Wing Family Program Coordinators. The JFP office 
provides guidance, resources, and support to National Guard families 
when Guardsmen are deployed at home or abroad. JFP conducts all 
training events and national-level seminars and workshops for all of 
the above positions as well as for an estimated force of over 10,000 
National Guard family volunteers.
    The program office provides training to families via computer-based 
training modules, centralized classes, and locally provided training to 
help make families self-reliant throughout the deployment cycle 
process.
Family Assistance Centers
    Consider these actual family situations:
    A New Jersey National Guard Soldier, training for deployment to 
Afghanistan, receives word that his family's home is gutted by fire.
    A Soldier suffers from severe post traumatic stress disorder as he 
deals with his wife's declining health and the threat of losing their 
home.
    A catastrophic auto accident has left a Soldier a quadriplegic.
    These are just a few of the situations Family Assistance Centers 
(FACs) deal with each day to help our Soldiers. More than 300 FACs 
across the 54 states and territories provide information, referral, and 
outreach to families of geographically dispersed members from all 
services, whether active or reserve component. Family Assistance 
Centers are critical to mobilization and demobilization and to the 
long-term health and welfare of service members and their families. The 
FAC team believes that Soldiers who know their families are cared for, 
safe, and secure at home, can better concentrate on their tasks and 
missions in theater.
Yellow Ribbon Reintegration Program
    The Yellow Ribbon Program provides information, services, 
referrals, and proactive outreach to service members, spouses, 
employers, and youth from the beginning through the end of the 
mobilization lifecycle.
    The program provides a flexible family support system to meet the 
service member and family readiness needs of the expeditionary service 
component and geographically dispersed families. The program focuses on 
ensuring service members and their families receive the information and 
tools necessary to cope during the mobilization lifecycle.
    Yellow Ribbon Program services include: Marriage Enrichment; 
Employer Support for the Guard and Reserve (ESGR); Warrior Transition 
Unit Information; Traumatic Brain Injury Information and Support; Child 
Behavioral Counselors; Veterans Affairs Information; TRICARE/Medical 
Benefit Information; Family Counseling; Legal Counseling; Financial 
Counseling; Community Relations; School Support; Child Care Services; 
Informational meetings and briefings; Preparations for reintegration; 
and Employment opportunities.
Division of Psychological Health
    The newly created Division of Psychological Health will direct and 
manage a comprehensive psychological health service dedicated to Guard 
members and their families on a variety of conditions associated with 
post traumatic stress disorder(s) and/or traumatic brain injury. Fifty-
four licensed mental health practitioners will cover all the states and 
territories.
    The Psychological Health service goals include:
  --Providing high quality services that are National Guard member-
        specific;
  --Overseeing an individual's mental health and readjustment needs to 
        civilian life;
  --Addressing individual health care situations that may hinder 
        reintegration to civilian life; and
  --Consulting state and territory National Guard senior management on 
        specific mental health needs and trends based on membership 
        demographics.
    The NGB Division of Psychological Health is committed to providing 
quality care and will develop and implement a program that is 
practical, meaningful, and beneficial for our Guard members and their 
families, thereby ensuring our maximum operational readiness.
A Leader in Equal Opportunity
    In 2008, the National Guard Bureau Office of Equal Opportunity and 
Civil Rights developed Reasonable Accommodations procedures that are a 
model for other federal agencies. The National Guard Bureau is also 
officially partnering with Operation War Fighter through job fairs, 
resume reviews from the internet, and participation in ongoing work 
groups to enhance employment opportunities within NGB for wounded 
service members during their rehabilitation.
    This office ensures the effective management of National Guard 
Affirmative Action programs to achieve a military and civilian work 
force structure that reflects the diversity of the 54 states and 
territories.
    With the on-going support from Congress and the American people, 
the National Guard will continue to secure the American homeland while 
defending her interests abroad.
    Your National Guard is ``Always Ready, Always There.''

                        STATE ADJUTANTS GENERAL

    Alabama: Major General Abner C. Blalock Jr.
    Alaska: Major General Craig E. Campbell
    Arizona: Major General (AZ) Hugo E. Salazar
    Arkansas: Major General William D. Wofford
    California: Major General William H. Wade II
    Colorado: Major General H. Michael Edwards
    Connecticut: Major General Thaddeus J. Martin
    Delaware: Major General Francis D. Vavala
    District of Columbia: Major General Errol R. Schwartz, Commanding 
General
    Florida: Major General Douglas Burnett
    Georgia: Major General William T. Nesbitt
    Guam: Major General Donald J. Goldhorn
    Hawaii: Major General Robert G. F. Lee
    Idaho: Major General Lawrence F. Lafrenz
    Illinois: Major General William L. Enyart Jr.
    Indiana: Major General R. Martin Umbarger
    Iowa: Major General (Ret.) G. Ron Dardis
    Kansas: Major General Tod M. Bunting
    Kentucky: Major General Edward W. Tonini
    Louisiana: Major General Bennett C. Landreneau
    Maine: Major General John W. Libby
    Maryland: Brigadier General (MD) James A. Adkins
    Massachusetts: Major General (MA) Joseph C. Carter
    Michigan: Major General Thomas G. Cutler
    Minnesota: Major General Larry W. Shellito
    Mississippi: Major General (MS) William L. Freeman Jr.
    Missouri: Brigadier General (MO) Stephen L. Danner
    Montana: Brigadier General (MT) John E. Walsh
    Nebraska: Major General (NE) Timothy J. Kadavy
    Nevada: Major General Cynthia N. Kirkland
    New Hampshire: Major General (Ret.) Kenneth R. Clark
    New Jersey: Major General Glenn K. Rieth
    New Mexico: Major General (NM) Kenny C. Montoya
    New York: Major General Joseph J. Taluto
    North Carolina: Major General William E. Ingram Jr.
    North Dakota: Major General David A. Sprynczynatyk
    Ohio: Major General Gregory L. Wayt
    Oklahoma: Major General Myles L. Deering
    Oregon: Major General Raymond F. Rees
    Pennsylvania: Major General Jessica L. Wright
    Puerto Rico: Brigadier General (Ret.) Antonio J Vicens-Gonzalez
    Rhode Island: Major General Robert T. Bray
    South Carolina: Major General (Ret.) Stanhope S. Spears
    South Dakota: Major General Steven R. Doohen
    Tennessee: Major General Gus L. Hargett Jr.
    Texas: Major General Charles G. Rodriguez
    Utah: Major General Brian L. Tarbet
    Vermont: Major General Michael D. Dubie
    Virginia: Major General Robert B. Newman Jr.
    Virgin Islands: Major General (VI) Renaldo Rivera
    Washington: Major General Timothy J. Lowenberg
    West Virginia: Major General Allen E. Tackett
    Wisconsin: Brigadier General (WI) Donald P. Dunbar
    Wyoming: Major General Edward L. Wright

                              IN MEMORIAM

    National Guard Soldiers and Airmen lost during the attacks on 9/11, 
Operation Noble Eagle, Operation Enduring Freedom and Operation Iraqi 
Freedom as of January 1, 2009.

CPT Clayton L. Adamkavicius, KY
PVT Algernon Adams, SC
SGT Jan M. Argonish, PA
SFC Brent A. Adams, PA
SGT Leonard W. Adams, NC
SGT Spencer C. Akers, MI
SPC Segun F. Akintade, NY
PFC Wilson A. Algrim, MI
SPC Azhar Ali, NY
SGT Howard P. Allen, AZ
1LT Louis E. Allen, PA
SSG William A. Allers III, KY
SFC Victor A. Anderson, GA
SPC Michael Andrade, RI
SGT Travis M. Arndt, MT
SSG Daniel L. Arnold, PA
SSG Larry R. Arnold, MS
SGT Jesse A. Ault, VA
SGT Christopher J. Babin, LA
SFC Travis S. Bachman, KS
SSG Nathan J. Bailey, TN
SPC William L. Bailey, NE
SPC Ronald W. Baker, AR
SGT Sherwood R. Baker, PA
MSG Scott R. Ball, PA
1LT Debra A. Banaszak, IL
SGT Derek R. Banks, VA
1LT Gerard Baptiste, NY
SGT Michael C. Barkey, OH
1LT Christopher W. Barnett, LA
SPC Bryan E. Barron, MS
SGT Michael Barry, KS
SSG Robert J. Basham, WI
SPC Todd M. Bates, OH
SSG Tane T. Baum, OR
SPC Alan Bean Jr., VT
SGT Bobby E. Beasley, WV
SSgt Brock A. Beery, TN
CPL Joseph O. Behnke, NY
SGT Aubrey D. Bell, AL
SSG Keith A. Bennett, PA
SGT Darry Benson, NC
SPC Bradley J. Bergeron, LA
LTC Richard J. Berrettini, PA
SSG David R. Berry, KS
SSG Sean B. Berry, TX
SSG Harold D. Best, NC
SSG Richard A. Blakley, IN
SGT Dennis J. Boles, FL
SFC Craig A. Boling, IN
SSG Jerry L. Bonifacio Jr., CA
SSG Darryl D. Booker, VA
COL Canfield Boone, IN
SPC Christopher K. Boone, TX
CPL Samuel M. Boswell, MD
SSG Collin J. Bowen, MD
PFC Samuel R. Bowen, OH
SGT Larry Bowman, NY
SSG Hesley Box Jr., AR
SSG Stacey C. Brandon, AR
SPC Kyle A. Brinlee, OK
SSG Cory W. Brooks, SD
SFC John G. Brown, AR
SGT Lerando Brown, MS
PFC Nathan P. Brown, NY
PFC Oliver J. Brown, PA
SPC Philip D. Brown, ND
SPC Timothy D. Brown, MI
SGT Charles R. Browning, AZ
SFC Daniel A. Brozovich, PA
SSgt Andrew C. Brunn, NY
SPC Jacques E. Brunson, GA
PFC Paul J. Bueche, AL
CPL Jimmy D. Buie, AR
SSG James D. Bullard, SC
SPC Alan J. Burgess, NH
SGT Casey Byers, IA
SGT Charles T. Caldwell, RI
MAJ Jeffrey R. Calero, NY
SSG Joseph Camara, MA
1LT Jaime L. Campbell, WA
LTC David C. Canegata III, VI
SGT Deyson K. Cariaga, HI
SPC Frederick A. Carlson, PA
SSG Nicholas R. Carnes, KY
SPC Jocelyn L. Carrasquillo, NC
MSG Scott M. Carney, IA
SGT James D. Carroll, TN
SPC Dane O. Carver, MI
SGT Frank T. Carvill, NJ
SFC Virgil R. Case, ID
CPT Christopher S. Cash, NC
SPC Stephen W. Castner, WI
SPC Jessica L. Cawvey, IL
CPL Bernard L. Ceo, MD
SPC James A. Chance III, MS
SSG William D. Chaney, IL
MSG Chris S. Chapin, VT
SSG Craig W. Cherry, VA
SPC Don A. Clary, KS
MSG Herbert R. Claunch, AL
SGT James M. Clay, AR
SPC Brian Clemens, IN
SSG Thomas W. Clemons, KY
SGT Russell L. Collier, AR
SFC Kurt J. Comeaux, LA
SPC Anthony S. Cometa, NV
SGT Brian R. Conner, MD
SFC Sean M. Cooley, MS
SSG Travis S. Cooper, MS
SPC Marcelino R. Corniel, CA
SGT Alex J. Cox, TX
SFC Daniel B. Crabtree, OH
MSG Clinton W. Cubert, KY
SSG Daniel M. Cuka, SD
SPC Carl F. Curran, PA
CPT Patrick D. Damon, ME
SGT Jessie Davila, KS
SPC Daryl A. Davis, FL
SSG Kevin D. Davis, OR
SPC Raphael S. Davis, MS
SSG David F. Day, MN
PFC John W. Dearing, MI
SGT Germaine L. Debro, NE
MSG Bernard L. Deghand, KS
SGT Felix M. Del Greco, CT
SPC Daryl T. Dent, DC
SPC Daniel A. Desens, NC
CPT Bruno G. Desolenni, CA
PFC Nathaniel E. Detample, PA
CPL Scott G. Dimond, NH
SPC Joshua P. Dingler, GA
SGT Philip A. Dodson Jr., GA
SPC Ryan E. Doltz, NJ
SSgt Geronimo ``Jerome'' M. P. Dominguez, NY
1LT Mark H. Dooley, NY
SPC Thomas J. Dostie, ME
SSG George R. Draughn Jr., GA
SGT Duane J. Dreasky, MI
SPC Christopher M. Duffy, NJ
CPL Ciara M. Durkin, MA
SGT Arnold Duplantier II, CA
Sgt Lance O. Eakes, NC
SFC Amos C. Edwards Jr., GA
CWO Corry A. Edwards, TX
SFC Mark O. Edwards, TN
2LT Michael I. Edwards, AK
SGT Michael Egan, PA
SGT Christian P. Engeldrum, NY
SGT Daniel M. Eshbaugh, OK
CPT Phillip T. Esposito, NY
SPC Michael S. Evans II, LA
SPC William L. Evans, PA
SSG Christopher L. Everett, TX
SGT Justin L. Eyerly, OR
SPC Huey P. Long Fassbender, LA
SGT Gregory D. Fejeran, GM
CPT Arthur L. Felder, AR
SGT Robin V. Fell, LA
SGT Christopher J. C. Fernandez, GM
SPC William V. Fernandez, PA
SPC Jon P. Fettig, ND
SGT Damien T. Ficek, WA
SGT Courtney D. Finch, KS
SGT Jeremy J. Fischer, NE
CPT Michael T. Fiscus, IN
SPC David M. Fisher, NY
SGT Paul F. Fisher, IA
CW3 William T. Flanigan, TN
CW3 John M. Flynn, NV
SSG Tommy I. Folks Jr., TX
SGT Joseph A. Ford, IN
SGT Joshua A. Ford, NE
SPC Craig S. Frank, MI
SSG Bobby C. Franklin, GA
SSG Jacob Frazier, IL
SPC Carrie L. French, ID
SPC Armand L. Frickey, LA
SSG Joseph F. Fuerst III, FL
SFC Michael T. Fuga, AS \1\
SSG Carl R. Fuller, GA
SPC Marcus S. Futrell, GA
CSM Marilyn L. Gabbard, IA
SGT Jerry L. Ganey Jr., GA
SGT Seth K. Garceau, IA
SPC Tomas Garces, TX
SGT Landis W. Garrison, IL
PFC Alva L. Gaylord, MO
SGT Christopher Geiger, PA
SPC Christopher D. Gelineau, ME
SPC Mathew V. Gibbs, GA
2LT Richard B. Gienau, IL
SSG Charles C. Gillican III, GA
SGT Terrell W. Gilmore, LA
SPC Lee M. Godbolt, LA
SGT Jaime Gonzalez, TX
CPL Nathan J. Goodiron, ND
SPC Richard A. Goward, MI
SGT Shawn A. Graham, TX
SGT Jamie A. Gray, VT
SGT Kevin D. Grieco, IL
SPC James T. Grijalva, IL
SGT Shakere T. Guy, CA
SGT Jonathon C. Haggin, GA
SFC Peter J. Hahn, LA
CSM Roger W. Haller, MD
SSG Jeffrey J. Hansen, NE
SGT Joshua R. Hanson, MN
SGT Joshua W. Harris, IL
SSG Asbury F. Hawn II, TN
SPC Michael R. Hayes, KY
CPT Bruce E. Hays, WY
SGT Paul M. Heltzel, LA
SPC Kyle M. Hemauer, VA
1LT Robert L. Henderson II, KY
SSG Kenneth Hendrickson, ND
SFC John M. Hennen, LA
SGT Gary M. Henry, IN
SPC Michael L. Hermanson, ND
SPC Brett M. Hershey, IN
MSG Michael T. Hiester, IN
SGT Stephen C. High, SC
CPT Raymond D. Hill II, CA
SGT Shawn F. Hill, SC
SFC Matthew L. Hilton, MI
SGT Jeremy M. Hodge, OH
PFC Derek Holland, PA
SFC Robert L. Hollar Jr., GA
SPC Eric M. Holke, CA
SPC James J. Holmes, MN
SPC Jeremiah J. Holmes, ME
SGT Manny Hornedo, NY
SGT Jessica M. Housby, IL
SPC Robert W. Hoyt, CT
SPC Jonathan A. Hughes, KY
SGT Buddy J. Hughie, OK
SGT Joseph D. Hunt, TN
MSG Julian Ingles Rios, PR
SSG Henry E. Irizarry, NY
SPC Benjamin W. Isenberg, OR
SFC Tricia L. Jameson, NE
SGT Brahim J. Jeffcoat, PA
SPC William Jeffries, IN
SPC David W. Johnson, OR
SGT Joshua A. Johnson, VT
SFC Charles J. Jones, KY
SSG David R. Jones Sr., GA
SFC Michael D. Jones, ME
SGT Ryan D. Jopek, WI
SGT Anthony N. Kalladeen, NY
SPC Alain L. Kamolvathin, NJ
SPC Mark J. Kasecky, PA
SSG Darrel D. Kasson, AZ
SPC Charles A. Kaufman, WI
SPC James C. Kearney, IA
SGT Michael J. Kelley, MA
SSG Dale J. Kelly, ME
COL Paul M. Kelly, VA
SSG Stephen C. Kennedy, TN
SSG Ricky A. Kieffer, MI
SSG Bradley D. King, IN
SGT James O. Kinlow, GA
PFC David M. Kirchoff, IA
SGT Timothy C. Kiser, CA
SPC Rhys W. Klasno, CA
SPC Chris Kleinwachter, ND
SGT Floyd G. Knighten Jr., LA
SPC Joshua L. Knowles, IA
SGT Brent W. Koch, MN
SSG Lance J. Koenig, ND
SGT Allen D. Kokesh Jr., SD
CW3 Patrick W. Kordsmeier, AR
SPC Kurt E. Krout, PA
SPC John Kulick, PA
SFC William W. Labadie Jr., AR
SGT Joshua S. Ladd, MS
SGT Dustin D. Laird, TN
SFC Floyd E. Lake, VI
SPC Charles R. Lamb, IL
SPC David E. Lambert, VA
SGT Denise A. Lannaman, NY
SFC Issac S. Lawson, CA
CW4 Patrick D. Leach, SC
SGT Terrance D. Lee Sr., MS
SGT David L. Leimbach, SC
PFC Ken W. Leisten, OR
SSG Jerome Lemon, SC
SPC Brian S. Leon Guerrero, GU
SPC Timothy J. Lewis, VA
SSG Nathaniel B. Lindsey, OR
SGT Jesse M. Lhotka, MN
SSG Victoir P. Lieurance, TN
SFC Daniel R. Lightner Jr., PA
SPC Justin W. Linden, OR
SSG Tommy S. Little, AL
SPC Jeremy Loveless, AL
SSG David L. Loyd, TN
CPT Robert Lucero, WY
2LT Scott B. Lundell, UT
SPC Audrey D. Lunsford, MS
PFC Jonathan L. Luscher, PA
SPC Derrick J. Lutters, CO
SPC Wai Phyo Lwin, NY
CPT Sean E. Lyerly, TX
SGT Stephen R. Maddies, TN
SPC Anthony L. Mangano, NY
SSG William F. Manuel, LA
SPC Joshua S. Marcum, AR
SPC Jeremy E. Maresh, PA
PFC Adam L. Marion, NC
PFC Ryan A. Martin, OH
Sgt Anthony L. Mason, TX
SGT Nicholas C. Mason, VA
SGT John R. Massey, AR
SGT Randy J. Matheny, NE
SGT Patrick R. McCaffrey Sr., CA
SFC Randy D. McCaulley, PA
1LT Erik S. McCrae, OR
SPC Donald R. McCune, MI
SPC Bryan T. McDonough, MN
SGT John E. McGee, GA
SPC Jeremy W. McHalffey, AR
SFC Joseph A. McKay, NY
SPC Eric S. McKinley, OR
LTC Michael E. McLaughlin, PA
SPC Scott P. McLaughlin, VT
SGM Jeffrey A. McLochlin, IN
SSG Heath A. McMillan, NY
SSG Michael J. McMullen, MD
SPC Robert A. McNail, MS
MSG Robbie D. McNary, MT
SSG Jeremiah E. McNeal, VA
SPC Curtis R. Mehrer, ND
PV2 Bobby Mejia II, MI
SPC Mark W. Melcher, PA
SPC Jacob E. Melson, AK
SPC Kenneth A. Melton, MO
SPC Jonathan D. Menke, IN
SSG Chad M. Mercer, GA
SPC Chris S. Merchant, VT
SSG Dennis P. Merck, GA
SGM Michael C. Mettille, MN
SPC Michael G. Mihalakis, CA
SSG Brian K. Miller, IN
SPC John W. Miller, IA
SGT Kyle R. Miller, MN
CPT Lowell T. Miller II, MI
SPC Marco L. Miller, FL
PFC Mykel F. Miller, AZ
SFC Troy L. Miranda, AR
SGT Ryan J. Montgomery, KY
SPC Samson A. Mora, GU
SGT Carl J. Morgain, PA
SPC Dennis B. Morgan, NE
SGT Steve Morin Jr., TX
SGT Shawna M. Morrison, IL
SPC Clifford L. Moxley, PA
LTC Charles E. Munier, WY
SPC Warren A. Murphy, LA
SGT David J. Murray, LA
SPC Nathan W. Nakis, OR
SPC Creig L. Nelson, LA
SGT Paul C. Neubauer, CA
SPC Joshua M. Neusche, MO
SGT Long N. Nguyen, OR
SPC Paul A. Nicholas, CA
SFC Scott E. Nisely, IA
SGT William J. Normandy, VT
PFC Francis C. Obaji, NY
SGT John B. Ogburn III, OR
SGT Nicholas J. Olivier, LA
SSG Todd D. Olson, WI
1LT Robert C. Oneto-Sikorski, MS
1SG Julio C. Ordonez, TX
SPC Richard P. Orengo, PR
SSG Billy Joe Orton, AR
SGT Timothy R. Osbey, MS
SSG Ryan S. Ostrom, PA
SSG Michael C. Ottolini, CA
SSG Paul S. Pabla, IN
SGT Mark C. Palmateer, NY
PFC Kristian E. Parker, LA
SGT Richard K. Parker, ME
SSG Saburant Parker, MS
SGT Lawrence L. Parrish, MO
SSG Michael C. Parrott, CO
SPC Gennaro Pellegrini Jr., PA
SGT Theodore L. Perreault, MA
SSG David S. Perry, CA
SGT Jacob L. Pfingsten, MN
SSG Joseph E. Phaneuf, CT
PFC Sammie E. Phillips, KY
SGT Edward O. Philpot, SC
SGT Ivory L. Phipps, IL
SSG Emanuel Pickett, NC
CW2 Paul J. Pillen, SD
PFC Derek J. Plowman, AR
SGT Foster Pinkston, GA
SGT Darrin K. Potter, KY
SGT Christopher S. Potts, RI
SGT Lynn R. Poulin Sr., ME
SFC Daniel J. Pratt, OH
SFC James D. Priestap, MI
2LT Mark J. Procopio, VT
SGT Joseph E. Proctor, IN
SPC Robert S. Pugh, MS
SFC George A. Pugliese, PA
SPC Joseph A. Rahaim, MS
SPC Eric U. Ramirez, CA
PFC Brandon Ramsey, IL
SPC Christopher J. Ramsey, LA
SSG Jose C. Rangel, CA
SGT Thomas C. Ray II, NC
SSG Johnathan R. Reed, LA
SSG Aaron T. Reese, OH
SGT Gary L. Reese Jr., TN
SGT Luis R. Reyes, CO
SPC Jeremy L. Ridlen, IL
SPC James D. Riekena, WA
SGT Greg N. Riewer, MN
PFC Hernando Rios, NY
SSG Milton Rivera-Vargas, PR
CPL John T. Rivero, FL
SSG William T. Robbins, AR
SSG Christopher L. Robinson, MS
CPL Jeremiah W. Robinson, AZ
SGT Nelson D. Rodriguez Ramirez, MA
SSG Alan L. Rogers, UT
SFC Daniel Romero, CO
SGT Brian M. Romines, IL
SFC Robert E. Rooney, NH
SPC David L. Roustum, NY
SGT Roger D. Rowe, TN
CW3 Brady J. Rudolf, OK
SGT David A. Ruhren, VA
CW4 William Ruth, MD
SPC Lyle W. Rymer II, AR
SPC Corey J. Rystad, MN
SFC Rudy A. Salcido, CA
SGT Paul A. Saylor, GA
SSG Daniel R. Scheile, CA
SPC Ronald A. Schmidt, KS
SFC Richard L. Schild, SD
SGT Jacob S. Schmuecker, NE
SPC Jeremiah W. Schmunk, WA
PFC Benjamin C. Schuster, NY
SGT Andrew Seabrooks, NY
SPC Dennis L. Sellen, CA
SGT Bernard L. Sembly, LA
SPC Daniel L. Sesker, IA
SGT Jeffrey R. Shaver, WA
SGT Kevin Sheehan, VT
SGT Ronnie L. Shelley Sr., GA
SGT James A. Sherrill, KY
1LT Andrew C. Shields, SC
SPC Bradley N. Shilling, MI
PFC Ashley Sietsema, IL
SGT Alfred B. Siler, TN
SGT Alfredo B. Silva, CA
SGT Isiah J. Sinclair, LA
SPC Roshan (Sean) R. Singh, NY
SPC Channing G. Singletary, GA
SPC Aaron J. Sissel, IA
SSG Bradley J. Skelton, MO
1LT Brian D. Slavenas, IL
SGT Eric W. Slebodnik, PA
SPC Erich S. Smallwood, AR
SGT Keith Smette, ND
CW4 Bruce A. Smith, IA
CPL Darrell L. Smith, IN
SGT Michael A. Smith, AR
SPC Norman K. Snyder, IN
SGT Mike T. Sonoda Jr., CA
Lt Col Kevin H. Sonnenberg, OH
SGT Matthew R. Soper, MI
SGT Kampha B. Sourivong, IA
SFC Theodore A. Spatol, WY
SFC William C. Spillers, MS
SPC David S. Stelmat, NH
SGT Patrick D. Stewart, NV
SGT Jonnie L. Stiles, CO
SGT Michael J. Stokely, GA
Maj Gregory Stone, ID
MSG John T. Stone, VT
SPC Brandon L. Stout, MI
SPC Chrystal G. Stout, SC
2LT Matthew R. Stoval, MS
SGT Francis J. Straub Jr., PA
SGT Matthew F. Straughter, MO
SGT Thomas J. Strickland, GA
WO1 Adrian B. Stump, OR
SSG Daniel A. Suplee, FL
SSG Michael Sutter, IL
SGT Robert W. Sweeney III, LA
SGT Deforest L. Talbert, WV
SFC Linda A. Tarango-Griess, NE
SPC Christopher M. Taylor, AL
SPC Deon L. Taylor, NY
CPT Michael V. Taylor, AR
SGT Shannon D. Taylor, TN
SGT Joshua A. Terando, IL
MSG Thomas R. Thigpen Sr., GA
SGT John F. Thomas, GA
MSG Sean M. Thomas, PA
SGT Paul W. Thomason III, TN
CPL Michael E. Thompson, OK
1LT Jason G. Timmerman, MN
SGT Humberto F. Timoteo, NJ
SPC Eric L. Toth, KY
SSG Robin L. Towns Sr., MD
SPC Seth R. Trahan, LA
SPC Quoc Binh Tran, CA
SSG Philip L. Travis, GA
CW4 Chester W. Troxel, AK
SGT Robert W. Tucker, TN
SGT Gregory L. Tull, IA
SPC Nicholas D. Turcotte, MN
1LT Andre D. Tyson, CA
SPC Daniel P. Unger, CA
PFC Wilfredo F. Urbina, NY
SGT Michael A. Uvanni, NY
1LT Robert Vallejo II, TX
SGT Gene Vance Jr., WV
SGT Travis A. Vanzoest, ND
SGT Daniel R. Varnado, MS
SSG Jason A. Vazquez, IL
1LT Michael W. Vega, CA
SSG David M. Veverka, PA
SPC Anthony M. K. Vinnedge, OH
SPC Chad J. Vollmer, MI
PFC Kenneth Gri Vonronn, NY
SPC Jason E. von Zerneck, NY
SSG Michael S. Voss, NC
PFC Brandon J. Wadman, FL
SSG Gregory A. Wagner, SD
SGT Andrew P. Wallace, WI
SGT Daniel W. Wallace, KY
SFC Charles H. Warren, GA
1SG William T. Warren, AR
SFC Mark C. Warren, OR
SPC Glenn J. Watkins, CA
MSG Davy N. Weaver, GA
SGT Matthew A. Webber, MI
SFC Kyle B. Wehrly, IL
SSG David J. Weisenburg, OR
SPC Michael J. Wendling, WI
SPC Cody Lee L. Wentz, ND
SPC Jeffrey M. Wershow, FL
SGT Marshall A. Westbrook, NM
SPC Lee A. Wiegand, PA
LTC James L. Wiley, OR
1LT Charles L. Wilkins III, OH
SGT David B. Williams, NC
SPC Michael L. Williams, NY
SFC Christopher R. Willoughby, AL
SSG Clinton L. Wisdom, KS
SPC Robert A. Wise, FL
SPC Michelle M. Witmer, WI
SSG Delmar White, KY
SGT Elijah Tai Wah Wong, AZ
SPC John E. Wood, KS
SFC Ronald T. Wood, UT
SGT Roy A. Wood, FL
SSG James Wosika, MN
SPC Brian A. Wright, IL
SGT Thomas G. Wright, MI
SGT Joshua V. Youmans, MI
SPC Christopher D. Young, CA

    \1\ American Samoa.

    Chairman Inouye. General Wyatt.

STATEMENT OF LIEUTENANT GENERAL HARRY M. WYATT, III, 
            DIRECTOR, AIR NATIONAL GUARD
    General Wyatt. Thank you, Mr. Chairman, Mr. Vice Chairman, 
Senator Leahy. Thank you for the opportunity to appear before 
the subcommittee today and allowing me to testify on behalf of 
the men and women of the Air National Guard (ANG), authorized 
end strength of 106,756 gallant airmen nationwide, and for the 
first time since 2002, our end strength is approaching 108,500.
    As we meet today, your Air National Guard is protecting the 
skies of the United States of America at 16 of the 18 air 
sovereignty alert sites covering the United States of America.
    We are forward-deployed in over 3,300 locations in our 
States. Our airmen are responding to disasters like hurricanes, 
tornadoes, and fires, and currently today we have airmen 
deployed in South Dakota and Minnesota fighting the floods in 
that region and snowstorms in Montana.
    Our airmen continue to volunteer at unprecedented rates to 
support overseas contingency operations, and we cannot forget 
the backbone of our force, the traditional Guard members who 
provide the efficiencies and the search capacity that make the 
Air National Guard a valued member of the Nation's defense.
    The Air National Guard has three primary themes, three 
primary concerns, as we appear before you today. The first is 
modernizing and recapitalizing the aging fleet of aircraft, to 
bridge the gap in mid-term Air Force capability. Second, we 
intend to leverage the inherent ANG efficiencies that I 
mentioned before and take on additional Air Force missions as 
appropriate. And we seek to maximize the use of associations of 
several different kinds, using the association construct and 
community basing to better support the air force mission.
    I stand ready to answer your questions, sir. Thank you.
    Chairman Inouye. Thank you very much, General.
    If I may, I would like to call upon General Vaughn first. 
The Army Guard is currently at 366,500 end strength. This is 
13,900 more than authorized and exceeds the entire end strength 
growth planned for the Guard. Can you tell us why the Guard has 
exceeded the authorized strength so significantly? And how do 
you plan to pay for the additional guardsmen?
    General Vaughn. Thank you, Mr. Chairman.
    Number one, a couple of years ago, we were tremendously 
under strength, and there were a lot of doubting Thomases that 
we could make end strength; however, we did that, we put 
together a great program. The States worked it hard; I take 
tremendous pride in our forces throughout the Nation.
    The authorization for us and the money for the Army 
National Guard in the supplemental is at 358,200. In fact, we 
are, actually--you know this thing continues to climb in spite 
of putting the levers in place to stop it. And we are 10,000 
over the authorized number.
    Next year, to grow the Army piece, we were supposed to be 
at 358,200. The statutory appropriations, as you outline, is 
exactly on the mark, 352,600. So, long story short, we have to 
reduce by 10,000 soldiers between now and the end of the year 
to get to the authorized level. We will do that.
    The way we will do that is that we will change our system. 
We had an albatross of a system. We had a dinosaur of a system. 
We take youngsters in that want to be in our formations and 
swear them in on the first day, and then they sit in our 
formations for a long time before they ship off to basic 
training. So in order to overcome that and to keep from cross-
leveling like we had to do, we over-drove our end strength with 
a goal toward correcting that deficiency and pulling it down by 
the end of the fiscal year, while at the same time growing 
readiness. We have a plan in place. I have briefed it to 
General McKinley, and there are three phases to this plan. We 
have been discussing that with the staff members, and we have 
discussed it with the Army, and the Army is confident in what 
we are going to do. But our eyes are on readiness, and I want 
to assure you that we will be at a level where we have been 
authorized to be at the end of the year.
    Chairman Inouye. I can assure you that the subcommittee and 
I support you on this, but just for the record, we wanted your 
explanation, sir.
    If I may ask General Wyatt. The Air Guard has announced 
plans to grow by 7,000 in fiscal year 2010. Active duty Air 
Force and Reserve announced similar plans last year to grow 
their end strength levels. They argued that these increases 
were necessary to restore cuts. The Guard was not part of the 
reductions. So why are these additional personnel required?
    General Wyatt. Mr. Chairman, you are correct in that the 
Air National Guard did not take personnel cuts when we were 
asked to respond to a PBD previously. We took those cuts in 
flying hours, took a little risk in their flying hour program.
    To answer your question, sir, if we take a look at the 
missions right now that the Air Force has asked the Air 
National Guard to perform--current authorized end strength of 
106,756--if we look at the validated manpower requirements for 
those missions which we currently have accepted from the Air 
Force, we would need 2,228 additional military positions to 
fully man the missions that the Air Force has assigned the Air 
National Guard.
    We also have a need to populate our joint force 
headquarters which is really the tool that the Adjutants 
General use to execute the missions for the Governors, but also 
to assist in our mobilization and deployments for the Federal 
warfight and to administer a lot of the airmen care programs 
that you mentioned in your opening comments.
    We also understand that the appetite for Air Force 
capability exceeds the authorizations at this point for 
manpower. We are poised with our current upward vector in 
recruiting. We are poised to answer the call should the Air 
Force need our assistance in manning some of these additional 
responsibilities if, again, our senior leaders determine that 
the Air National Guard should play a part in that. So we stand 
ready to answer that call, and those are the reasons why we 
would be looking at a possible increase in manpower if the Air 
Force would so request.
    Chairman Inouye. General, I thank you for your leadership. 
I think you are on the right track.
    General Vaughn, if I recall, in fiscal year 2006, you were 
just about 40 percent of your equipment needs, and now you are 
over 75 percent. How has this affected readiness?
    General Vaughn. Well, Mr. Chairman, it affects readiness in 
a significant way, and the actions, again, that this 
subcommittee has taken has enabled us to have the kind of 
world-class capability that we have today. The Army is making 
good on the promises. I have to tell you that with the pressure 
that has been on this particular issue--and the amount of money 
in it is a substantial amount of money, and our view of this is 
that we are getting better every day at equipping.
    The thing about the Guard, and like the other Reserve 
components back here, it is all about people. And we are moving 
so fast to having a great personnel readiness force that it 
deserves to have its equipment. It is not a hollow force 
anymore. At one time, that was true, but this 75 and 76 percent 
across the board right now--you know, there is a lot of 
turbulence and there is equipment that has been left behind, so 
forth and so on. We are not crying over that. The fact of it is 
that we are now seeing equipment delivered. After we got into 
this thing in 2006, we are now seeing in 2008--and we will see 
more of it in 2009. We are seeing it delivered into our force, 
and what it does for readiness, in a short answer, is 
substantial.

                              AGING FLEET

    Chairman Inouye. Thank you very much. I believe you made a 
statement saying that about 85 percent of your F-16s will reach 
the end of their lives in about 8 years. What are you doing to 
meet this shortfall?
    General Wyatt. Thank you very much, Chairman Inouye, for 
your question.
    That is one of the primary concerns that I have, the 
recapitalization of the Air National Guard. It is not just a 
problem that the Air National Guard faces. It is an issue that 
the entire Air Force faces, active duty, Guard, and Reserve.
    A large percentage of the Air Force F-16 fleet resides 
within the Air National Guard, and because of that fact and 
because of the aging aircraft, the Air National Guard is the 
component that faces the most risk for any delays in 
recapitalization of the United States Air Force. If you take a 
look at the air sovereignty alert (ASA) locations that I 
mentioned in my opening statement, those 16 ASA sites, that the 
Air National Guard mans, 11 of those are manned by F-16 units; 
the rest, F-15 units in the Air National Guard. Because of the 
service life of our jets, we face the very real projection of 
losing 80 percent of those aircraft, beginning in 2010, over 
the next 8 years. That would take the number of F-16 wings, 
squadron equivalents, if you would, in the Air National Guard 
from about 19 down to about 4.
    It is a very serious problem that we have. We are working 
with the United States Air Force, as they address their 
recapitalization issues, and we have received great support 
from Air Combat Command. But those are some decisions, as far 
as the degree of recapitalization, what type of platforms we 
are talking about, and how many, that obviously will be 
answered by our Nation's leaders.
    The Air National Guard stands ready to work with the United 
States Air Force. I have likened our position to flying close 
formation with the Air Force, but doing so cautiously because 
we know there are fiscal pressures to recapitalization entirely 
in fifth generation fighters, and we are preserving our 
options, depending upon the decisions that are made by our 
national leaders, but also by the United States Air Force as 
they address the issue of recapitalizing, not only their own 
fleet but our fleet.
    Talking about F-22s, we, the Air National Guard, need to be 
a part of that, if there are additional acquisitions of F-22s. 
Our position is that the number one mission and the one that 
the Air National Guard is most involved in is the air 
sovereignty alert, and we feel that the best airplane in the 
world needs to be defending the best country in the world.

                                 F-35S

    The question is when and how many. Regardless of the 
number, we need to be with our United States Air Force and Air 
Force Reserve brothers and sisters in a proportional and 
concurrent fielding of that platform. But it also goes to any 
other platforms that may be acquired, depending upon the fiscal 
situation. We need to be concurrently and proportionately 
fielded with the United States Air Force.
    Chairman Inouye. General, we are all sensitive to what is 
happening in our economy, but I believe I speak for the 
subcommittee when I say we will do our very best to make 
certain that replacements for your fighter units would be 
available--the funding.
    General Wyatt. Thank you, Mr. Chairman.
    Chairman Inouye. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much.
    General Vaughn, over the past few years, new programs have 
been implemented to assess the health condition of soldiers 
after they have been deployed overseas, and particular 
attention is being placed, I think, in a review of the Guard 
forces. With a large number of guardsmen and men and women who 
have been deployed or alerted for deployment--many of them are 
in my State, as you know--I am concerned about this ability to 
provide a continuum of medical care and attention for those who 
need to have their medical situation addressed.
    Could you give us a reaction of whether or not there has 
been similar reactions to the stresses of deployments in the 
Guard and Reserve forces as there have been with regular active 
duty forces? And how is the Bureau working with the Department 
of Defense to deal with this challenge?

                             MENTAL HEALTH

    General Vaughn. Mr. Vice Chairman, there have been similar 
things happen to our soldiers. Whether they are active duty 
soldiers or Guard soldiers that come back that transition back 
into the civilian world, there have been several things that 
have happened.
    The chairman mentioned, for instance, suicides. Our suicide 
rate is up in alarming fashion. I mean, if we look at what it 
has been over the last couple years--now, this is on active 
duty and this is off active duty. The great majority of them 
are off active duty when they come back. Now, at the same time, 
a substantial number--the greatest number, have never deployed.
    So you are looking at friction across the whole system in 
the United States of America, our suicides are about 140 to 150 
percent right now in the Army Guard. We are attacking this 
along with the United States Army. General Chiarelli has been 
over and testified. We are embedded in that. You know, the 
Yellow Ribbon, an integration piece that the chairman talked 
about on the front end--we are engaged in that.
    We think we have helped lead the way in something called a 
``blast tracker'' for those soldiers that were involved in 
events down range, explosive events, and they were not hurt 
substantially enough, and nowhere does it appear on the record. 
We are involved in that.
    The sidebar question, are we getting better medically? I 
think we are. I think a number of the problems that are out 
there, last year in 2008, 92 percent of our soldiers went to 
the MOB station in good shape. That is a record. We are better 
than that. There is a program and I think we need to take our 
nondeployables and fix them before they go. I mean, if you had 
a car, you would put the right repair part on and fix them, and 
when do you fix them? Do you fix them a year out? That is 
probably a pretty good tack to take on that.
    But I think overall, what you championed is exactly right. 
We do not need to have two or three levels of citizens. These 
are wonderful citizens that we have defending us and doing the 
things we ask of them. So anything we can do, in terms of 
healthcare and getting this right for this country, we have got 
to do.
    Now, I rambled around on several things, and I think that 
you were getting at two or three of those things when you asked 
that question. So thanks for that question.
    Senator Cochran. General Wyatt, what is your reaction to 
that question?
    General Wyatt. We share the same concerns that General 
Vaughn does. If we look at our statistics, we pretty much 
mirror the United States Air Force in our experience rate as 
far as suicides. Our difficulty is, until recently, we have had 
difficulty tracking the off-duty suicides because we have no 
legal authority to compel investigators to get into the cause 
of a particular death. You cannot tell in an automobile 
accident, for example, if it is accidental or intentional. So 
we have those problems that we are working through. But because 
of the close relationships that the Air National Guard has with 
the local communities, we feel pretty confident that our data 
is correct.
    We have similar programs that the Army National Guard has. 
We are taking steps, through General McKinley's leadership at 
the National Guard Bureau, to integrate our activities with the 
Army National Guard so that our combatant commanders in the 
States, our Adjutants General, when they administer these 
programs to a guardsman, whether it be Army or Air, that they 
efficiently maximize the use of the resources available to 
them.
    And I think what we have got to remember is that the 
Adjutants General on their own--having been one, I have been 
there, and I know that the Adjutants General go to great 
lengths in working with their State resources provided by their 
Governors to help facilitate some of the Federal programs. And 
a lot of the work that is being done at the joint force 
headquarters--I mentioned the need earlier for Air National 
Guard infusion in manpower into our joint force headquarters. 
That would help us facilitate a couple of things, not only 
working with the Army National Guard to make our programs more 
joint and more efficient, but also merging the capabilities 
that the Adjutants General bring in through State health 
departments, mental health programs that may be available in 
the States. And there are some great private programs out there 
too that the Adjutants General know about.

                          JOINT CARGO AIRCRAFT

    The key is that one size does not fit all, as the chairman 
indicated, on some of our programs. We need to allow 
flexibility to the Adjutants General because the needs vary 
from State to State, the programs vary in their availability 
from State to State.
    Senator Cochran. General Wyatt, our subcommittee has 
provided funding for purchasing the Air Force joint cargo 
aircraft, and I wonder if you could tell us what your reaction 
is to the need in the Air National Guard for this aircraft and 
whether or not we have funding that is available for you to 
begin meeting that new requirement.
    General Wyatt. Senator Cochran, thank you for the question.
    That airplane is critical to the Air National Guard not 
just because it addresses some of the States that lost flying 
missions because of BRAC, but because of the capability that it 
provides the United States Air Force and the Joint Warfighter.
    To answer your question about is there a funding stream 
sufficient to acquire the airplane, based upon the data from 
last year, I do not believe so. That is one of the acquisitions 
that I will be talking to the United States Air Force about.
    The need for the airplane, I believe, is there. The way 
that the airplane is operated differs a little bit between the 
Air Force and the United States Army, but I think if you talk 
to the leadership in the United States Air Force, they will 
tell you that they recognize the need of making that aircraft 
available to the land component commander to face the issues 
that the land component commander has. And we stand ready, 
should the President and Congress see fit to fund acquisitions, 
to field those in the Air National Guard and would relish the 
opportunity to do that, sir.
    Senator Cochran. Thank you.
    Thank you, Mr. Chairman.
    Chairman Inouye. Senator Leahy.
    Senator Leahy. Well, thank you, Mr. Chairman. I am glad you 
and Senator Cochran are having this hearing. Senator Bond, of 
course, and I co-chair the National Guard Caucus, and I think 
that is the reason for everybody up here.
    And I am trying to wear two hats at the same time. We also 
have a hearing in the Judiciary Committee with Director Mueller 
of the Federal Bureau of Investigation, and I will be going 
back there.
    General Wyatt, I am glad to see you here at your first 
meeting before this panel, and I appreciate the time you spent 
with me yesterday afternoon in going over some of the issues of 
the Air National Guard.
    General Vaughn, this may be your last appearance before 
this subcommittee, and I want to take the opportunity to 
publicly applaud you for the superb job you have done. I think 
the Army Guard is going to be better equipped, better trained, 
and in a better position because of your service. And I think 
that is service that has been also complemented by the brave 
men and women in the Guard. So, General Vaughn, I compliment 
you, sir.
    General Vaughn, also Senator Bond and I have written to the 
Secretary of Defense and the Chairman of the Joint Chiefs a 
number of times about the issue of transparency in budgeting 
for equipment for the Reserve components. We approve here in 
Congress budget requests based on justification documents that 
say a certain amount of gear will go to the Guard and Reserves, 
but then when it starts going, we do not find where that 
reference is as the actual distribution goes about. And no one 
can actually certify the equipment slated for the Guard and 
Reserve actually made it to the Guard and Reserve.
    How do we fix this? I mean, there ought to be some 
transparent way that we can say, okay, we wanted x amount of 
equipment to go there. It either did or it did not, and if it 
did not, well, then what was the reason? It may have been a 
national emergency. It may have been an international 
emergency. But at least have some reason other than as it is 
now. Senator Bond and I--we talk to the Guard Caucus. We have 
to kind of guess at what happened.
    General Vaughn. Senator Leahy, thanks for your leadership 
and Senator Bond's on this particular issue. A lot of people 
have had their shoulder over the wheel, you know, on this one 
for a long time and I think is making a lot of difference. I 
have a lot of friends inside of the Army, and we are able to 
argue about things and still come back and be comrades in arms. 
And I will tell you that I think that the Army is finally 
making great strides on this, and I have confidence that they 
are trying to deliver the equipment.
    As I stated very early on, we made some assumptions. First 
of all, we went out and tried to get a dollar value of 
everything that we had received lately. And then we made a 
guess as to which appropriations it probably came out of. And 
then we took--together with the G-8 of the Army, we took a 
range of 18 to 24 months and said it is likely that it would 
take this long for this equipment to appear. Now, if the 
assumptions, as you well know, are somewhere near right, it 
appears like we probably got about what we were supposed to 
get.
    The problem is it is not auditable, and Steve Speakes--I am 
sure he will testify later. There will have to be an auditable 
system in place rather than something that takes a battalion of 
folks to come up with some kind of an answer 2 or 3 years 
later.
    Senator Leahy. So should we do something different in the 
appropriation process itself to make it easier?
    General Vaughn. Sir, the appropriations process itself--if 
we knew how complex it would be to have separate appropriations 
for equipment for the Guard and Reserve, I could probably give 
you a pretty good answer. The first thing that has got to be 
sorted out, if you had a separate appropriations that went 
directly toward the Guard or Reserve for this, what else goes 
with it? There may be so much burden in that.
    The first thing I would say is that the Army is on the 
right track now. They finally got this thing teed up, got 
everybody's attention, and they are getting at it. It has to be 
a ``push-of-a-button'' of some kind to give you and us the 
auditable results of what happened with the appropriations and 
the equipment.
    Senator Leahy. I may have my staff work with your staff to 
follow up on that. And I appreciate what you are saying about 
the equipment. I mean, that is our ultimate goal because we 
want to make sure that happens.
    General Wyatt, you and I talked about--just if I can brag 
for just a moment, not that any parochialism ever appears in 
this subcommittee on our different things. But the 158th 
Fighter Wing from Vermont Air National Guard has carried out 
some tremendous air defense missions. I mentioned that right 
after 9/11, they did the air cover over New York City.

                         AIR SOVEREIGNTY ALERT

    But Senator Bond and I recently released a Government 
Accountability Office (GAO) report we commissioned on the 
management of the air defense mission. It says, more than 7 
years after 9/11, the Air Force has yet to budget for the air 
defense mission even though we see some significant areas where 
we need that in the foreseeable future. It mentions what has 
already been mentioned here, about concerns over the Air 
Guard's ability to carry out the mission because of aging 
aircraft. Some of them are flying some of the oldest aircraft 
in the Air Force, particularly the F-16s. They are going to be 
retired before we even see the follow-on.
    What can you suggest to us in that area?
    General Wyatt. Thank you for the question. And if I may 
take a little liberty here to explain where I believe the Air 
National Guard is in response to your question.
    Modernization of the fleet is one thing. Recapitalization 
of the fleet is another. For years, we have embarked upon 
modernization, and thanks to the great support of this 
subcommittee, through the National Guard Reserve Equipment 
Account (NGREA) and some congressional adds, the Air National 
Guard has been able to modernize its fleet, not to the level 
that we need, but when the combatant commanders request a 
certain capability, they expect the Air National Guard to 
answer with that capability.
    We have a process through our Weapons and Tactics Center 
that we run with the Air Force Reserve that identifies fleet-
wide, not just the fighter force, but the lift force, 
intelligence, surveillance, and reconnaissance (ISR) force, all 
the platforms inside the Air National Guard, Air Force Reserve, 
and the Air Force that could use some modernization. And we put 
together a bottom-up driven process that identifies the 
capabilities that we need to modernize, and this subcommittee 
has been very supportive with NGREA accounts that help us 
modernize the force.
    As the GAO report indicates and some of the recent articles 
that I have seen in the Air Force Times indicate and our own 
data indicates that we are at that point in time where we have 
got to start looking toward recapitalization.
    Think of this in contextual themes, if you would, one of 
those being the GAO report that you just mentioned that 
recognizes the resourcing issues that the Air Force has and its 
reluctance to fully fund and fully support the air sovereignty 
alert mission. It is still not into the fight if it is not in 
the budget line. It is handled on a 2-year-by-2-year basis. 
That is one problem.
    The other problem is recapitalization not just of the air 
sovereignty alert (ASA) fleet. We have got to remember that the 
air sovereignty alert fleet, when it is not flying air 
sovereignty alert, is participating in air and space 
expeditionary forces rotations. So it is not a specialized 
fleet. They have a specialized capability, but they can use 
that in AEF rotations and they do. Thirty-six percent of the 
combat sorties flown in Iraq and Afghanistan last year were 
flown by the Air National Guard.
    Senator Leahy. With aging equipment.
    General Wyatt. With aging equipment, yes, sir.
    Think about the comments that General Renuart, the NORTHCOM 
commander, issued just a few days ago. Our ASA posture is a 
non-negotiable in the upcoming quadrennial defense review 
(QDR). I see short- to medium-term risk in our ASA force 
structure due to the legacy age-out issue. That is what you are 
talking about.
    Secretary Donley a couple of weeks ago made the comment: I 
look forward to TFI, total force integration, part 2. He 
recognizes the need to leverage the inherent strengths of the 
three components of the Air Force to efficiently provide the 
capability that we need in the future.
    General Schwartz has said with declining resources and 
increasing demands, we must remember that innovation is still 
free.
    Part of the problem is recapitalizing, but part of the 
problem is also thinking about a force structure and a way for 
the three components to work together that maximizes those 
precious resources that the taxpayer pays for.
    Senator Leahy. General, I think we are going to probably, 
in the coming year, have a lot of conversations on this.
    Thank you, Mr. Chairman.
    I am also going to put into the record a couple of other 
questions. One, General Vaughn refers to our Mountain Division. 
Colonel Roy in Vermont has handled that very well, but with the 
upcoming deployment to Afghanistan--this is more of a personal 
nature--I wish you would take a look at that question. Thank 
you.
    Mr. Chairman, I am going back to the Director.
    Chairman Inouye. Senator Durbin.
    Senator Durbin. Thank you, Mr. Chairman.
    I would like to thank the witnesses.
    Eight years ago, I took up an issue. It was an issue 
related to Guard and Reserve activation and the fact that many 
private employers across the United States make good on the 
income and salary of these Guard and Reserve activated soldiers 
and airmen and others. It turned out that the largest employer 
of the Guard and Reserve activated did not. The largest 
employer, of course, is the Federal Government. If a member of 
the Federal workforce was a member of the Guard and Reserve and 
activated, there was no guarantee or protection that their 
salary would not diminish, and in some instances, it did.
    We have talked a lot about the stress of deployment. In 
these times, we can understand the economic stress.
    Well, I offered this for 8 years and lost it every time. I 
would pass it in the Senate, big votes, and it would disappear 
in conference committee. Or there would be some opposition here 
and there.
    Well, lo and behold, I guess perseverance pays off, and in 
the omnibus bill, it finally passed. So now the Federal 
Government is going to make good on the salaries of activated 
Federal employees in the Guard and Reserve.
    I would like to know if you are aware of this and if you 
are involved in helping it work.
    General Vaughn. I am aware, and it was a great action, 
Senator Durbin. You know, the great capability of the Guard and 
Reserve is really warehoused on the back of the employers of 
the Nation, and when they start to let our soldiers and airmen 
and sailors and marines down, then we have really got a 
problem. At the back we think almost all of the really tragic 
circumstances surrounding suicides and so forth and so on--you 
know, failed relationships, and the key driver, it appears, 
happens to be the ability to take care of their families 
through a lost job or an opportunity.
    And so at every turn--and in fact, in the next panel, the 
champion of something across the Nation for the Reserve is Jack 
Stultz. His program we believe in totally, and we are working 
that program, but it is going to take everyone to have the 
employers--to pat them on the back and guide them in the right 
way and keep this great capability warehoused.
    So thank you very much. I am very, very much aware of that.
    Senator Durbin. Good.
    General Wyatt. Senator, likewise. I had the privilege about 
1 week ago to appear before General Schwartz who was involved 
with the Air Force/Navy warfighter talks, to appear on his 
behalf in Fairbanks, Alaska, for the Chamber of Commerce 
military appreciation night, attended by approximately 500 
Fairbanksans. I learned a new term while I was there. One of 
the comments that I made referenced the Omnibus Appropriations 
Act of 2009 that you sponsored, and the relief that that 
provided our civilian workers.
    The reaction of the crowd was one that you would be proud 
of. Several employers came up afterward and said it is nice to 
know that some of the things that we as private employers have 
been doing have now been validated by the United States 
Government and they have seen fit to follow our lead. So they 
felt like they were out there.
    They obviously did not know how hard you had worked to get 
that passed, but it is a huge thing that you did for the Guard.
    Senator Durbin. I kept telling my colleagues for 8 years it 
was a good idea, finally we do have it. Can I ask you about the 
Individual Ready Reserve (IRR) program? Last week, the 
Department of Defense announced that it was going to end the 
practice of stop loss, and since 2001, 120,000 servicemembers 
have been held past their service obligations in that program. 
Even today, 13,000 servicemembers who have done their duty, 
completed their enlistment, are prevented from moving on with 
their lives. Secretary Gates says the stop loss practice 
``breaks faith,'' with our troops. The Army still uses IRR 
soldiers, Individual Ready Reserve, to fill National Guard 
units that are not at full strength. IRR soldiers have 
fulfilled their enlistment requirements but have time remaining 
on their military service obligations. They are not paid and do 
not train while in the IRR and have moved on with their 
civilian lives without expectation that they are going be 
recalled to active duty except in the most dire situations like 
world war III, God forbid. We have had briefings from the Army 
and believe that the IRR system really needs a close look at 
this point.
    Do you believe the end of the stop loss program, General 
Vaughn, will affect the rate of call-ups from the Individual 
Ready Reserve?
    General Vaughn. Senator Durbin, I do not. I think the end 
of stop loss is a great thing. I do not want to get out too far 
in front of releasing how we are going to execute this program. 
As you know, my buddy Jack Stultz in the Army Reserve is 
supposed to move into that August 1. We move in on September 1. 
We gladly said we are going to move into it September 1. Stop 
loss for the Guard--and I will let Jack talk to the Army 
Reserve piece, obviously, but around 72 percent of our soldiers 
reenlist down range; whereas, on the active side, it is a much 
different figure.
    There will be a bonus that goes with this to stabilize our 
formations, which is what we need. The very best thing to 
stabilize your formations is stop loss for personnel, for 
families and whatnot, maybe that is a very tough thing. 
Unfortunately, we had to cross-level a lot when we first 
started. We have made enormous changes. We do not have to 
cross-level as much now as we did. We think the use of the IRR 
in a sense in our formations is not a good thing. It is not a 
good thing. And so in order to keep from doing that, that is 
why we went to battle on lowering our force structure, taking 
our end strength way up over. The chairman asked me a question 
earlier about the end strength piece. That is why we did it, is 
to keep the stop loss thing from happening.
    So I hope that gets at those two elements of your questions 
sufficiently. Thank you.
    Senator Durbin. So do you anticipate using IRR? I mean, we 
are having to draw down the force in Iraq. And I am trying to 
get to the bottom line here as to whether or not you think that 
we are going to make up the difference by discontinuing stop 
loss and drawing down in Iraq by going to the Individual Ready 
Reserve more.
    General Vaughn. I think what is going to happen with us--
and the economy has probably got something to do with this. One 
year out, we're going to look at all those soldiers whose time 
of service is coming up, and we are going to give them a high 
unit retention bonus if they stay with us. And so we will know 
at 6 months whether or not they are going to stay with us. And 
we think the cross-leveling piece from within our Guard units, 
because this bonus opportunity and the chance to get them in 
the retention window, and our improved strength posture is 
going to keep us from having to go as deep in the IRR. There 
are, as you know, functional areas in the IRR that we are all 
having trouble with, military intelligence being one of those. 
And so there is always going to some number--I'm telling you 
from the Director of the Army Guard, I would like to minimize 
that to nothing.
    Senator Durbin. Thank you. Thank you both for your service 
and for being here today.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman, and 
Senator Cochran.
    I would like to begin by welcoming back General Vaughn and 
welcoming for the first time General Wyatt. It is good to see 
an Adjutant General assume this very important position, and I 
look forward to working with you on addressing the issues which 
you have already mentioned.
    But first, I have to join with my colleague, Senator Leahy, 
in noting that this is likely General Vaughn's last appearance 
before the subcommittee. And I would be remiss if I did not 
recognize and thank General Vaughn for the exceptional 
leadership and strategic vision he has provided as the Director 
of the Army National Guard. He has put the Army Guard in a 
position of strength and relevance not seen at any time since 
World War II. From his very successful recruitment program, the 
G-RAP, to the visionary agricultural development teams that he 
and I worked on, to filling the critical equipment shortfalls 
that we had after Katrina, General Vaughn's leadership has been 
second to none. We are grateful, General, for your service and 
in your debt.
    And I look forward to working with Senator Leahy and the 
subcommittee to address the equipment shortfalls and ensuring 
transparency, as you mentioned. We must do the latter to ensure 
the equipment this subcommittee provides, especially for dual-
mission homeland defense, is in fact directed to the Guard for 
that very purpose.
    But now, speaking about equipment, regarding the Air 
National Guard, as General Wyatt has already discussed, I think 
we can all agree that tactical fighters are a paramount piece 
of equipment for the Air Guard to fulfill its mission. From 
defending the territorial air sovereignty of the United States 
in Operation Noble Eagle to taking out terrorists in Iraq like 
Abu Musab Al Zarqawi that the Guard got, the Air National Guard 
provides a paramount mission for our country and at a fraction 
of the cost to the taxpayer.
    But, unfortunately, as I have stated in this subcommittee 
for several years, the senior Air Force leaders continue to 
pursue plan A, a fifth-generation-only fighter strategy, a 
strategy in my view that not only ignores the current budget 
constraints but will disproportionately eviscerate the Air 
Guard force structure if left unchanged. This would, in turn, 
atrophy the Nation's aerospace industrial base, diminish the 
Air Guard's ability to perform missions abroad, and put the air 
sovereignty alert mission at significant risk.
    Senator Leahy and General Wyatt both cited the GAO study on 
the air sovereignty alert. They concluded, ``Given the 
importance of the capability to deter, detect, and destroy 
airborne threats to the United States, it is important that the 
Air Force address current and future requirements of the ASA 
mission to ensure its long-term sustainability. Further, the 
Air Force should ensure that it has fighter aircraft available 
to conduct ASA operations since the F-15s and the F-16s used 
for these operations are beginning to reach the end of their 
useful lives.''
    Now, we all know that the bottom line is that the Air Force 
has stated the defense of the homeland is their most important 
mission, but it has not done much to demonstrate that it 
realizes it is an important mission. As the GAO report stated, 
the ASA mission must be established as a steady state mission 
and then put the necessary resources toward fulfilling the 
mission.
    While I believe, as General McKinley does--and I discussed 
it with him yesterday--that regardless of what happens with the 
Joint Strike Fighter (JSF), the Air Guard needs an interim 
bridge to ensure that the Air Guard does not become a hollow 
force.
    The Air Guard cannot rely on the F-35 program to provide a 
sufficient, if any, number of aircraft to address its 
shortfalls in a timely manner. Last week, the GAO released 
another report providing an assessment of the F-35 JSF program. 
Highlights of the program: Program costs have increased by $23 
billion since last year alone. Operating costs, which were 
projected at $346 billion a few years ago, are now estimated at 
$650 billion. GAO's auditors expect development and procurement 
costs to increase substantially and schedule pressures to 
worsen based on performance to date.
    The report says, ``The contractor has extended 
manufacturing schedules several times, but test aircraft 
delivery dates continue to slip. The flight test program has 
barely begun, but faces substantial risks as design and 
manufacturing problems continue to cause delays. If we continue 
to ignore them and rely on the continued Air Force strategy, 
the Air Guard will be eviscerated.'' As a high-ranking official 
told me yesterday, you could buy three F/A-18s for the current 
price, which can only go up, of one F-35.
    Now, General Wyatt, what is your assessment of the future 
of the Air Guard facing these equipment shortfalls?
    General Wyatt. Senator, thank you for the question. I share 
your concerns. I think in answering some of the questions of 
previous members of the subcommittee, we have laid out the 
perilous position that the Air National Guard fighter fleet is 
in.
    We have a plan. I do not call it necessarily a plan B. I 
call it the Air National Guard plan. It is a strategic plan 
that is based upon a matrix of decisions, some of which will be 
made at levels much higher than me, when we talk about the 
national security strategy, defense strategy, military 
strategy, the Air Force's role, QDR decisions that come down, 
budget decisions that we will hope to learn of in the future.
    As you pointed out, the Air Force is on a recapitalization 
vector that relies entirely on fifth-generation fighters. We 
have worked very well with the Air Combat Command (ACC) in 
bringing to their attention that the force most at risk for 
recapitalization is the Air National Guard fleet and 
specifically the ASA fleet that protects the United States of 
America. We think that is job one, and we think that is where 
most of the recapitalization attention should be applied.
    We are making progress in promoting our position to ACC, 
and they have written us in earlier into the fielding plans of 
the F-35. The F-22--obviously, we would need to get into that.
    But I likened this earlier to flying in close formation 
with the United States Air Force, but there are going to be 
some decisions that they will not be able to make. We are 
preserving our options to include a fourth-generation buy. I 
have not ruled that out. Obviously, there are some decisions 
that will be made at a much higher level that may require not 
just the Air National Guard, but also the United States Air 
Force to consider a fourth-generation buy or a 4.5-generation 
buy. That is one of the issues, the platform, the expense.
    The other is, regardless of the platform, whether it is F-
22, F-35, F-15, F-16, fourth-generation, 4.5-generation buys, 
we still need to consider what structure we use. This is the 
other one-half of the plan, is we have to take a look at the 
structure of the United States Air Force. Associations are the 
coin of the realm. It maximizes the efficiencies that all three 
components bring to the Air Force. It minimizes, and in some 
cases eliminates, the weak points that those components bring. 
When we talk about associations and we talk about platforms, we 
have got to merge the thought processes together to provide the 
most capability for the United States, whether that be fifth 
generation or fourth generation.
    Senator Bond. Well, thank you very much, General Wyatt. I 
know you were gratified to hear, as I was, the chairman say 
that within the budget constraints, we will work to make sure 
that we have the aircraft necessary for the Guard and its vital 
missions.
    Mr. Chairman, I appreciate your indulgence. I have a lot 
more to say about this that I will submit for the record, for 
anybody who missed my initial comments. Thank you, sir.
    Chairman Inouye. Thank you.
    Senator Murray.
    Senator Murray. Thanks very much, Mr. Chairman, Senator 
Cochran.
    Thank you both for your service and also to the men and 
women who serve under you. We really appreciate all they are 
doing today.
    General Vaughn, I want to start with you. Since our last 
hearing, I understand that the National Guard has implemented 
the new blast tracking system. You mentioned it a few moments 
ago. That is a system that I know is meant to help us track and 
link soldiers to situations where they might have been exposed 
to an adverse situation like an IED explosion.
    I really want to commend you on this effort. I appreciate 
what you are doing with this, and I think that efforts like 
that are going to help us collect the data so that we make sure 
we have the resources we need to fully address those men and 
women who have traumatic brain injury (TBI) exposure or post-
traumatic stress disorder (PTSD). And I wanted you to share 
with this subcommittee a little bit more about the blast 
tracking system and how it works.
    General Vaughn. Thank you, Senator Murray. To go back to 
the last of your question that you graciously asked about 
this--and as I explain this, when I finished--you know, we had 
a soldier behind me say, sir, you know, that is me. They do not 
have the record of the five explosions that I was in. That is 
me. So I wish I had had him testify. It would have been a lot 
better than me doing it.
    Our issue is this. About 1\1/2\ years ago, we looked at 
this and said, you know, we have got all these soldiers that 
are coming back that are not on active duty and they do not 
have in their medical records a substantial annotated injury. 
They have been returned to duty. But, yet, is this an 
accumulation of effects, I mean, all the questions that are 
being asked of this--there was no tracking mechanism. So simply 
what we wanted to do was put into place a tracking mechanism 
that if a soldier--for instance, the unit that I was watching 
was a route clearance outfit that in--their daily business is 
explosions. And I saw some really tragic ones at the end of 
this, but also I talked to a lot of soldiers that had been 
returned to duty with it.
    And so, I looked at this closely and said, wow. All of 
these are coming back. All of these soldiers will get off 
active duty, and they will be wards of the State. Now, I do not 
mean wards like indigent--I mean the State will end up having 
to deal with them.
    Now, as you know, my sister ran the Head Injury Council in 
Missouri for many years. So I was just battered with all the 
head injury stuff. It has always been in my mind. I thought, 
you know, what is our role? What is the missing link in all 
this? And our role was to help get them on the path if they 
needed treatment or recovery. In other words, are they going to 
come in 5 days, 5 months, 5 years, 15 years, and where are they 
going to come to? Are they going to come to the armory? And if 
they are not, how do we route them into the right State agency? 
And when we do, is there a stigma behind this that prevents 
them from, you know, from doing this, or do they have to 
explain everything?
    And the way we envisioned this was an automated database 
system that was operational in nature that when it happened, it 
was a commander's responsibility to note that this individual 
was in an incident, and, oh, by the way, if he or she was hurt 
badly, they were already in the medical health system, but if 
we noted in such a way and they came back to the State at some 
point, then you would have a mechanism to be able to channel 
them back onto active duty for treatment or into the Veterans 
Administration (VA) with a record behind them, and, oh, by the 
way, you would be able to do research on all the data.
    What we did is we took about $500,000 and sent a team down 
range, and we put together an automated database that was 
already there, the Army system. The greatness of this system 
is--as you well know, you have got to have an LOD, a line-of-
duty investigation, you know, before you can get into the 
system.
    And so where is an LOD 5 or 10 years from now going to be? 
This automated system is the LOD. It will always track with 
them.
    Now, where are we? If we commanded and control everything 
down range through the Adjutants General, this would not be 
hard. But once they go overseas in an active duty environment, 
it gets a little bit tough because most folks are going to come 
back on active duty; whereas, most of ours are not going to 
come back on active duty. So we met with all the personnel 
officers and the Adjutants General and those that we command 
and control--they are doing this. And I think we have 1,700 and 
some odd soldiers today. We will get the precise numbers for 
you.
    Senator Murray. Okay.
    General Vaughn. Are we reaching everybody? No. I met with 
the Surgeon General of the Army and the G-1, and they said, we 
are going to do this. We are not going to wait on everybody to 
cut an order. We have already told them, you know, because we 
are different, the Guard and the Reserve. Again, they are not 
on active duty. And if we do not get this right, we are going 
to have families that are indigent out here looking for care 
and they are still trying to prove what happened to them.
    Senator Murray. Right.
    General Vaughn. It is an emotional issue I think for all of 
us, and I think that we are probably on the right track with 
this, and it will get better and better and better. But I think 
that we need to get this thing--I am getting ready to retire 
here, but we need to push this thing over the goal line and 
have all Army, Navy, Air Force, and marines doing this because, 
again, if they get off of active duty, they are coming back to 
the State, and we have got to figure out then that inter-
linkage, and it is easy because at the State inter-agency level 
between the Adjutant General working for the Governor, there 
has to be someone in the interagency over there on the social 
services side and most head injury councils or MTBI councils or 
whatnot--that this data and this linkage will happen 
seamlessly.
    And so that's a long answer I know. We have done what I 
think that you asked us to do.
    Senator Murray. I really commend you. I think you have made 
a lot of progress with that, and it is so important because 
many soldiers I have talked to do not even remember that they 
were close to a blast. And we also know that the symptoms can 
appear in a vast timeframe, sometimes a few days after 
exposure, sometimes as long as 18 months later. So oftentimes 
people do not link the event with the adverse effect. So that 
is really important, which leads me to my next question, about 
the transferability of the data that you are collecting to the 
VA so that when soldiers leave active duty, the data follows 
them.
    Are you ensuring that that does go into the system as part 
of the seamless transition, or how are you doing that?
    General Vaughn. A great question, and the one that needs 
the work because you know it is not protected. It is not locked 
down. It is an operational tool. And my thoughts were that we 
needed an organization at the interagency level, again, head 
injury council, that in consultation with the Adjutants 
General, so that you had military view of this, we knew which 
way to move it. This was not competition between VA and Army, 
Navy, Air Force, Marine Corps medical care. It is getting them 
back on the right track. I think this record is open to VA. I 
think it is open to the military healthcare systems. Yet to be 
worked out, but again, somebody has got to do that because 
folks like me are not going to be operating a system. We will 
have to get them over to the right people and do it in a very 
caring manner.
    Senator Murray. Are you talking to the VA about the system 
now and making sure it is being transferred, or where is the 
conversation happening?
    General Vaughn. I have folks working with me that I feel 
are talking to the VA. As you know, we having--there is a 
council on this, this afternoon, where it is being discussed 
again, and those--you know, we are in the process now of 
bringing the data back and getting to the next stage. Any 
suggestions as we go forward on this--there needs to be 
everybody involved in it. It is not us coming up with some 
bright idea. I mean, this just needs to be done. And the Army 
is solidly behind this. Secretary Geren is a tremendous 
supporter, as well as the Vice Chief of Staff of the Army. I 
have seen it. He is all over it. He has got it.
    Senator Murray. Okay, good. Well, this is something we will 
continue to follow with you. I really appreciate your work on 
it.
    I also have a continuing concern about the backlog of 
claims for VA disability benefits. And one of the ways that we 
tried to speed up the delivery of the VA benefits has been 
through the benefits delivery discharge, or BDD, program, which 
allows claims to be filed within 180 days of discharge, with a 
goal of providing benefits within 60 days after release or 
discharge from active duty.
    Unfortunately, members of our National Guard and Reserve 
have little or no access to the BDD program and are not able to 
expedite the processing of their VA claims. Can either of you 
talk to me about what members are doing to make sure that the 
VA does get them benefits more quickly?
    General Vaughn. Senator, you know, early on we put liaison 
officers and general officer over there to work these type of 
activities. I think we are getting better. You know, when we 
started out down this track, I mean it was like, you know, we 
were out in left field, you know, on the whole thing. The 
report that I get says that there is progress on this, but this 
is a continuing education piece that kind of goes in line with 
this blast tracking thing. Well, all systems were not set up to 
be advantageous for anyone, you know, that had an injury or 
follow-on care. And, you know, when they talk about the 
seamlessness between the services, you know, and whatnot, it is 
just not true. The benefits in the way we fly into the various 
healthcare systems is the primary bugaboo in all this. And 
again, you know, I'm stumbling around on the answer, but I will 
tell you we have people engaged, you know, with you, with VA, 
and you have heard my answer on the blast tracker. They are key 
to what we are going to do.
    Senator Murray. Yes. General Wyatt.
    General Wyatt. Senator Murray, I echo the comments of 
General Vaughn. The problem on the Air National Guard side is 
that we are kind of late to the game as far as the blast 
tracker and the information that we have.
    I know that--and I am going to relate back to my experience 
as the Adjutant General in Oklahoma. I deployed the 45th 
Infantry Brigade combat team to Iraq in 2007, and we did not 
have such a program. I was not smart enough to figure out that 
we needed the program, but the University of Oklahoma was. And 
they came forward with an offer out of their pockets to fund 
baseline studies of our soldiers. We could not make them do 
that, but we offered that service to them that provided a 
baseline so that if something happened in theater, at least we 
would have a baseline to operate from to measure the degree of 
injury.

                             BLAST TRACKER

    The advantage of the blast tracker is that it does that, 
but it also operationalizes the reporting, which I think is key 
to the whole situation. When we try to tie that to Veterans 
Affairs benefits, when the soldier, airman, sailor, or marine 
comes home, we still have problems in that at the joint force 
headquarters of our various States, some of them are resourced 
rather well to facilitate the integration of those services 
into not only post-mobilization briefings and Yellow Ribbon 
reintegration programs, but also before they deploy.
    And that is one of the reasons that the Air National Guard 
needs to get more in tune with what the Army National Guard is 
doing and to follow their lead, integrate with their program 
because the Adjutants General, whether they wear blue, green, 
whatever color uniform, are responsible for all of the soldiers 
and airmen in their formations. And what I am hearing from the 
Adjutants General is that they need the flexibility to 
administer the program within their States, but they need 
access to the VA. And it needs to rely upon the strength of the 
national VA, not necessarily the strength of the State VA 
programs.
    We have a very strong State VA program in Oklahoma, but I 
am advised that that is not true in a lot of States.
    Senator Murray. Right.
    General Wyatt. And soldiers and airmen should not have to 
rely upon the inequities----
    Senator Murray. Wherever they live. Yes.
    General Wyatt [continuing]. In the State VA systems to 
acquire the care that they need.
    Senator Murray. So we have made some progress, but there is 
lots of work left to do, so don't take our eye off the ball, 
right? Okay.
    General Vaughn, I did want to ask you one other question. 
Since our last hearing, I am excited that you established a 
National Guard Youth Challenge Program in the State of 
Washington. I had the opportunity to meet a couple of cadets 
from the program, and I think it is great. If you can just give 
us a quick update on what is happening with that.
    General Vaughn. You know, a tremendous program. And as you 
know--you mentioned being excited about it. I think 34 States 
that we are up to now. There is always a struggle for 
resources, and so I think that there is probably some language 
that has to do with making it a little bit easier for the 
States right now to be involved in this.
    I would recommend everybody support that to the maximum 
they can. You know, when we look at the great crises that we 
have, one of them is the left-behind, left-out youth of 
America, we really feel good about what we have been able to 
do. The States with Youth Challenge and STARBASE programs for 
the left-out and left-behind--you know, we run one of the 
Nation's largest GED-plus programs to get their GEDs, and then 
ship them on to active duty, and whether they come back to the 
Guard or Reserve or active Army, we care less. We just want to 
turn them around.
    I think there is another piece to this. I think there is a 
high school piece that we need to be involved in, and I think 
this goes to the dropout piece. I think you link great 
programs, Youth Challenge, STARBASE, but in order to get a high 
school degree with those folks who have dropped out, you know, 
after their sophomore year, and you look at the Youth Challenge 
statistics--I mean, the number just jumps day after day about 
all those that make the tragic mistakes and cannot carry on 
with a great life and end up averaging us like $750,000 apiece 
for incarceration for the rest of their lives. And the 
percentage is huge. So it is a staggering problem, and there is 
great talent out there.
    I am not saying we should run social programs necessarily 
in the Army Guard, but we have got such an outreach here that 
the loyalty that you see from, for instance, those folks that 
go through the GED-plus program and Youth Challenge toward our 
Nation and giving everybody a second chance, I think it is the 
way we recruit. I think it is a big piece of the educational 
benefits. I think it is an education piece that we ought to be 
jumping after.
    So am I for big-time Youth Challenge? Absolutely. And you 
have seen the tear-jerking things that I have. We have had 
folks testify that, you know, if you had not given us a 
turnaround, I would not be a surgeon today. We actually had 
that happen 2 years ago, you know. And so we all need to watch 
it, and I know that the question is loaded.
    Senator Murray. I think that is absolutely great.
    General Vaughn. I really appreciate you asking about that.
    Senator Murray. It is a great program, and I want to 
commend you for doing that. We are following it and hoping that 
we can keep it going as long as we have kids out there who need 
a second chance, which I think will be a long time. So thank 
you.
    One last quick question. In December, I sent a letter to 
the National Guard Bureau signed by the whole congressional 
delegation of Washington State requesting to have the HAMMER 
Training Center be named the Western Regional Training Center 
for National Guard Support Teams and Related Training. HAMMER 
is a fantastic facility that trains people on everything from 
weapons of mass destruction to all kinds of other important 
skills. And I wondered if you could give the subcommittee or 
me, if you do not have it today, a written update on HAMMER's 
designation as a national training site.
    General Vaughn. No, I will have to follow up because, you 
know, the way it is broken out, the joint homeland piece comes 
under General McKinley on this. And I'm not pushing--you know 
me. I am candid enough to try to answer the question. But, 
unfortunately, I do not have the data. We will get it to you 
quickly.
    Senator Murray. If you can get it to me, that would be 
great. I appreciate it.
    Thank you very much, Mr. Chairman.
    [The information follows:]

    The Hammer Training Center has provided strong support and 
excellent services to our National Guard Civil Support Teams 
since 2001. The National Guard Bureau has conducted site visits 
to the Hammer Training Center and concurs that the training and 
facilities available for Chemical, Biological, Radiological, 
Nuclear, and high Explosive (CBRNE) training are excellent. At 
present, the number of facilities necessary to meet the 
Nation's CBRNE collective training requirements has not been 
determined and a national training plan for this type of 
mission has not been finalized. We are currently developing a 
capabilities gap analysis and will work in conjunction with 
Northern Command (NORTHCOM) to ascertain the appropriate set of 
CBRNE training facilities. The Army will include the Hammer 
Training Center in its considerations prior to any decisions 
regarding regional training sites.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. I thank you very much. General Vaughn and 
General Wyatt, on behalf of the subcommittee, I thank you for 
your testimony. And may we, through you, thank the men and 
women of the Air and Army Guards for their service to our 
country? We thank you very much.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

       Questions Submitted to Lieutenant General Clyde A. Vaughn
            Questions Submitted by Chairman Daniel K. Inouye

                        LIGHT UTILITY HELICOPTER

    Question. General Vaughn, in the fiscal year 2009 Defense 
Appropriations Act, the Vice Chairman of the subcommittee, Senator 
Cochran, provided the leadership to accelerate the production of Light 
Utility Helicopters. A majority of these helicopters are to be provided 
to the National Guard to meet important MEDEVAC, homeland security, and 
general support missions.
    Could you describe how the accelerated production of the Light 
Utility Helicopter will benefit the Army National Guard?
    Answer. The Army National Guard (ARNG) will begin to see 
significant and positive benefits from the Light Utility Helicopter 
(LUH) production acceleration beginning in fiscal year 2011 and 
subsequent fiscal years. The ARNG Light Utility Helicopter fielding, 
prior to this acceleration, would not have been complete until fiscal 
year 2017. The ARNG, with this acceleration, will now complete fielding 
of its 200 aircraft in fiscal year 2015 which will enhance our ability 
to meet mission readiness in support of our domestic and overseas 
operations. Additionally, this acceleration allows the ARNG to divest 
OH-58 aircraft which the light utility helicopter replaces, over a 
shorter timeframe.
    Question. General Vaughn, approximately three-quarters of the Light 
Utility Helicopters intended for the National Guard are to be equipped 
to support homeland security missions, while the rest are to be 
equipped as MEDEVAC helicopters.
    Is this the right mix of mission equipment to meet the National 
Guard's missions?
    Answer. The Army National Guard (ARNG) and the Army consider 
MEDEVAC Light Utility Helicopters as part of the support capability to 
meet Homeland Security aviation requirements. The MEDEVAC Light Utility 
Helicopter will be an element of the ARNG Security and Support Light 
Utility Helicopter Battalions, one eight ship MEDEVAC company per each 
of the six Security and Support Light Utility Helicopter Battalions. 
The ARNG in coordination with the Army in 2006 developed this mix of 
MEDEVAC and non MEDEVAC Light Utility Helicopters to meet requirements 
for Homeland Security, Domestic Support to Civil Authorities, Training 
and ARNG Post, Camp and Station requirements. We have preliminarily 
indicated to the Army leadership that we believe there are still some 
light utility helicopter capability gaps within the ARNG and that we 
would pursue options to define those gaps and requirements within the 
very near future.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

                         MILITARY CONSTRUCTION

    Question. In your prehearing testimony, you stated: ``Many of our 
aging facilities are in need of repair or replacement. The continued 
strong support of the Congress for Army National Guard military 
construction and facilities sustainment, restoration, and maintenance 
funding is crucial to our readiness.''
    a. Is the Army sufficiently attentive to the Army National Guard's 
Military Construction needs to ensure the Army National Guard can meet 
its state and federal obligations?
    b. What is the impact of these ``aging facilities'' on the Army 
National Guard's ability to perform its dual state/federal missions?
    Answer. a. Yes. The Army established a Reserve Component Military 
Construction General Officer Steering Committee (MILCON GOSC). The 
MILCON GOSC is a forum in which General Officers from the HQDA Staff 
and ten General Officers from the National Guard and U.S. Army Reserve 
meet every 6 months to discuss priorities and programs of the National 
Guard and Reserve Components.
    Total Long Range Plan requirement for military construction is over 
$13 billion and our current average budgeted level around $500 million.
    b. With the increased demand on the Army National Guard, there is 
an increased risk to carry on in functionally obsolete and energy 
inefficient facilities. There are cases where work functions are spread 
over several buildings or locations, resulting in spending time 
traveling rather than training. Our aging facilities are showing the 
wear with leaky windows, limited insulation and worn our mechanical 
equipment.
    We continue to make strides to improve our facilities and you can 
be assured that the Guard continues to achieve a high performance level 
in support of our dual state/federal missions in spite of aging 
facilities.

                        FAMILY READINESS LEVELS

    Question. A recent RAND study noted concerns about the readiness 
level for families of deploying members of the Guard and Reserve. Only 
60 percent of spouses surveyed felt their family was ready for the 
deployment. Almost 80 percent reported some type of deployment-related 
problem.
    How does the Army National Guard support families before, during, 
and after their servicemember's deployment? Is the Army Guard pushing 
the right information to families at the specific time it is needed?
    These problems are particularly acute when the servicemember 
deploys with a different unit (such as when an Illinois reservist and 
deploys with a California unit).
    Answer. The National Guard Yellow Ribbon Reintegration Program and 
supporting initiatives are the key instruments to support our families 
before, during and after their Soldier's deployment. The Yellow Ribbon 
Program consists of events at seven critical points during the 
deployment cycle: (1) Alert, (2) Pre-Deployment, (3) During 
Deployment--within 90 day of Soldier's departure, (4) During 
Deployment--within 90 days of Soldier's return, (5) Reintegration--
about 30 days after return from Active Duty (REFRAD), (6) 
Reintegration--about 60 days after REFRAD, and (7) Reintegration--about 
90 days after REFRAD. Events 2-6 are primarily for providing Families 
with information, resources, points-of-contact, and similar information 
to support them before, during and after their Soldier's deployment. 
They will receive briefings on how their benefits will change, where 
they can go if they need information or financial assistance while 
their Soldier is gone, information regarding childcare, respite and 
youth programs designed to support their children and increase their 
resiliency. They will receive Family Program and Family Readiness Group 
points-of-contact, as well as resources within their community. During 
deployment events focus on financial readiness, stress management, 
preparing for the Soldier's return, Battlemind Training, and other 
resiliency-building and life skills seminars. Reintegration events 
include resources that support the Soldier's transition back to 
civilian life and provide information and resources to address the 
potential stresses that may arise during that transition--Job Fairs, 
Strong Bonds Marriage and Single Soldier Relationship Enrichment 
Seminars, Strong Bonds Family Seminars. Local points-of-contact from 
the Department of Labor, Veteran's Affairs, Law Enforcement, and other 
community partners also participate in these events and provide 
information about the programs that support Veterans and their 
families.
    The National Guard Yellow Ribbon Reintegration Program policy 
memorandum outlines the events and resources that should be provided.
    In addition, the Soldiers, Families Support Services Division 
publishes a bimonthly magazine, called The National Guard Soldier & 
Family Foundations. It is distributed to the homes of 350,000 Soldiers. 
The magazine provides information about support programs and resources 
and highlights feature stories about the Soldiers and their families. 
The National Guard Soldier & Family Foundations magazine has been well-
received and reaches even those families that opt not to attend Yellow 
Ribbon events.
    Question. How does the Army National Guard provide family support 
when a servicemember cross-levels with another unit?
    Answer. The family support process may vary by state/territory, but 
in general, when a Soldier is mobilized, his/her information is pulled 
from Standard Installation Division Personnel System (SIDPERS) database 
and downloaded to the Guard Family Management System. The State Family 
Program Director (SFPD) from the Soldier's home state will contact the 
Program Director from the gaining state. When the Soldier goes through 
the Soldier Readiness Process (SRP) at the unit, prior to going to the 
mobilization site, Family contact and location information is gathered. 
The SFPD then distributes this family information to the Family 
Assistance Center closest to where the family lives. For example, if 
Soldiers are cross-leveling from the state of California (CA) to a unit 
in the state of Indiana (IN), the CA SFPD may contact the IN SFPD to 
establish contact and a flow of information regarding the unit to these 
families and vice versa. Once the Soldiers go through SRP, the Family 
Assistance Center located nearest their home will be reached and 
provided their families' contact information. The Family Assistance 
Center Coordinators are responsible for checking in with families of 
deployed Soldiers on a monthly basis to ensure they have the support 
and assistance they need while their Soldier is deployed.
    The deploying unit's commander can establish a Virtual Family 
Readiness Group (VFRG) page as well where family support information 
can be made available to unit families regardless of their geographical 
location.
    Some of our main challenges that we are facing are: Soldiers 
providing incorrect contact information or no contact information for 
their families; families move during the deployment and do not provide 
forwarding information; and families opting not to be contacted.

                         DEPLOYMENT CHALLENGES

    Question. Before 9/11, it was uncommon for large units of a 
particular state Guard to deploy as a large group (such as an entire 
brigade). For example, the current Illinois deployment is the largest 
deployment of state Guard members since WWII. Other states have 
likewise had large groups of their civilian populations called to 
active duty to deploy with National Guard units.
    How has the Army Guard managed the administrative challenges of 
deploying so many members from one location at one time?
    Answer. The Army National Guard (ARNG) has developed several 
Information Technology solutions to assist the States and Territories' 
mobilize Soldiers more efficiently. We created ``e-mob'' to leverage 
the interactive Personnel Electronic Records Management System (iPERMS) 
records of individual Soldiers to be accessed anywhere via the WEB. The 
use of the RCAS application of the Mobilization Personnel Data viewer 
and the ability to load records into the Active Components Deployment 
and Reconstitution Tracking Software (DARTS) application has helped to 
process personnel in a more expeditious manner. The Line of Duty (LOD) 
Investigation Module developed into the Army's Medical Operational Data 
System (MODS) has greatly enhanced the processing and documenting of 
injuries incurred during mobilization from approval that used to be 
almost a year down to approval in days from submission. The ARNG 
administers the TRICARE Early Eligibility Program to transition 
Guardsmen and their families to DOD's Healthcare system before 
deployment.
    Today most of our States and Territories Joint Forces Headquarters 
field ``White Cell'' teams consisting of administrative personnel who 
meet the redeploying unit and work with the various Power Projection 
Platforms during the Demob process to ensure Soldiers have completed 
Line of Duty, Evaluations, awards and try to convince Soldiers injured 
and ill while deployed to stay on active duty through the Medical 
Retention Process (MRP) or at least be examined through the MRP-E 
(Examination) program to rule out long term injury that would be better 
treated at a Military Medical Treatment Facility. This effort is an 
unfunded requirement often taken out of other programmed requirements 
in order to better take care of our Soldiers.
    Question. What steps are the Army Guard taking to make sure it is 
ready to deal with the reintegration of so many soldiers of one 
community?
    Answer. The ARNG has implemented the Yellow Ribbon Combat Veteran 
Reintegration program in accordance with the joint guidance issued by 
National Guard Bureau and with funding allocated for this purpose. The 
objective of the Yellow Ribbon program is to facilitate the post-
mobilization reintegration process and reconnect the Service member 
with his or her Family, employer, and community while providing 
information and access to national, state and local resources. Over the 
past few years, the ARNG has established a framework for successful 
Yellow Ribbon events in support of large unit reintegration involving 
Soldiers and units that are dispersed over a multi-state area:
  --Timely and accurate information dissemination at all levels.
  --Emphasis on Family Readiness Group outreach programs including e-
        mails, newsletters, and communication from all levels in the 
        chain of command.
  --Utilization and coordination of resources at the local level to 
        minimize logistical challenges and limit the need for extensive 
        Soldier and Family Member travel.
  --Utilizing the newly fielded Joint Services Support (JSS) portal to 
        coordinate and disseminate Yellow Ribbon events and ensure 
        maximum Soldier and Family Member participation.
  --Providing Yellow Ribbon contractors beginning fiscal year 2009 to 
        augment state efforts; these contractors assist in all phases 
        of the event to provide training, briefings, and activities 
        that support Service Members and their Families while ensuring 
        effective information flow at all levels.

                     INDIVIDUAL READY RESERVE (IRR)

    Question. In the last year, how many Individuals Ready Reserve 
(IRR) soldiers has the Army National Guard requested to help fill its 
deploying units? Of that number, how many were involuntarily mobilized? 
Of the number of IRR soldiers requested, how many ultimately mobilized 
and deployed with the Army National Guard?
    Answer. The requirements were for 2,312 Soldiers.
    Mobilized Soldiers--97 were voluntary and 5,671 were involuntary 
for a total 5768.
    The 1,368 Soldiers joined units between July 15, 2008 through July 
15, 2009.
    Question. At the hearing, you stated that the Army National Guard 
will continue to fill certain Military Occupational Specialties with 
IRR soldiers.
    Please provide me with a list of these specialties.
    Answer. Top Military Occupational Skills (MOS) and grade:
  --11B E4 (Infantry)
  --11B E5 (Infantry)
  --11B E3 (Infantry)
  --88M E4 (Transportation)
  --31B E4 (Military Police)
  --88M E3 (Transportation)
  --68W E4 (Health Care Specialist)
  --92F E4 (Fuel Handler Specialist)
  --63B E4 (Mechanic)
  --31B E3 (Military Police)
    Question. As described at the hearing, family support and 
reintegration can be difficult for soldiers and their families when the 
soldier is cross-leveled.
    What changes in procedure are necessary for Army National Guard 
units to be able to cross-level IRR soldiers who already live near the 
unit?
    Answer. The Army National Guard (ARNG) supports drawing IRR 
Soldiers from the same State as the mobilizing unit they will join when 
such is feasible. This could be accomplished via a two-step process for 
filling IRRs that would garner IRR fillers from the same State as the 
mobilizing unit where possible.
    Under the current practice, the ARNG sends a request for IRR 
Soldiers through channels to HQDA G1. The G1 has a contractor (ASM 
Research) run a database query, identify the population of suitable IRR 
Soldiers to fill the requisition, and order them to duty (plus an 
appropriate overage to account for expected attrition). The process as 
currently conducted does not take the Soldier's geographical location 
into account.
    Our proposal would be to add an intermediate step: When ASM 
Research received our IRR requisition, they would identify all 
qualified candidates for fill. From this population, they would first 
apply any qualified IRRs living in the same State as the mobilizing 
unit, and then turn to the national population to fill any shortfall 
not covered by IRR residents of that State (to include the overage 
required to offset attrition at the re-training or ``re-greening'' 
station).
    This modified approach would have at least four benefits:
    First, it would provide a recruiting opportunity for the ARNG. 
Currently we have little opportunity to retain IRR Soldiers that serve 
with our units as they usually live in another geographical area 
outside commuting distance. By filling with IRRs residing in the same 
State first, however, it gives us the opportunity to capture and retain 
IRR Soldiers serving with our units who become bonded with their 
colleagues during the deployment, as there is a greater chance that the 
Soldiers would reside close enough to commute to drill with the 
Soldiers they bonded with in combat.
    Second, it would help the Soldier by enabling the unit to include 
the Soldier's family in all support group activities and family support 
while the Soldier is deployed, which is difficult now as the families 
usually do not live in the same geographical area as the unit.
    Third, by affiliating with the local-area deploying ARNG unit prior 
to attending re-training (as required of all IRR Soldiers) the IRR 
Soldier is now affording the opportunity to prepare for remedial 
training and has a familiar chain of command to assist with any 
personal, family, or administrative issues through the home station 
ARNG unit while at training.
    Fourth, it would facilitate accomplishment of all required 
reintegration activities by the Soldier with the unit he or she 
deployed with--again, difficult now as the Soldier does not reside in 
the same geographical area and may not live near a military 
installation.

                               PERSONNEL

    Question. The fiscal year 2009 Omnibus contained the provision to 
help federal employees in the National Guard and Reserves avoid a loss 
of income when they are called the active duty.
    What efforts will the Army National Guard undertake to quickly 
implement this new provision?
    Answer. How quickly the Army National Guard implements any new 
authority/program is dependent upon DOD publishing an Instruction or 
Directive, then the Army must publish guidance to their Components.
    Question. Can you provide the number of current Army Guard members 
who are federal government employees?
    Answer. The Army National Guard has 32,927 Non-AGR personnel who 
are federal government employees.
    Question. Of that number, how many have served at least one tour in 
Operation Enduring Freedom or Operation Iraqi Freedom? How many are 
currently deployed?
    Answer. Of the 32,927 Soldiers who are federal government 
employees; 4,312 are currently mobilized for Operation Iraqi Freedom 
and Operation Enduring Freedom, and are receiving Hostile Fire Pay.
    Since September 11, 2001, there have been 20,688 Army National 
Guard federal government employees (identified by unique social 
security numbers) from the list who have received Hostile Fire Pay for 
Operation Iraqi Freedom or Operation Enduring Freedom.
                                 ______
                                 
               Question Submitted by Senator Patty Murray

                                 HAMMER

    Question. In December, I sent a letter to the National Guard Bureau 
signed by all the members of the Washington State Congressional 
delegation requested to have HAMMER training center be named the 
western regional training center for National Guard Civil Support Teams 
and related training. In the case of events with weapons of mass 
destruction, National Guardsmen trained there can identify the type of 
agent used to help support police, firefighters and other emergency 
workers who would be the first to respond to the problem. ``HAMMER has 
established a reputation as a premier training site because of its 
excellent chemical, biological, radiological, nuclear and explosive . . 
. facilities and skilled on-site Department of Energy radiation and 
nuclear professionals''. HAMMER had 39 Civil Support Teams conduct 
training on its campus in 2007 and 2008 and already has 12 STEP 
training programs scheduled for fiscal 2009, which started in October.
    General Vaughn, can you provide me any update on HAMMER's 
designation as a regional training site?
    Answer. The HAMMER Training Center has provided strong support and 
excellent services to our National Guard Civil Support Teams since 
2001. The National Guard Bureau has conducted site visits to the HAMMER 
Training Center and concurs that the training and facilities available 
for Chemical, Biological, Radiological, Nuclear, and high Explosive 
(CBRNE) training are excellent. At present, the number of facilities 
necessary to meet the Nation's CBRNE collective training requirements 
has not been determined and a national training plan for this type of 
mission has not been finalized. We are currently developing a 
capabilities gap analysis and will work in conjunction with Northern 
Command (NORTHCOM) to ascertain the appropriate set of CBRNE training 
facilities. The Army will include the HAMMER Training Center in its 
considerations prior to any decisions regarding regional training 
sites.
                                 ______
                                 
             Question Submitted by Senator Byron L. Dorgan

                              END STRENGTH

    Question. With increased operational demands placed on the reserve 
component for the past several years, signs of stress and strain are 
showing. All reserve component services are facing increased challenges 
retaining experienced, mid-grade career service members, precisely 
those eligible for retirement after having served 20-years of service. 
I am concerned we are not maintaining a balanced force, retaining 
enough of the very individuals who have gained the benefit of 
experience these past years of increased operations. I'm considering 
introducing legislation that would enhance retention of those 
experienced career servicemembers, providing an incentive to serve 
beyond 20-years, initial retirement eligibility, to continue to serve 
in the reserve component in exchange for lowering the age at which they 
will be eligible to receive retired pay. For example, if a member 
commits to serving 2 years beyond 20, the age for which they are 
eligible to receive retired pay would be lowered by one year.
    What is your opinion of this idea?
    Answer. The Army National Guard (ARNG) agrees, a 1 year reduction 
in retirement eligibility for each additional 2 years spent over 20 
years of service would improve retention and keep experienced mid-grade 
Officers and Non Commissioned Officers (NCO) in our ranks longer.
                                 ______
                                 
               Question Submitted by Senator Thad Cochran

                      MONTICELLO READINESS CENTER

    Question. General Vaughn, the Monticello Readiness Center in 
Monticello, Mississippi is a 55-year-old facility that is undersized, 
significantly deteriorated, and does not meet Army requirements for 
fire, safety, health codes and force protection. Congress has provided 
planning and design funding for this project and a new facility which 
has been a top concern for the Mississippi Adjutant General for the 
past 6 years; yet it has never been included in the Army's Future Years 
Defense program budget plan. I don't understand how this can be the top 
priority for the State Adjutant General for years and still not be 
included somewhere in the budget.
    In light of the high priority assigned this readiness center by the 
State Adjutant General, I hope you will look into this request and 
ensure this facility and other similar facilities are carefully 
evaluated as a candidate for the Army's construction plans.
    Can you please comment on this?
    Answer. The Readiness Center in Monticello, Mississippi is in poor 
condition and should be replaced. The National Guard Bureau has granted 
design authority funds to the Army National Guard of Mississippi for 
planning and design of the Readiness Center in Monticello. 
Unfortunately, there are insufficient funds available to include this 
project in the Future Years Defense Plan (FYDP).
    The Readiness Center in Monticello, Mississippi is not the only 
Adjutants General top priority project that has not made it to the 
FYDP. These projects compete with other Army priorities for limited 
funds.
                                 ______
                                 
     Questions Submitted to Lieutenant General Harry M. Wyatt, III
             Questions Submitted by Senator Byron L. Dorgan

                        RESERVE COMPONENT STRESS

    Question. With increased operational demands placed on the Reserve 
component for the past several years, signs of stress and strain are 
showing. All Reserve component Services are facing increased challenges 
retaining experienced, mid-grade career servicemembers, precisely those 
eligible for retirement after having served 20 years of service. I am 
concerned we are not maintaining a balanced force, retaining enough of 
the very individuals who have gained the benefit of experience these 
past years of increased operations. I'm considering introducing 
legislation that would enhance retention of those experienced career 
servicemembers, providing an incentive to serve beyond 20 years, 
initial retirement eligibility, to continue to serve in the reserve 
component in exchange for lowering the age at which they will be 
eligible to receive retired pay. For example, if a member commits to 
serving 2 years beyond 20, the age for which they are eligible to 
receive retired pay would be lowered by 1 year.
    What is your opinion of this idea?
    Answer. The Air National Guard is not facing the same challenges as 
our Air Force Reserve counterpart in retaining members past 20 years 
service. Out of 106,635 members assigned 25,378 (23.8 percent) are 
retirement eligible with over 20 years of service, 7,400 (6.94 percent) 
are within 18-20 years service, and 73,857 (69.26 percent) have not 
reached retirement eligibility.
    We agree that legislation to reduce the retirement age for service 
beyond 20 years would be of benefit in retaining members past the 20 
year mark. With the evolution of the increased operational demands we 
believe this incentive would enhance our overall retention.

                      119TH WING, HECTOR FIELD, ND

    Question. With the recent increase in the number of Air National 
Guard personnel authorized to provide direct support for contingency 
operations, are there plans to increase the number of authorized and 
assigned personnel in the North Dakota Air National Guard 119th Wing, 
Hector Field, Fargo, North Dakota, providing MQ-1 Predator/MQ-9 Reaper 
unmanned aircraft systems operations?
    Answer. The Program of Record for the 119th Wing, North Dakota Air 
National Guard, is to provide one steady-state Combatant Command 
(COCOM) Combat Air Patrol (CAP) with a surge capability to two CAPs 
utilizing authorized manning through volunteerism and/or mobilization. 
The wings current manning document reflects the necessary manning to 
meet this Program of Record. Currently, the 119th Wing is operating 
under surge conditions, providing two COCOM CAPs utilizing all Air 
Combat Command assigned equipment. Should Air Force requirements change 
to dictate an increase in COCOM CAPs for ANG units, as a steady state 
requirement, the National Guard Bureau will work with to ensure proper 
resourcing, manning and equipping for those units.
    Question. What is the Air National Guard's plan for maintaining 
current C-21 flying mission at the 119th Wing, Hector Field, North 
Dakota? How long will the Air National Guard continue to support this 
mission at its current level of funding, personnel, and equipment?
    Answer. The current C-21 flying mission at the 119th Wing, Hector 
Field, North Dakota is intended to bridge the gap between the loss of 
their F-16s and the establishment of a follow on mission. The National 
Guard Bureau is committed to support the C-21 flying mission at the 
119th Wing until it's follow on mission is in place.
    Question. What is the Air National Guard's plan for procurement, 
assignment and basing the Joint Cargo (C-27) at the 119th Wing, Hector 
Field, Fargo, North Dakota? When will the Air Force procure these 
aircraft, when will they begin to arrive in Fargo, and how many 
aircraft will be permanently assigned to the 119th Wing?
    Answer. The Air National Guard stands ready to support the Air 
Force's commitment and requirement for the C-27 program. The delivery 
schedule and aircraft numbers are dependent upon the Air Force's C-27 
procurement action. The Chief, National Guard Bureau, has announced 
that Hector Field will be one of our units that operate the C-27.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

                AIR NATIONAL GUARD MILITARY CONSTRUCTION

    Question. In Lieutenant General Vaughn's prehearing testimony, he 
stated: ``Many of our aging facilities are in need of repair or 
replacement. The continued strong support of the Congress for Army 
National Guard military construction and facilities sustainment, 
restoration, and maintenance funding is crucial to our readiness.''
    Is the Air Force sufficiently attentive to the Air National Guard's 
Military Construction needs to ensure the Air National Guard can meet 
its state and federal obligations? What is the impact of these ``aging 
facilities'' on the Air National Guard's ability to perform its dual 
state/federal missions?
    Answer. Air National Guard (ANG) facilities are constructed to 
support the operational and training requirements for federal missions 
assigned to various ANG locations. As the Air Force accepts ``risk in 
infrastructure'' and limits the availability of current mission 
military construction (MILCON) funding, some facilities will continue 
to age beyond the planned replacement timeline previously expected. 
This will require continued investment with operations and maintenance 
(O&M) funding to keep facilities sustained, restored, modernized, and 
operable until they can be recapitalized. In the case of new mission 
beddowns, some MILCON funding has been provided later than the mission 
dictated, causing additional reliance upon O&M funding for mission/
facility workarounds. In all cases the missions have been beddown on an 
initial operational capability basis to provide equipment and 
facilities to being training ANG members until permanent full 
operational capability MILCON investments can be addressed.
    State mission capabilities are assumed to be contingent upon the 
existing equipment and infrastructure being available at the local 
bases. As a community based force, the ANG is responsive to community 
needs in the event of local disasters or acts of nature that would 
require the capabilities in place at ANG bases. Thus, the impact of 
``aging facilities'' on the ANG's ability to perform the State mission 
is judged to be limited and tolerable at the current budget funding 
level.

                   AIR NATIONAL GUARD FAMILY SUPPORT

    Question. A recent RAND study noted concerns about the readiness 
level for families of deploying members of the Guard and Reserve. Only 
60 percent of spouses surveyed felt their family was ready for the 
deployment. Almost 80 percent reported some type of deployment-related 
problem. These problems are particularly acute when the service member 
deploys with a different unit (such as when an Illinois reservist and 
deploys with a California unit).
    How does the Air National Guard support families before, during, 
and after their service member's deployment? Is the Air National Guard 
pushing the right information to the families at the specific time it 
is needed? How does the Air Guard provide family support when a service 
member cross-levels with another unit?
    Answer. The key is to ensure there are effective communications. 
Wing Family Program Coordinators (WFPCs) are trained and are in place 
to assist families and to include them in activities or meetings held 
on base. If there are problems concerning the military member, WFPCs 
work the issue and, as a minimum, they conduct 30 day (monthly) welfare 
calls to maintain regular contact with families to identify issues 
before they become overwhelming.
    During the pre-deployment process, military members fill out a 
family readiness pre-deployment checklist and indicate if the Family 
Readiness Group may contact their loved ones. WFPCs take care of a 
military member's loved ones regardless of location. If they should 
need assistance in a locality other than their home area, WFPCs contact 
the Air National Guard unit that can best provide the services that the 
families are in need of.
    Air National Guard units typically do not deploy all unit members 
at the same time, which is more characteristic of Army National Guard 
units. If there are notional taskings, remaining unit members are 
usually engaged at some level with a deployed member's family (i.e., 
phone calls, e-mails or visits). There are many personnel who tag on or 
fill in other unit line numbers. Rarely do families relocate as a 
result of a deployment situation. So from that standpoint families are 
supported from their Air National Guard unit similar to when a full 
scale deployment occurs.
    The Department of Defense Yellow Ribbon Reintegration Program 
(YRRP) will help the flow of information between units and service 
member families. With the five phases of deployment identified, the Air 
National Guard's Defense Department YRRP contractor and/or WFPCs will 
have more opportunities to communicate with individual members and 
their families. They will identify their needs and assist them as 
needed. This program will also increase pressure on unit commanders to 
provide assistance to and/or contact service member families.
    Prior to the Yellow Ribbon Program, WFPC conducted a pre-deployment 
briefing for Airmen and their families but family members rarely 
attended. The presentation included but was not limited to the 
following topics: Air National Guard at home for impacted family 
members, healthy/unhealthy coping strategies, readiness planning issues 
(i.e., bill paying, power of attorney, wills, organizing vital 
documents, household/seasonal maintenance activities, etc.) as well as 
resources available to assist families. WFPCs distributed a variety of 
handouts such as Military OneSource information, Military Family Life 
Consultant business cards, Family Services contact information, 
personal organizers, and a guide to Family Readiness.

          FEDERAL EMPLOYEES IN THE NATIONAL GUARD AND RESERVES

    Question. The fiscal year 2009 Omnibus contained the provision to 
help federal employees in the National Guard and Reserves avoid a loss 
of income when they are called to active duty.
    What efforts will the Air National Guard undertake to quickly 
implement this new provision?
    Answer. The Office of the Assistant Secretary of Defense for 
Reserve Affairs, Manpower and Personnel, and the Office of Personnel 
Management, in coordination with the Department of Defense, will 
implement the federal employee provision for income replacement. The 
Air National Guard will follow those implementation guidelines when 
published.
    Question. Can you provide the number of current Air Guard members 
who are federal government employees? Of that number, how many have 
served at least one tour in Operation Enduring Freedom or Operation 
Iraqi Freedom? How many are currently deployed?
    Answer. Currently, there are 27,603 members of the Air National 
Guard who are federal government employees. Of that number, 18,878 have 
served at least one tour of duty supporting Operations Enduring Freedom 
or Iraqi Freedom. 1,300 of the 27,603 are presently deployed supporting 
a named contingency operation.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran

                         F-15 AESA RADAR SYSTEM

    Question. General Wyatt, I understand the Air Force previously 
upgraded some of the Air National Guard's F-15s with next-generation 
Active Electronically Scanned Array radar systems, but it has not 
budgeted to complete retrofits on the entire fleet.
    General, can you describe for the Subcommittee the importance of 
the capabilities provided by the next general radars, and provide an 
update on the status of funding for retrofitting the entire Air 
National Guard F-15 fleet?
    Answer. The F-15's air-to-air advantage remains in the Beyond-
Visual-Range arena. Beyond-Visual-Range requires the ability to detect 
current and future generation airborne threats in order to retain the 
first shot, first kill advantage, which is essential to effective 
employment. The APG-63(v)3 AESA radar provides the Air National Guard 
with the capability to detect, track, and kill asymmetric threats, such 
as cruise missiles and drones, which is paramount in both the Homeland 
Defense and wartime roles. This state-of-the-art AESA radar is flexible 
enough to be continuously upgraded, allowing the Air National Guard F-
15s to meet future threats and new mission sets that were not 
previously possible. The APG-63(v)3 is performing very well in flight 
test and is months from operational fielding.
    The Air National Guard's minimum requirement is for 48 AESA-
equipped F-15s. This allows Air National Guard units to provide 
constant 24/7 homeland defense vigilance with AESA radars, while 
simultaneously providing the Air National Guard the ability to deploy 
AESA-equipped F-15s in the Air and Space Expeditionary Force construct 
to meet wartime and combatant commander taskings.
    In fiscal year 2006, Congress appropriated $52.2 million to 
``procure six AESA systems for the Air National Guard.'' In fiscal year 
2007, Congress appropriated $72 million for ``procurement of AESA 
radars only for the Air National Guard F-15C fleet'' which provided 
eight AESA radars. In the fiscal year 2008/fiscal year 2009 Emergency 
Bridge Supplemental, Congress appropriated $34 million for ``Air 
National Guard AESA,'' providing four AESA radars. The current fielding 
plan for these funded AESA radars is six at Jacksonville, Florida 
(installs beginning in January 2010), six at Portland, Oregon (installs 
beginning in October 2010), and six at New Orleans, Louisiana (installs 
beginning in July 2011).
    Our immediate need is $62.5 million to procure and install 
approximately eight APG-63(v)3 AESA radar systems, six at Barnes, 
Massachusetts and two at Great Falls, Montana. Our preferred option 
would be for $110 million to procure approximately 12 APG-63(v)3 AESA 
radar systems for the Air National Guard. Six of these would be 
installed at Barnes, Massachusetts (104th Fighter Wing) and six would 
be installed at Great Falls, Montana (120th Fighter Wing). This would 
bring the total to 30, leaving an additional 18 to meet the Air 
National Guard's 48 minimum requirement.

                        186TH AIR REFUELING WING

    Question. General Wyatt, the 186th Air Refueling Wing currently 
flies KC-135 tanker aircraft out of Key Field in Meridian, Mississippi. 
Due to a 2005 Base Realignment and Closure decision, all of their 
aircraft will be reassigned by 2011. The Air Force has talked about 
replacing the tankers with Joint Cargo Aircraft, but I'm told those 
planes won't be available for Meridian until 2015. That creates a 4 
year gap without a flying mission. At last year's hearing, General Blum 
said the Guard Bureau was committed to arranging a mission to bridge 
the flying gap at Key Field.
    General, would you provide us an update on the progress you are 
making in assigning a ``bridge'' flying mission to Key Field.
    Answer. The National Guard Bureau is working with the Air Force to 
identify a ``bridge'' to the future C-27 mission at Key Field, 
Meridian, Mississippi. Following the 2005 BRAC, the Air Force 
identified a Component Numbered Air Force augmentation unit as the 
replacement for the KC-135 air refueling mission and the National Guard 
Bureau announced that Meridian, MS would also receive the C-27 (JCA).
    Due to their experience in the RC-26, the 186th Air Refueling Wing 
at Key Field was selected and is currently conducting mission 
qualification training in the MC-12W. The MC-12W is a manned-
intelligence, surveillance, and reconnaissance capability which the Air 
Combat Command is fielding to support overseas contingency operations 
in the U.S. Central Command. While this training mission is currently 
considered to be temporary, there is the possibility that it could be 
an enduring mission depending on Air Force established requirements. 
Should the Air Force determine it to be a long-term requirement, 
Meridian would likely be a strong contender for that mission.

             GUARD PRESENCE ON UNITED STATES/MEXICAN BORDER

    Question. General Wyatt, your testimony outlined some of the 
successes the Guard achieved in assisting the Border Patrol as part of 
Operation Jump Start.
    What presence do we currently have on our southern border?
    Answer. Currently, all Air National Guard personnel on the 
Southwest Border are involved with Counterdrug operations through the 
Joint Force Headquarters of the bordering states of Mexico. The 
missions the Air National Guard participates in include: Incident 
Awareness and Assessment, Linguist support, Aviation Refueling, and 
Innovative Readiness Training (Civil Engineering). Each state controls 
their border operation. The National Guard, both Army and Air, have a 
total of 681 personnel assigned to the counterdrug effort.
    Question. With the recent escalation in violence on the southern 
border, and the plan announced yesterday by the Administration for more 
federal agents, do you see a need for the continued presence of the 
National Guard on the United States/Mexican border?
    Answer. The National Guard involvement in Operation Jump Start 
provides highly effective cross-functional capabilities to the 
Southwest border. If called upon, we stand ready to fulfill any future 
requirements.
                                Reserves

STATEMENT OF LIEUTENANT GENERAL JACK C. STULTZ, CHIEF, 
            ARMY RESERVE
    Chairman Inouye. And now we call upon General Stultz, Vice 
Admiral Debbink, Lieutenant General Bergman, and General 
Stenner to come forward to present their testimony on the 
Reserve component.
    Gentlemen, thank you for joining us this morning, and may I 
assure you that your full statement will be made part of the 
record? May I now call upon General Stultz.
    General Stultz. Yes, sir. Mr. Chairman, Mr. Vice Chairman, 
and Senator Murray, it is an honor to be here.
    Senator Inouye, I would like to report to you first--go for 
broke--that 100th of the 442d, I just visited them recently in 
theater. They are doing very, very well. It is their second 
deployment out of the Pacific. And I also sent a task force 
just recently out to the Pacific to visit their families to 
make sure we are taking care of them. They were in Guam, 
Saipan, and Samoa, and so the 442d is doing well, your old 
regiment, and proud to serve this Nation.
    Thank you, first of all, from the 204,000-plus Army Reserve 
soldiers that I represent here today for what you have done for 
us in terms of your support, things like the National Guard and 
Reserve equipment account and other appropriations, and what 
your staffers have done for us, working very diligently with us 
to maintain support for our Nation through the Army Reserve.
    I have submitted my statement for the record, so I do not 
want to take up any time there, but I do want to highlight one 
thing.
    The theme that you will see in the Army Reserve posture 
statement and us going forward this year is return on 
investment. And what we are trying to highlight is what a great 
return on investment your Army Reserve is for this Nation. The 
dollars that we are given to operate with we value, and we 
invest them very, very carefully to make sure that we are 
getting all for our Nation.
    As you well know, 2009 for the Army is the Year of the 
Noncommissioned Officer, and today I have got three 
noncommissioned officers (NCOs) with me, and I would just ask 
them to stand. And it really is to highlight the Year of the 
Noncommissioned Officer, but for the Army Reserve, it really 
highlights return on investment, return on this investment that 
we get for this Nation. I will give you just a couple of 
tidbits here.
    Sergeant Jason Ford is here with me. Sergeant Ford is a 
drill sergeant. He goes and trains basic trainees at Fort 
Leonard Wood, Missouri. He also deployed for this Nation and 
trained the Iraqi army. While on patrol, leading 25 Iraqis--and 
he was the only American in charge--he came under attack and 
suffered wounds and was awarded the Purple Heart, along with 
the Bronze Star. But when Sergeant Ford finishes his tour in 
Iraq, he comes back home to Brockton, Massachusetts, where he 
is a policeman. That is a return on investment for this Nation. 
That is taking capability that we are building that we provide 
for our military in uniform; but, we bring back to the 
communities of America and put it back into our communities.
    Sergeant Henry Farve from California. He is a diesel 
mechanic, works for the Government, also deployed to Iraq, and 
while there, his son, who happened to be part of 32 Stryker 
from Fort Lewis, was wounded. Sergeant Farve maintained his 
mission even though he had the concerns about his own son, and 
then comes back to America and goes back to work for this 
Government as a diesel mechanic. What a great investment we 
have got.
    We have got to do all we can to retain these great NCOs. 
This is the corps. This is what distinguishes the American Army 
from any other army in the world, our noncommissioned officer 
corps.
    So, I look forward to your questions. I thank you for your 
support. It is because of what you do for us that we are able 
to man America's Army with great NCOs like these individuals, 
as well as bring them back to America's communities. I look 
forward to your questions, sir.
    [The statement follows:]
        Prepared Statement of Lieutenant General Jack C. Stultz
    The annual Army Reserve Posture Statement is an unclassified 
summary of Army Reserve roles, missions, accomplishments, plans, and 
programs. The 2009 Army Reserve Posture Statement also addresses the 
support required in fiscal year 2010 to continue the Army Reserve 
transition to a fully operational force.
    Unless otherwise noted, all statistics and facts are current 
through March 20, 2009. This document is available on the Army Reserve 
Web site at: www.armyreserve.army.mil.

                                                      Winter, 2009.
          THE ARMY RESERVE--A POSITIVE INVESTMENT FOR AMERICA

    After 7 years of war, the most compelling evidence of Army Reserve 
success is the confidence deployed commanders have in the quality and 
ability of our Soldiers. The men and women of the Army Reserve-Warrior-
Citizens are full-time patriots who put their civilian careers on hold 
to protect American interests at home and abroad.
    Army Reserve Warrior-Citizens represent America's best and 
brightest. The Soldiers' and their Families' commitment and willingness 
to sacrifice at home, or by carrying the fight to the enemy on desolate 
battlefields, allow Americans to pursue their dreams and live free from 
fear. In this document, we highlight the remarkable quality of the 
people on the Army Reserve team: men like the Harvard-trained physician 
who, after age 50, applied his medical expertise to saving lives on the 
battlefield; or the commercial airline pilot who put his civilian 
career on hold to serve as a trainer with the Army Reserve; or the 
lawyer with an MBA and a successful professional career, serving as an 
aviation mechanic in the Army Reserve. Men and women like these, and 
countless others, add immeasurable value to the Nation.
    The contribution of Citizen-Soldiers, their Families, and prudent 
investments over the course of this decade, have allowed the Army 
Reserve to evolve from a strategic reserve to an indispensable 
operational force. In this environment of persistent conflict, 
turbulent markets, and tight competition for scarce resources, we must 
continue to invest our national treasure wisely. As an operational 
force, the Army Reserve is one of the best returns American taxpayers 
get for their money. To continue to succeed, the Army Reserve requires 
your support.
    The Army Reserve leverages your investment to attract and develop 
talent. The expertise we nurture is employed on the battlefield and in 
the boardroom. Army Reserve Soldiers bring cutting-edge ideas from the 
marketplace to the military, enabling the Army to accomplish missions 
with maximum impact and minimum risk. In turn, Army Reserve Soldiers 
bring the skills and values they acquire in uniform-leadership skills, 
decision-making ability, confidence, and discipline-back to American 
industry to build stronger businesses and stronger communities.
    To maximize Americans' return on investment, we have streamlined 
our command and control structure, standing down non-deployable support 
commands and establishing in their places operational and functional 
commands. Reducing the number of support headquarters and developing 
more deployable commands is generating more specialized capabilities in 
our core competencies: medicine, transportation, supply, civil affairs, 
military police, engineers, intelligence, and chemical, among others.
    We are aggressively refining our training strategy to reduce post-
mobilization training time and maximize Boots on the Ground 
contributions of our fighting units. Following the dictates of the Base 
Realignment and Closure (BRAC) Commission we are disposing of outdated 
facilities and replacing them with state-of-the-art centers to optimize 
training and support. Our training strategy, along with new facilities, 
will better prepare our Soldiers for the challenges ahead. Continuing 
to refine these efforts requires resources to complete BRAC mandates, 
develop and employ advanced training techniques, and to acquire 
technology enablers: communications and information systems, training 
simulators, and cutting-edge medical processes.
    We continue to improve readiness at all echelons. During our 
transition from a strategic to an operational force, we have recognized 
the need and advantage of having leaders and staff working full-time to 
support and prepare units in advance of their deployment. We continue 
to seek, and have commissioned research to determine, the optimum 
amount of full-time support to build and sustain readiness. We will be 
working with Congress closely this year to achieve this objective.
    The Army Reserve provides capability the Army could ill afford to 
maintain on active duty. The unique skill sets of Warrior-Citizens have 
proven, over the course of a century, to be cost effective and cost 
efficient. We are further striving to improve our value by striking up 
strategic partnerships with industry. Our way ahead is to build 
America's premiere skill-rich organization by teaming with civilian 
employer partners to produce a human capital strategy model for the 
21st century. Our efforts to create a public-private partnership to 
find, develop, and share talent will leverage the creativity and 
responsiveness of the civilian sector with the organizational skills, 
discipline, and leadership talent of the military. Working with 
industry, we develop our greatest asset--people. At the same time, we 
ensure the security of a system to realize peace and prosperity, 
keeping America shining as a beacon of hope for a troubled world.
    Over the history of the grand American democratic experiment, our 
Nation has risen to greatness because of the character of ordinary 
citizens and their willingness to defend freedom. The Warrior-Citizens 
of the Army Reserve and their Families embody that lasting commitment 
to serve. Since September 11, 2001, more than 170 Army Reserve Soldiers 
have sacrificed their lives in the fight against tyranny. Today, 
thousands stand in harms way, while tens of thousands more stand ready 
to answer the call. America can make no better investment.
    Thank you for your untiring support of the Warrior-Citizens of the 
Army Reserve.

                         Lieutenant General Jack C. Stultz,
                                          Chief, U.S. Army Reserve.
                        Command Sergeant Major Leon Caffie,
                         Command Sergeant Major, U.S. Army Reserve.

                 FISCAL YEAR 2008 RETURN ON INVESTMENT

    As America remains a Nation at war, the Army Reserve continues to 
be a cost-effective force. In fiscal year 2008, the $6.9 billion Army 
Reserve appropriation represented only 4 percent of the total Army 
budget, yet we achieved remarkable accomplishments:
    Personnel.--In 2008, we recruited 44,455 Soldiers and reenlisted 
16,523 (111 percent of our annual goal), yielding a net gain of 7,142 
in our ranks. Sustaining momentum to build personnel strength is the 
most important priority for the Army Reserve. Due to significant gains 
in end strength for fiscal year 2008, the Army Reserve is on schedule 
to meet its 2010 end strength objective of 206,000 Soldiers. The Army 
Reserve continues to implement a series of programs to attract skill-
rich professionals. Future strategic recruiting initiatives target 
shortage specialties, mission-critical skill sets, and mid-grade 
officer shortages. Through our Employer Partnership Initiative, we 
produce a human capital strategy. Businesses and the Army Reserve now 
share in the training and development of quality individuals who 
contribute to both our Nation's defense and the economy. Our 
collaboration with industry in recruiting eliminates the unnecessary 
expenditure of resources when recruiting in competition with each 
other.
    Readiness.--In 2008, we mobilized more than 27,000 Warrior-Citizens 
in support of the Global War on Terror. We developed Regional and 
Combat Support Training Centers (CSTC) to enhance unit readiness, 
increasing the time our units are available to combatant commanders. 
Our civilian-related skills and highly experienced Soldiers afford our 
Army its extended stability operations capacity. We increased the Boots 
on the Ground time for: Combat Support Hospital units by 45 days, 
Military Police Battalions by 37 days, and Combat Engineer Companies by 
31 days by streamlining pre- and post-mobilization training schedules 
and eliminating all unnecessary and duplicate activities. As a federal 
force with personnel and equipment nationwide, we provide a unique 
capability as a Department of Defense ``first responder'' in times of 
domestic emergencies.
    Materiel.--We attained or exceeded the Army standard of 90 percent 
availability for reportable equipment that requires maintenance. All 
redeployed equipment not inducted into national level maintenance was 
recovered, repaired, and serviced. In light of acknowledged shortages, 
this equipment was then immediately transferred to ``next deployers'' 
or critical training locations in order to sustain pre-mobilization and 
pre-deployment training.
    Services and Infrastructure.--We strengthened programs to improve 
the well-being of our Soldiers and their Families. The development of 
the ``virtual installation,'' which afford Soldiers and Families ready 
access to services and pre/post-mobilization transition assistance, is 
the cornerstone of this effort.

                        ARMY RESERVE PRIORITIES

    Continue to provide the best trained, best lead, best equipped 
Soldiers and units to combatant commanders to achieve U.S. objectives 
and ensure national security.
    Recruit and retain the best and brightest Warrior-Citizens to 
sustain a robust and capable operational Army Reserve.
    Transform the Army Reserve (operational structure, support 
services, and training and equipping paradigms) to optimize the 
efficiency and effectiveness of a fully operational force.
    Provide Warrior-Citizens and their Families with the training, 
support, and recognition to sustain a cohesive, effective fighting 
force.
    Build and maintain a partnership with industry to facilitate the 
Warrior-Citizens' contribution to both a prosperous economy and a 
skilled, experienced, and capable Army.
    To advance these priorities, the Army Reserve must obtain from 
Congress full support and necessary authorities.
    The President's budget requestwill allow the Army Reserve to: Grow 
and maintain Army Reserve end strength; continue Army Reserve 
transformation; improve medical and dental readiness; equip units and 
soldiers to train and fight; provide quality services and support to 
soldiers and their families; and sustain Army Reserve installations and 
facilities.

                           STRATEGIC CONTEXT

    In accordance with Title 10 of the U.S. Code, the United States 
Army Reserve ``provides trained units and qualified persons available 
for active duty in time of war or national emergency.'' Since the 
September 2001 attacks on America, the Army Reserve continues to 
deliver on its Title 10 obligation by serving in a prolonged 
operational capacity for which it was originally neither designed nor 
equipped, but for which it is currently being transformed. Each day, 
Army Reserve Soldiers and their Families make unprecedented sacrifices 
in response to lengthy and repeated deployments. The Army Reserve is an 
operational force providing critical combat, logistics, and stability 
support capabilities for homeland defense, overseas contingencies, and 
war. The demands of today's conflict, coupled with the existing and 
foreseeable stresses on our force, have redefined the way this 
institution, the Army, and the Nation views the Army Reserve.
    The Army Reserve defines itself as a community-based, federal 
operational force of skill-rich Warrior-Citizens, that provides 
integral capabilities for full spectrum operations. The basis of this 
definition is reflected in the fact that today Army Reserve forces 
mobilize almost continuously. The Army Reserve has supported nine major 
operations and several lesser contingencies since 1990. This legacy of 
service and our most recent contributions set the conditions necessary 
to embrace the future for the Army Reserve.
    One way to view this future is to look at the Army Reserve as an 
enterprise organization: a conceptual model applying a holistic 
approach to strategic leadership to improve organizational 
efficiencies. The enterprise approach is fundamentally about seeing the 
entire organization--its relationships among its people, processes, 
functions, and organizational parts.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In this document, we present the Army Reserve enterprise across 
four core management areas: Personnel, Readiness, Materiel, and 
Services and Infrastructure.
    To optimize Army Reserve performance we must:
  --Attract and retain the very best Warrior-Citizens to serve our 
        Nation (Personnel);
  --Prepare, train, organize, and equip Soldiers and units (Readiness);
  --Provide Soldiers with the latest, mission-ready, modular force 
        weapons and equipment (Materiel); and
  --Provide for the well-being of our Soldiers, Families, Army 
        Civilians, and employers while providing state-of-the-art 
        training capabilities, unit facilities, and secure, redundant 
        communications (Services and Infrastructure).
    The following sections of this document highlight our 
accomplishments and discuss the challenges and needs for strengthening 
the organization across these core functions (Personnel, Readiness, 
Materiel, and Services and Infrastructure). The Army Reserve will 
continue to generate a positive return on investment building, 
sustaining, and maintaining warfighting and support capability for 
America.
Personnel
    Today's Army Reserve Soldiers are patriotic men and women who have 
a vision for their lives, have roots in a civilian community, and have 
a desire to serve their country. Their commitment translates into our 
success.
    The Army Reserve exceeded its fiscal year 2008 recruiting and 
retention objectives by accessing 44,455 new recruits and retaining 
16,523 Soldiers. Yet, recruiting an all-volunteer force in a time of 
war presents challenges. The Army and the Nation face significant 
hurdles--from a lower propensity of young people to enlist, to a 
shrinking pool of fully qualified prospects, to an increasing trend of 
mid-grade Soldiers leaving the service.
    One initiative the Army Reserve is advocating to combat the loss in 
mid-grade ranks is a ``continuum of service'' for a fully integrated 
force--active and reserve. By presenting options, the Army Reserve 
hopes to create an environment for Soldiers to move back and forth 
among components as their personal lives and civilian careers dictate. 
We have taken this continuum concept a step further with our Employer 
Partnership Initiative by developing a human capital strategy model to 
leverage the skill sets of volunteers, the innovations of industry, and 
the human development capacity of the Army.
            Increasing Army Reserve End Strength
    During fiscal year 2008, the Army Reserve increased end strength by 
7,142 Soldiers. A successful community-based recruiting effort; 
targeted programs and incentives; and personnel policies to control 
unanticipated losses resulted in this substantial net gain.

    ----------------------------------------------------------------

                             Critical Needs
    Obtain from Congress full support and necessary authorities.
  --Sustaining recruiting and retention incentives for Army Reserve 
        Soldiers, with specific emphasis on mid-grade commissioned and 
        noncommissioned officers;
  --Developing and sustaining adequate full-time support (FTS) to train 
        and administer a fully functioning, robust, and capable 
        operational force, and to ensure Soldier and Family readiness; 
        and
  --Enhancing employer partnerships to optimize the development of 
        human capital for the mutual benefit of industry and national 
        security.

    ----------------------------------------------------------------

    In fiscal year 2008, the Army Reserve achieved 106 percent of its 
accessions goal and 111 percent of its reenlistment mission. Three 
critical initiatives contributed to this progress. Command emphasis and 
guidance provided the greatest impact focusing energy and effort on 
filling the ranks. The Army Reserve Recruiting Assistance Program (AR-
RAP) brought a tangible reward to Soldiers for finding other patriots 
to serve. This innovative recruiting assistance program produced 3,751 
accessions this past fiscal year. Finally, the Critical Skills 
Retention Bonus, Army Reserve (CSRB-AR), allowed us to address specific 
skill-set and grade shortfalls and retain much-needed talent and 
expertise in our ranks. These targeted financial incentives for 
continued service in critical specialties ensured 809 captains and 128 
experienced staff sergeants and sergeants first class stayed in 
uniform.
    As we gain momentum, building to a strength of more than 206,000 
Soldiers, and while the Army Reserve is within the congressionally 
mandated end strength window, we recognize a significant gap in 
capability. Overall, the Army Reserve is short on the order of 10,000 
officers in the grades of captain and major. In the enlisted ranks, we 
are challenged to develop and retain senior mid-grade noncommissioned 
officers (staff sergeants and sergeants first class). We are working 
aggressively to grow and shape the force to overcome these challenges. 
Continued re-sourcing of recruiting and retention incentives will 
maintain our manning momentum.
            Full-Time Support for an Operational Reserve
    We now have a strategy to guide the transformation of Full-Time 
Support (FTS) in the Army Reserve in order to better support our 
operational force in this era of persistent conflict and global 
engagement. In 2008, we developed an initial strategy called FTS 2017, 
which envisioned a culture shift in how we support the readiness and 
mobilization of Army Reserve units on a continual basis. This strategy 
defines and directs the effort to transform all aspects of Army Reserve 
full-time support. The strategy improves operational capability by 
providing a more dynamic, responsive, and flexible system to support 
global operations.
    Completing the transition from a strategic to a fully operational 
force requires more than having the right-sized full-time support 
force. The current full-time support model remains a strategic reserve 
legacy. Key legislative and policy modifications may be required to 
change personnel support processes. Evolving the full-time support 
program requires addressing: active-reserve Soldier staffing (AGRs); 
Army civilians; contractors; and unit members on orders beyond their 
statutory 39 training days per year.
    Currently three studies are under way to quantify full-time support 
issues and inform policy-makers. One study is determining the adequacy 
of full-time support billets across the Army Reserve and Army National 
Guard. Another study is providing a ``capabilities and competencies'' 
analysis of full-time support across the Army Reserve. The third is 
examining the use of dual-status military technicians within the Army 
Reserve. These studies will lead to the development of a capabilities-
based full-time support solution for the operational demands of the 
Army Force Generation (ARFORGEN) unit training and employment 
construct. We anticipate initial study recommendations by early fall 
2009. At that time, working with Congress, we will determine the 
optimum full-time support strategy and identify additional actions 
required to appropriately staff the organization to sustain the Army 
Reserve as an ARFORGEN-enabled operational force.
            Employer Partnerships
    The Army Reserve is implementing leading-edge employer relations 
programs that promote a continuum of service, sustain Soldiers' well-
being during mobilization periods, and provide career-enhancing 
employment opportunities. The Army Reserve's Employer Partnership 
Initiative benefits employers by referring highly qualified, competent, 
disciplined Soldiers to work within their communities. By collaborating 
with employers, the Army Reserve can augment existing Soldier 
proficiencies while simultaneously building new capabilities to 
complement civilian job and military skills. By aligning military and 
civilian credentialing and licensing requirements, the Army Reserve and 
partner employers optimize a shared workforce. As employers are 
critical for sustaining the Army Reserve, sharing the same talent pool 
of Soldier-employees builds mutually beneficial relationships. 
Developing and maintaining effective partnerships allows the Army 
Reserve and employers to capitalize on particular strengths while 
minimizing weaknesses.
    Our way ahead is to build a skill-rich organization by working 
closely with civilian employer partners. From an individual's 
perspective, we see it working this way: a local hospital struggles to 
find quality, skilled personnel to fill technical positions. The Army 
Reserve becomes a personnel source for this hospital through our 
Employer Partnership Initiative. We recruit an individual seeking to be 
a radiology technician. We train that individual as a Soldier and 
certify him or her as a radiology technician. After finishing advanced 
training, the Soldier walks into a civilian job with that local 
hospital where that Soldier continues to develop and refine his or her 
skills. Through our cooperative efforts, the hospital and the Army gain 
a more competent, more experienced, and more capable Soldier-employee.
    We see other advantages of partnering with employers. A major 
trucking company--our civilian partner--uses a state-of-the-art 
training center complete with truck driving simulators. Our Army 
Reserve Soldiers--employees of this trucking company--use the 
simulators to confront an array of driving hazards. The drivers train 
and work daily operating trucks safely on the road. When these Soldiers 
get in the cab of one of our military trucks, they are better, more 
experienced drivers. The training and experience they gain from our 
industry partner benefits the Army Reserve. America gets a better, more 
disciplined, service-oriented employee, a more skilled and capable 
truck driver, and a stronger Soldier.
    Over time, our Employer Partnership Initiative will become more 
than a key human capital strategy. It could well serve as the 
foundation of our identity. Two entities share and enhance the skills 
of one individual who contributes both to the defense of our Nation and 
to sustaining a robust national economy. We are building human capital 
in the Army Reserve and the private sector with highly skilled, career-
oriented Warrior-Citizens.
Readiness
    Our military success in the Global War on Terror depends on our 
ability to train and equip Army Reserve Soldiers and fully cohesive 
units for current and future operations. Training units for full 
spectrum operations is directly linked to resourcing. The Army Reserve 
applies a sophisticated training strategy to ensure Army Reserve 
warfighting unit readiness. Fully funding the Army Reserve integrated 
training strategy will ensure trained and ready Army Reserve units and 
individual Soldiers are available to meet the operational needs of the 
United States Army.
            Building an Effective, Fully Operational Force
    Army Reserve support of the fiscal year 2008 Grow the Army plan 
began with the realignment of 16,000-plus spaces from generating force 
structure to critically needed operating force structure. As the 
planned end-strength objective is to grow the Army Reserve by 1,000 to 
206,000 Soldiers, we are investing an additional 1,000 spaces to 
increase operating force structure. Together this translates to a total 
17,000-plus spaces of capability. In addition, the Army Reserve 
continues to rebalance and right size by employing new operating force 
modular command and control structure and reducing generating force 
command, control, and support structure. Streamlining command and 
control maximizes available forces to support Army operational 
requirements.
    Army Reserve units are now aligned to headquarters in the same way 
they are aligned on the battlefield. The Army Reserve streamlined its 
institutional force by replacing seven institutional training divisions 
with three training commands to provide initial entry, military skill 
reclassification, and professional and leader development. We harvested 
additional structure as four two-star regional support commands assumed 
the base support operations functions for more than 900 Army Reserve 
centers across the country. These four support commands relieve 
operational commands of facility and garrison-type service functions 
allowing the operational commands to focus on unit readiness and 
training. The Army Reserve continues to explore innovative structuring 
options to maximize the number of warfighting units available to 
support operations.

    ----------------------------------------------------------------

                             Critical Needs
    Obtain from Congress full support and necessary authorities.
  --Continuing transformation of Army Reserve support command structure 
        and the building of operational and functional commands, 
        properly organizing Soldiers and units to develop capability 
        for diverse national security missions;
  --Implementing the Army Reserve Training Strategy (ARTS) to develop 
        Soldiers and build cohesive, capable, and effective units while 
        maximizing Boots on the Ground and optimizing the Warrior-
        Citizens' impact and contribution to mission success;
  --Implementation of the training strategy involves three primary 
        elements:
    --Army School System Training Centers--for developing individuals
    --Regional Training Centers--for unit pre-mobilization training
    --Combat Support Training Centers--for rigorous mission-focused 
            training
  --Support for training man-days to sustain the Army Force Generation 
        (ARFORGEN) process and maintain the Army Reserve as a fully 
        operational force.

    ----------------------------------------------------------------

            Improving Medical and Dental Readiness
    Soldier medical and dental conditions have proven to be one of our 
greatest mobilization challenges. More than half of our Soldiers not in 
a mobilization or alert window are not ready to deploy. In 2008, the 
Army Reserve moved aggressively to improve medical and dental readiness 
by addressing a number of Soldier and Family health concerns. The Army 
Reserve Surgeon working with members of the Office of the Surgeon 
General, the U.S. Army Medical Command, U.S. Army Dental Command, the 
Army National Guard, Department of the Army G-3, the Chaplains Office 
and other agencies developed and implemented three paradigm-shifting 
initiatives to improve Soldier and Family readiness:
  --A comprehensive Reserve Component Soldier dental readiness program;
  --A Whole-Life Fitness program to improve the physical, emotional, 
        spiritual, social, family, finance, and career facets of 
        Soldier wellness;
  --A partnership with civilian medical and nursing schools to educate 
        and develop medical professionals for military service.
    Additionally the team identified medical readiness barriers and 
implemented measures to mitigate each obstruction.
    To ensure unit commanders know the status of their Soldiers' 
medical conditions, the Department of Veterans Affairs and the 
Department of Defense must effectively interface. The Reserve Health 
Readiness Program (RHRP) provides the platform for commanders and 
Soldiers to meet medical and dental readiness now. One significant 
advance for the Army Reserve is to develop and adopt automated 
information systems that interface with current medical data systems: 
Medical Protection System (MEDPROS), and eventually Veterans Health 
Information Systems and Technology Architecture (VISTA). The Army 
Reserve adapted a paperless dental record--DENCLASS--and is in the 
process of converting Soldiers' paper treatment records to the 
electronic health readiness records.
    Improving what we know about the status of Army Reserve Soldiers' 
health has set the conditions for the Army Reserve to implement two 
comprehensive treatment programs: Dental Readiness and Whole-Life 
Fitness. Working across agencies and leveraging civilian health care, 
we are treating dental problems and addressing holistically the well-
being of Soldiers and Families. This effort includes a mental health 
component and is appropriately linked with our Yellow Ribbon 
Reintegration Program efforts.
    We are supporting and promoting these medical and dental readiness 
initiatives with a multimedia communication outreach effort to all 
Soldiers and Families. Our communications efforts and these new 
programs coupled with TRICARE and TRICARE Reserve Select have allowed 
us to address in significant ways our medical and dental readiness 
challenges.
            Focus on Training Readiness
    The Army Reserve is committed to providing trained platoons, 
companies, and battle staffs to combatant commands. To fulfill this 
commitment the Army Reserve must be resourced as an operational force. 
While the mobilization training centers provide the finishing touch, 
the Army Reserve is responsible to develop and sustain the following, 
prior to mobilization: Adaptive, competent, and broadly skilled 
Soldiers prepared for changing operational environments; agile, 
adaptive, and culturally astute leaders; and rapidly deployable and 
employable, trained, ready, and cohesive units.
    We develop readiness through the execution of a progressive Army 
Reserve Training Strategy (ARTS). The training strategy uses the 
ARFORGEN model as the ``means'' to meeting mission commitments. 
Further, the strategy uses three training domains--Soldier, Leader 
Development, and Unit--as the ways of achieving desired training end-
states. The ``Soldier'' domain concentrates on completing individual, 
functional, warrior task, tactical and low-level collective training. 
The ``leader development'' domain entails completing professional 
military education and preparing leaders and battle staffs to execute 
full-spectrum operations and directed missions. The ``unit'' domain 
requires, through a progression of collective training events, 
achieving unit technical and tactical proficiency for collective tasks 
in full-spectrum and directed mission environments.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

            Preparing Army Reserve Forces for Future Missions
    Army Reserve forces are arrayed across the Army Force Generation 
(ARFORGEN) training and employment cycle. The duration of the entire 
cycle is 5 years. Our objective is for a unit to train for 4 years in 
preparation for an ``available'' year where the unit could mobilize and 
deploy. Army Reserve units flow through this cycle aligned within Army 
force pools to meet global mission demands. Units are to spend 1 year 
in the Reset pool, 3 years in Train/Ready pool, and 1 year in the 
Available pool. Army Reserve units can expect to deploy to meet theater 
commander requirements in the available year. Upon returning from a 
deployment, a unit begins the cycle anew.
            Army Reserve Training Centers
    Success in operationalizing the Army Reserve has hinged on our 
ability to reduce post-mobilization training in order to maximize in 
theater Boots on the Ground. In 2008, the Army Reserve stood up three 
regional training centers to execute theater-specific required tasks. 
These tasks are those perishable individual, crew, and leader warrior 
tasks and battle drills that Soldiers must complete to standard prior 
to arriving in theater. The regional training center initiative reduced 
the average amount of training time for Army Reserve units in mobilized 
status from 70 to 40 days, adding 30 days to Boots on the Ground time 
in theater. Currently, regional training centers are ad hoc training 
facilities supported by mobilized personnel and resourced with 
supplemental funds. When regional training centers are resourced we are 
able to leverage this success and ensure an enduring, pre-mobilization 
training capability.
    To further enhance readiness, one of the Army Reserve's key 
training efforts has been establishing a major collective training 
exercise capability--Combat Support Training Centers (CSTC). This 
exercise capability provides support forces a realistic collective 
training experience to assess tactical proficiency under rigorous 
conditions. A combat support training event tailors the environment and 
integrates extensive exercise support capabilities to include opposing 
forces and observer/controllers. The event provides opportunities for 
support brigades and their subordinate units to train on directed 
mission-essential tasks. The CSTC program leverages training readiness 
platforms to provide Army Reserve commanders an array of institutional 
and collective training capabilities to meet training requirements. The 
Army Reserve will conduct a CSTC proof of principle exercise at Fort 
McCoy in July 2009.
            Capabilities-based Army Reserve Centers
    To minimize turbulence for Soldiers and their Families caused by 
training demands during the first 2 years of ARFORGEN, the Army Reserve 
initiated an effort to create capabilities-based reserve centers to 
support full-spectrum individual-crew-squad-team training requirements. 
We are outfitting reserve centers with digital training capabilities 
and weapon simulator training rooms. This effort provides an array of 
targeted training enablers to meet the training needs of units. During 
2008, the Army Reserve established 53 digital training facility 
locations and three weapons simulator training rooms. The Army Reserve 
is working with the Army Training and Doctrine Command to determine the 
way ahead to field additional training enablers to make these state-of-
the-art facilities. The Army Reserve is also working to integrate these 
training capabilities into new facilities.
            Training Resources
    We are succeeding in managing unit readiness, with the new paradigm 
for training an operational Army Reserve force. Adequate funding allows 
the Army Reserve to execute pre-mobilization training man-days, develop 
infrastructure, and acquire the latest technology and equipment to meet 
pre-mobilization readiness objectives. We lack, however, the ability to 
fully train Army Reserve Soldiers on the same equipment the Army uses 
in the field.
            Reset Pilot Program
    The Army has established several recent key force readiness 
initiatives to prepare units for future missions. One of these 
initiatives is the Reset Pilot Program. Currently the Army Reserve has 
three pilot units for fiscal year 2008 and three for fiscal year 2009. 
In phase one of the program, units complete inventories in theater, 
report combat losses, direct equipment for reset, reserve quotas in the 
Army School System for unit Soldiers, and prepare for home station 
activities. Upon redeployment, the units move to phase two. The units 
conduct a Welcome Home Warrior-Citizen ceremony, focusing on Soldier, 
Family, and employer reintegration and reconstitution of the unit. If 
successful, this reset program will serve as a model to ensure 
redeploying unit readiness.
            Ready Response Reserve Unit (R\3\U) Pilot Program
    The R\3\U Pilot Program is a Department of the Army-directed 
initiative to test the feasibility of nontraditional access and 
employment of Army Reserve units. This pilot will test our ability to 
man, equip, train, and employ units in three specific capability 
categories: short or no-notice employment; support to known basic 
training surge requirements; and sustainment of dental readiness in the 
Army Reserve force. The pilot units being assessed in each category, 
respectively, are a platoon of a biological detection company, a 
company of drill sergeants, and a dental detachment. After bringing 
these units up to the highest levels of readiness during fiscal year 
2008 we will evaluate their readiness during fiscal year 2009. Key 
tenets of an R\3\U are that they are manned with all volunteers, that 
they sustain a high level of readiness, and that they are used outside 
of the traditional ``one weekend a month, 2 weeks annual training'' 
concept of reserve duty. For example, the drill sergeant company will 
conduct a complete 10-week basic combat training cycle at Fort Jackson, 
South Carolina, during fiscal year 2009. Usually, it takes five drill 
sergeant companies 2 weeks each to accomplish that one cycle. The R\3\U 
Pilot will test the Army Reserve's ability to sustain nontraditional 
units like this and provide non-mobilized, enhanced capabilities to 
meet specific Army requirements.
            Meeting Homeland Defense and Disaster Relief Missions
    The Army Reserve can be a federal first-responder to support civil 
authorities during domestic emergencies. As such, the Army Reserve is 
an important element of the current DOD ``Lead, Support, Enable'' 
strategy for homeland defense and civil support. U.S. military forces 
organize, train, and equip to operate in contaminated environments, as 
well as manage the consequences of chemical, biological, radiological, 
or nuclear explosion incidents. The Army Reserve was recently tasked to 
provide increased support as a federal responder for man-made or 
natural disaster situations.
Materiel
    Patriotic men and women who join the Army Reserve today know that 
mobilization and deployment are a reality, not a possibility. Our 
Nation expects much from our Warrior-Citizens, their Families, and 
their employers.
    When preparing to perform a dangerous mission, our Soldiers must 
have modern equipment and state-of-the-art training facilities. The 
Army Reserve is working hard to make these requirements a reality. 
During fiscal year 2008, we continued to refine our sustainment concept 
supporting the Army Reserve Training Strategy (ARTS) and the ARFORGEN 
model. We fielded new equipment; repaired, reset, and reconstituted 
unit equipment; adjusted equipment sets at regional training centers; 
redeployed support assets (manpower, tools, and support equipment) to 
sustain those sets; and continued to field aviation capability in 
accordance with the Army Campaign Plan. As we develop more competent 
and capable Soldiers and unit teams, we seek to provide those teams 
with the best tools available to accomplish diverse and challenging 
national security missions.
            Unit Equipment
    The Army Reserve has been successful meeting expeditionary demands 
primarily by falling in on stay-behind equipment or receiving new 
equipment in theater. We have managed our domestic contingency response 
and training missions by aggressively managing equipment on hand, 
authorized substitutes, and training sets. Looked at holistically, 
however, today the Army Reserve faces momentous equipping challenges.
    The Army Reserve has 73 percent of its required equipment on hand. 
Under currently programmed funding, the Army Reserve should reach 85 
percent equipment on hand by fiscal year 2016 with the goal of 100 
percent on hand by fiscal year 2019.

    ----------------------------------------------------------------

                             Critical Needs
    Obtain from Congress full support and necessary authorities.
  --Equipping Army Reserve units with the latest, fully integrated, 
        modular force equipment to develop Soldier skills and unit 
        equipment mastery through realistic training in years two and 
        three of the ARFORGEN cycle;
  --Equipping Soldiers and units with all the latest required and 
        authorized, fully integrated, modular force equipment to 
        accomplish deployment and contingency standby missions in 
        accordance with the ARFORGEN construct and national security 
        mission demands of the ARFORGEN employment cycle; and
  --Resetting and reestablishing unit readiness, replacing lost, 
        damaged, and committed (theater stay-behind) equipment 
        expeditiously to ensure optimum training and mission readiness 
        sustaining the world-class operational Army Reserve.

    ----------------------------------------------------------------

            Army Reserve Aviation
    The Army Reserve currently has a fleet of more than 130 aircraft--
fixed and rotary wing for combat and support operations. In addition to 
sustaining current capability, the Army Campaign Plan identifies growth 
of three aviation medical evacuation companies within the Army Reserve. 
The first company is standing-up in Clearwater, Florida. Congress 
initially approved $1.6 million to lease and modify existing hangar 
space for the aviation company over the next 5 years. As the Army 
Reserve aviation capability grows, Department of the Army has agreed to 
replace 10 King Air 350 aircraft the Army Reserve provided for 
operations in Iraq. The Army Reserve needs these aircraft to ensure the 
readiness of fixed wing aviation warfighting formations. Continued, 
previously funded, multi-year procurement and replacement of aircraft 
transferred to theater and associated aviation support infrastructure 
are essential to optimizing the Army Reserve's aviation capability.
            Depot Maintenance
    In fiscal year 2008, the Army Reserve executed $130 million in 
programmed depot maintenance funds to overhaul 3,256 major end items at 
Army depots or by commercial facilities. The Army Reserve depot 
maintenance program allows the Army Reserve to extend equipment service 
life, reduce life cycle costs, and maintain safe operation of older 
pieces of equipment. Through maintenance and restoration programs, the 
Army Reserve is able to restore and maintain older items to sustain 
unit capabilities while we wait for the fielding of modern modular 
force equipment.
Services and Infrastructure
    Our Warrior-Citizens are the lifeblood of the Army Reserve. They 
live and work in civilian communities across the country while 
volunteering to serve the Nation. They all serve at a time when the 
stakes for our national security are high and the demands they and 
their Families face are significant. America owes them the best quality 
of life and health care possible.
    The Services and Infrastructure element of the enterprise approach 
encompasses those programs, facilities, and systems that improve the 
well-being of Soldiers and their Families, and supports key management 
processes to ensure readiness and promote Army Reserve institutional 
transformation.
            Yellow Ribbon Reintegration Program
    The Army Reserve Yellow Ribbon Reintegration Program provides 
information, services, referral, and proactive outreach programs to 
Army Reserve Soldiers and their Families through all phases of the 
deployment cycle. The goal of the Yellow Ribbon Reintegration Program 
is to prepare Soldiers and Families for mobilization, sustain Families 
during mobilization, and reintegrate Soldiers with their Families, 
communities, and employers upon release from active duty. The program 
includes information on current benefits and resources available to 
help overcome the challenges of reintegration. The program is comprised 
of seven events through all four phases of the deployment cycle. 
Soldiers are required, and Families highly encouraged, to attend a 1-
day event at alert and again at pre-deployment to help ensure the 
Soldier and Family are prepared for an extended deployment. During the 
separation, commands provide two 1-day events to help sustain Families 
mentally, spiritually, and emotionally. For the local events, we 
leverage local resources as necessary. Upon redeployment, the Soldier 
is required, and Family members highly encouraged, to attend a 30- and 
60-day reintegration weekend. We conduct a ``Soldiers only'' weekend 
event 90 days post-deployment to perform Post Deployment Health Re-
Assessments (PDHRA). During this weekend, Soldiers also participate in 
small group discussions to explore and resolve any lingering deployment 
issues.

    ----------------------------------------------------------------

                          Critical Challenges
    Obtain from Congress full support and necessary authorities.
  --Developing, improving, and sustaining Soldier and Family programs 
        to achieve comprehensive Soldier and Family well-being across 
        relationship, spiritual, health, and fitness dimensions;
  --Sustain a robust and appropriately integrated secure communications 
        and information technology to connect Army Reserve Soldiers and 
        units across the Army enterprise ensuring the Army Reserve 
        remains an effective, contributing operational component of the 
        total force;
  --Providing the facilities to train and sustain the Army Reserve as 
        an active, integrated, robust, and capable operational force. 
        The Army Reserve is managing facilities and infrastructure 
        transformation through three main efforts:
    --Base Realignment and Closure (BRAC) to consolidate and modernize;
    --Accommodating ``Grow the Army'' and emerging mission set facility 
            and training center requirements to optimize unit 
            disposition, training, and readiness;
    --Improving maintenance facilities and storage capacity to ensure 
            unit readiness and maximize equipment service life.

    ----------------------------------------------------------------

            Spiritual Care
    Army Reserve Soldiers, Families, and Army civilians deserve the 
best religious support and spiritual care available. In addition to 
providing pastoral support and direct ministry, unit ministry teams 
(chaplains and chaplain assistants) provide training and education in a 
variety of fields: Strong Bonds, Basic Human Interaction, Suicide 
Intervention and Prevention, Clinical Pastoral Education, Traumatic 
Event Management, and Family Life Chaplain Skills. All these services 
aid in providing this spiritual care to the Army Reserve Family.
    Over 200 Strong Bonds events were conducted by Army Reserve 
commands throughout the country and territories during fiscal year 
2008, enhancing Soldier and Family communication and relationship 
skills. The Army Reserve provided specialized training for couples, 
Families and single Soldiers during pre- and post-deployment. This 
training helps Soldiers and Families relieve stress and address 
relationship issues during every phase of deployment.
    Army chaplains are key enablers of Soldier well-being. Today there 
is a critical shortage of chaplains in the grades of captain and major. 
To address this issue, the chaplain corps partners with religious 
organization endorsers to help recruit and retain high-quality 
chaplains, chaplain assistants, and civilians committed to a 
professional Army chaplaincy.
            Army Reserve Warrior and Family Assistance Center (AR-WFAC)
    The Army Reserve Warrior and Family Assistance Center ensures that 
Warrior-Citizens receive appropriate support under the Army Medical 
Action Plan. This center provides a sponsor to each Army Reserve 
Soldier and Family currently assigned to a Warrior Transition Unit 
(WTU), Community Based Health Care Organization (CBHCO), or Veterans 
Affairs PolyTrauma Center. It also manages a toll-free hotline (1-866-
436-6290) and Web site (www.arfp.org/wfac) to provide Army Reserve 
Soldiers, Families, and Retirees with assistance in areas such as 
medical, financial, administrative, and pastoral issues.
            Family Programs and Services
    The Army Reserve Family Programs (ARFP) is committed to fostering 
Army Strong Families. We continue to develop and evolve to meet Soldier 
and Family needs. ARFP capabilities include program management, 
marketing, information, follow-up and referral, mobilization, 
deployment and reintegration, partnerships, outreach, training and 
development, crisis management, and command consultation. Our vision is 
to have a Family Programs ``face'' at every battalion or equivalent 
formation to promote resilient Soldiers, Families, and volunteers.
    Army Family Covenant.--The Army Family Covenant recognizes the 
commitment and strength of Soldiers and Families, while committing to a 
supportive environment and a partnership with Army Families. Together, 
we must make the Army Family Covenant a reality, focusing on the five 
deliverables: Family Programs and Services; health care; Soldier and 
Family housing; excellent schools, youth services, and childcare; and 
expanded employment and education opportunities for Family members.
    Family Readiness Groups.--Army Reserve Families participate in 
Virtual Family Readiness Groups (VFRG) utilizing information and 
resources provided by the Army's integrated Family support network, now 
called Army One Source. We have begun hiring 127 Department of the Army 
civilian Family Readiness Support Assistants (FRSA) to provide 
administrative and logistical support to volunteer Family readiness 
group leaders. Taking the administrative burden off volunteers enables 
Family readiness group leaders to concentrate on outreach to Soldiers 
and Families in the command.
    Outreach.--Family Programs published its third issue of ``Family 
Strong''--a full-color quarterly publication providing Family Readiness 
information to all Army Reserve households of deployed Soldiers. The 
entire Army Reserve population will receive future issues of this 
publication. Family Programs continues to enhance its online 
information portal, www.arfp.org, to meet the needs of Soldiers and 
their Families 24 hours a day, 7 days a week. The Family Programs 
outreach and support office is available to Soldiers, Families, and 
civilian employees at 1-866-345-8248.
    Welcome Home Warrior-Citizen Award Program (WHWCAP).--This welcome 
home program publicly recognizes the sacrifices Army Reserve Soldiers 
and their Families make on behalf of the Nation. Since the program's 
inception in fiscal year 2004, 124,887 Soldiers, their Families, and 
employers have received special awards honoring their service and 
support.
    Child, Youth, and School Services (CYSS).--Child, Youth and School 
Services supports readiness and well-being of geographically dispersed 
families by reducing the conflict between parental responsibilities and 
mission requirements. CYSS has 21 full-time staff members dedicated to 
ensuring children of our Warrior-Citizens have support in their 
communities throughout the deployment of their loved ones. Programs and 
initiatives meet the needs of children from youth to young adult and 
include childcare, youth development, and school support services.
    Reserve Enrichment Camps.--Enrichment camps provide youth an 
opportunity to learn new skills, develop relationships, and learn more 
about the Army Reserve. In 2007, we conducted the first two Army 
Reserve Enrichment Camps in North Carolina and Wisconsin, serving 100 
Army Reserve youth. In 2008, we expanded the program to include five 
more campsites that served an additional 250 Army Reserve children.
            Support to Families of Our Fallen Soldiers
    The Army Reserve has lost 170 Warrior-Citizens to date in 
Operations Enduring Freedom and Iraqi Freedom. We recognize the 
ultimate sacrifice these Soldiers and their Families have made for the 
cause of freedom, and we proudly honor our fallen comrades in 
ceremonies and with personal tributes. By remembering the distinguished 
service of our fallen, their selfless acts of bravery and leadership, 
the Army Reserve remains Army Strong. As part of our commitment to the 
Families of the fallen, the Army Reserve conducts memorial services to 
honor their loved ones' sacrifices, offers chaplain support if 
requested, as well as ongoing support to help the Families through the 
difficult time. Soldier Outreach Services currently falls under Army 
Reserve Family Programs and is coordinated through the Chaplains' 
Office in the Warrior and Family Assistance Center.
            Communication (Information Technology)
    The Army Reserve is implementing a 5-year secure communications 
project that includes secure data, voice, and video to the battalion 
level. Secure communications capabilities are essential to unit 
preparation and training. As units move through the ARFORGEN cycle, 
secure communications connectivity will reduce time required for pre-
mobilization by allowing access to classified information and ``real 
world'' data not currently available through unclassified means.
    Supporting Army information technology enterprise operations, the 
Army Reserve is leading the way to consolidating network management and 
data center services. Consolidation of services generates efficiencies 
and supports the Army's Global Network Enterprise Construct (GNEC). The 
return on investment will support future information technology 
improvements to increase Army Reserve unit readiness.
    The Army Reserve must have highly integrated information technology 
capabilities from the tactical to strategic level--technologies that 
are both modular and scalable. In order to provide these integrated 
capabilities, the Army Reserve must move toward network-managed 
services to reduce overall operating costs, while maintaining 
acceptable service levels nationwide. Sustaining Army Reserve 
information technology capabilities is essential to a fully operational 
Army Reserve.
            Army Reserve Facilities and Base Realignment and Closure 
                    (BRAC)
    In the midst of the ongoing war and transformation efforts to grow, 
restation, and modernize the Army, the Army Reserve is building new 
capability. The Army Reserve is disposing of obsolete facilities and 
constructing new state-of-the-art training, maintenance, and 
administrative facilities. In fiscal year 2009, the Army Reserve will 
initiate 12 ``Grow the Army'' projects, 21 BRAC projects, and eight 
Military Construction Army Reserve (MCAR) projects. We are working 
aggressively to address all our facilities and infrastructure 
requirements to ensure Soldiers receive the best training and support 
possible, and that we adequately support and maintain on-hand and 
inbound modular force equipment to ensure unit readiness.
    The initial BRAC 2005 assessment underestimated the facility 
requirements of the number of units and Soldiers in facilities 
identified for closure. This impacts force readiness. To mitigate some 
of these BRAC costs, the Army Reserve, through our Transformation 
Integration Office, provides detailed planning and systematic follow-
through for each BRAC action. We manage from land acquisition, from 
coordination with local redevelopment authorities, to final property 
closure and disposal. This level of attention to specific BRAC mandates 
enables our commanders to plan unit relocation while minimizing impact 
on operational missions.
    Through our construction efforts, we intend to provide a facilities 
support framework to support and sustain Army Reserve transformation. 
We will maximize the utilization of Army Reserve installations and 
facilities at Fort Dix, Fort McCoy, Fort Buchanan, Fort Hunter Liggett, 
and the Combat Support Training Center at Camp Parks to support 
ARFORGEN. We have embraced a ``retool mindset'' and are thinking 
jointly with other components and services wherever possible. We will 
maintain our community-based presence, and provide flexible, multiuse, 
complete facilities for our units. By reducing our footprint where 
possible, we seek to optimize the return on investment. The Army 
Reserve is building readiness.
            Business Transformation
    The Army Reserve is constantly looking for ways to streamline 
operations, improve unit readiness, develop greater efficiencies--in 
short, increase the rate of return on investment Americans make in the 
Army Reserve.
    One example of the success of our efforts is our increasing the 
Boots on the Ground time for Army Reserve units through restructuring 
pre- and post-mobilization training processes. The goal was to reduce 
training time for mobilized units to no more than 45 days, to maximize 
potential ``boots on the ground'' for a 1-year deployment. We 
approached the challenge deliberately identifying three unit elements 
requiring very different training regimens: combat support hospitals, 
military police companies, and engineer companies. By streamlining the 
pre- and post-mobilization training schedules and eliminating 
unnecessary and duplicate activities, we reduced training time by an 
average of 38 days. This resulted in post-mobilization cost savings 
ranging from $768,000 to $5.6 million per unit deployed. Intangible 
benefits identified include compliance with the Train-Alert-Deploy 
foundation of ARFORGEN, reducing rotational span, and realigning pre- 
and post-mobilization training. While these projects focused on 
specific types of units, the results and findings are universally 
applicable to Army Reserve units.
    Through other business transformation initiatives, we improved the 
Army Reserve's active component to reserve component transition rate. 
We achieved the highest transition rate in the program's history, with 
a projected cost avoidance of approximately $13 million in training 
dollars for fiscal year 2008. Through our business process 
transformation efforts we further decreased the processing time for 
incapacitation pay from 79 to 45 days. The Army Reserve is a forward-
looking, progressive organization. We will continue to seek to maximize 
America's return on investment.

              ARMY RESERVE GENERATING RETURN ON INVESTMENT

    The Army Reserve today is undoubtedly a strong return on investment 
for America. We are an effective, cost efficient organization that 
complements the needs of the Army. The Army Reserve delivers combat 
support and combat service support capability to the Army for America's 
defense. Our value to America goes beyond providing military 
capability. Working with our civilian partners, we are building a human 
capital strategy where both employer and military share and enhance the 
skills of one individual, who contributes both to the defense of our 
Nation and to sustaining a strong national economy. Bottom line, the 
Army Reserve gets a better Soldier; the employer gets a better 
employee. That is a good investment for America.
    The values and talents that are a part of our skill-rich 
organization benefit this nation beyond the traditional role of 
defense. This is the legacy of our Warrior Citizens. When we produce 
truck drivers for America's trucking industry, medical technologists 
for America's medical community, law enforcement officers for America's 
law enforcement agencies, among other specialties, it is a good value 
for America.
    Transitioning the Army Reserve from a strategic reserve to an 
operational force is also good value for this nation. It is difficult 
and complex to operationalize the reserve component, especially in a 
wartime environment; however, we are making it happen. We are moving 
away from a legacy structure that served us well as a strategic reserve 
to a leaner organization that accommodates command and control of an 
operational force. Using the Base Realignment and Closure (BRAC) 
Commission mandate, we are also restructuring to add capability for the 
future. This is the capability we need to support new Army missions, 
such as Stability Operations. We are supporting the requirements of 
this expanding new mission by adding civil affairs professionals, 
transportation specialists, engineers, and military police as part of 
our internal reorganization while adding about 16,000 operational 
spaces of capability for the future. The Army Reserve is doing the 
right thing internally while transforming externally.
    Our success in current and future military operations is dependent 
on our ability to man, equip, train, and prepare Army Reserve Soldiers 
as full cohesive units for current and future operations. Our force of 
Warrior Citizens serves the Nation as an operational force for which 
they are not designed nor resourced; as a result, our primary focus is 
on the demands of current operations. With sufficient means, we cannot 
only grow and transform the force, but we can also train Soldiers and 
units during an era of persistent conflict. We, however, risk failure 
if faced with a rate of change that exceeds our capability to respond.
    We take our commitments to our Nation, to our Army, and to our 
Soldiers, Families, and our Employer Partners seriously. We are 
effective stewards of our Nation's resources. We serve with an 
unwavering pride that the America's sons and daughters willingly answer 
the call to duty in a time of war or national emergency. As we position 
ourselves as an essential provider of combat support and combat service 
support to the United States Army, we look to Congress and our fellow 
citizens for strength and support as our partners in building an 
operational Army Reserve for the 21st century.

                            SPECIAL HONOREES
                        AWARD OF THE SILVER STAR

    Sergeant Gregory S. Ruske is the fourth Army Reserve Soldier to 
receive the Silver Star for heroism.
    Sergeant Gregory S. Ruske of Colorado Springs, Colorado, earned the 
Silver Star for placing himself in the line of enemy fire while he 
planned and led the rescue of an Afghan National Police officer felled 
in a firefight. While assigned to Combined Joint Task Force 101, 
operating in Afghanistan's Kapisa province, he and his fellow Soldiers 
from 3rd Platoon, ``A'' Company, Task Force Gladiator, were on a patrol 
in a remote area when Taliban operatives attacked them with heavy 
grenade, machine-gun and rifle fire.
    Trapped with his unit out in the open, Sergeant Ruske returned fire 
so most of the platoon could move to protective cover. After taking a 
bullet to the hip, Sergeant Ruske repositioned himself to a rooftop and 
continued laying fire.
    At that point, Sergeant Ruske realized that two Afghan National 
Police officers were pinned down in the open, taking fire from their 
Taliban attackers. One ran for cover, but the other officer--one 
Sergeant Ruske had worked with at vehicle checkpoints and chatted with 
through an interpreter--had been shot and was trying to crawl to safety 
through a hail of bullets.
    Sergeant Ruske said he did not take time to think about his own 
safety, but simply reacted using the training the Army Reserve gave him 
in preparation for combat.
    Sergeant Ruske credited his mentor during his 3 years of active 
duty, Sergeant First Class Glen Boucher, with instilling the discipline 
and skills that he drew on while under fire.
    ``I don't consider myself a hero,'' he said. ``I was just an 
ordinary guy put in an extraordinary situation. I reacted based on my 
upbringing, training, and compassion, and thankfully, it worked out in 
the end.''

        FIRST ARMY RESERVE SOLDIER WINS ARMY SOLDIER OF THE YEAR

    ``Best Warrior is a tremendous honor; however, the real `Best 
Warriors' are those who serve, those who have served, and those who 
desire to do so. To represent the United States Army Reserve Command at 
the Department of the Army level means I have a responsibility to bring 
due-credit to the Army Reserve training and leadership of which I am a 
product,'' said Army Soldier of the Year, Specialist David Obray.
    Specialist David Obray is a Construction Equipment Repair 
Specialist with the U.S. Army Reserve, 492nd Engineer Company, 414th 
Engineer Command, Mankato, Minnesota.
    With 3 years experience in the U.S. Army Reserve, Specialist Obray 
is the first Reserve Soldier to win the prestigious Army title.
    A native of Fairmont, Minnesota, Specialist Obray attends Winona 
State University where he is president of the Student Association and 
pursuing a bachelor's degree in Law & Society and Business Law. His 
plans include obtaining a Juris Doctorate and Master of Business 
Administration degree, retiring from the Army Reserve as a Command 
Sergeant Major, and pursuing his dream of becoming a United States 
Senator.
    For Specialist Obray, service to country is a family business. His 
sister and brother currently serve in the Army, and his grandfather and 
great-grandfather served in World War II and World War I respectively.
    Specialist Obray's Army goals include becoming a fire team and 
squad leader and a Battalion Command Sergeant Major. Weighing 300 
pounds at age 16, Specialist Obray credits military discipline with 
giving him the courage and ability to become physically and mentally 
fit. He is proud to represent the U.S. Army as ``Soldier of the Year.'' 
``The Best Warrior is the personified Strength of the Nation,'' says 
Specialist David Obray. ``The title represents the entire United States 
Army and shows the proficiency of all Soldiers and Noncommissioned 
Officers. It is a great honor to be selected.''
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                         ARMY RESERVE SNAPSHOT

    Vision.--A community-based federal operational force of skill-rich 
Warrior-Citizens providing complementary capabilities for joint 
expeditionary and domestic operations.
    Mission.--To provide trained and ready Soldiers and units with the 
critical combat service support and combat support capabilities 
necessary to support national strategy during peacetime, contingencies 
and war.
    Desired End State.--An Army Reserve with a culture that embraces 
continuous transformation, is capable of predictably and perpetually 
providing relevant operational forces to Combatant Commanders, and 
maintains strong mutually supporting Warrior-Citizen relationships 
among Soldiers, Families, Army Reserve Civilians, Employers, and the 
Army.
Key Leaders
    Secretary of the Army: The Honorable Pete Geren
    Army Chief of Staff: General George W. Casey, Jr.
    Chief, Army Reserve and Commanding General, U.S. Army Reserve: 
Lieutenant General Jack C. Stultz
    Deputy Commanding General, U.S. Army Reserve Command: Major General 
Alan D. Bell
    Deputy Chief Army Reserve: Major General Mari K. Eder
    U.S. Army Reserve Command Chief of Staff: Colonel Charles E. 
Phillips, Jr.
    Deputy Chief Army Reserve: Brigadier General Julia A. Kraus
    Director for Resource Management: Mr. John C. Lawkowski
    Chief Executive Officer: Mr. Kenneth N. Williamson
    Command Chief Warrant Officer: Chief Warrant Officer 5 James E. 
Thompson
    Command Sergeant Major: Command Sergeant Major Leon Caffie
Army Reserve Basics
    Established: April 23,1908
    Designated Direct Reporting Unit to Army: October 1, 2007
    2010 Authorized End Strength: 206,000
    Selective Reserve Strength: 202,500
    Accessions for Fiscal Year 2008: 44,455
    Reenlistments for Fiscal Year 2008: 16,523 (111 percent of annual 
goal)
    Accessions Goal for Fiscal Year 2009: 43,154
    Soldiers Currently Deployed: >27,000
    Soldiers Mobilized Since September 11, 2001: >170,000
    Number of Army Reserve Centers: 1,136
Distinctive Capabilities
    The Army Reserve contributes to the Army's Total Force by providing 
100 percent of the:

Chemical Brigades

Internment Brigades

Judge Advocate General Unit

Medical Groups

Railway Units

Training & Exercise Divisions

Water Supply Battalions


    . . . more than two-thirds of the Army's:

Civil Affairs Units

Psychological Operations Units

Transportation Groups

Motor Battalions

Chemical Battalions

Hospitals

Medical Brigades

Theater Signal Commands


    . . . and nearly half of the Army's:

Petroleum Battalions

Adjutant General Units

Petroleum Groups

Transportation Command

Terminal Battalions

Public Affairs Units

Army Reserve Demographics

------------------------------------------------------------------------
                                                                No.
------------------------------------------------------------------------
Ethnicity (in percent):
    Caucasian...........................................            59.7
    Black...............................................            22.0
    Hispanic............................................            12.3
    Asian...............................................             3.4
    Pacific Isl.........................................             1.0
    Native Amer.........................................             0.7
Average Age.............................................            38.8
    Officers............................................            30.6
    Enlisted............................................            41.8
    Warrant.............................................            44.1
Married (in percent)....................................            44.5
    Officers............................................            63.1
    Enlisted............................................            39.6
    Warrant.............................................            73.0
Gender (in percent):
    Male................................................            76.1
    Female..............................................            23.9
------------------------------------------------------------------------

Army Reserve Budget Figures

------------------------------------------------------------------------
                                           Total fiscal    Total fiscal
                                             year 2009       year 2010
                                           budget: $7.5B  program: $7.9B
------------------------------------------------------------------------
Operations and Maintenance..............           $2.6B           $3.1B
Military Personnel......................           $4.6B           $4.4B
Military Construction...................           $282M           $381M
------------------------------------------------------------------------

Army Reserve Installations
    Fort Buchanan, Puerto Rico
    Fort McCoy, Wisconsin
    Devens, Massachusetts
    Fort Hunter Ligget, California
    Fort Dix, New Jersey
    Camp Parks, California

    Chairman Inouye. May I now call upon Admiral Dirk Debbink?
STATEMENT OF VICE ADMIRAL DIRK J. DEBBINK, CHIEF, NAVY 
            RESERVE
    Admiral Debbink. Chairman Inouye, Vice Chairman Cochran, 
pleasure to be with you this morning. Thank you for the 
opportunity to testify before you. As you know, this is my 
first testimony before the subcommittee. I would like to begin 
by thanking you for your terrific support of the 67,217 sailors 
and their families that comprise your Navy Reserve.
    I would like to communicate three things to you in my 
testimony today. First and foremost, my written testimony goes 
into some length describing what we are doing for our Navy 
today and, by extension, our Nation. As I testify this morning, 
Navy Reserve sailors are operating in every corner of the 
world, and you see our sailors in the news, but you do not see 
the caption that reads ``Reserve'' because we are part of the 
total force, and seeking to optimize the way we operate as a 
total force Navy. From certifying strike groups at home before 
they deploy overseas, to our naval special warfare teams in 
Iraq, Afghanistan, and around the world, our sailors are making 
significant contributions across the full spectrum of both 
naval and joint operations. And we are very closely linked with 
the active component and our civilians to constitute the total 
force our Navy depends on every day to execute our maritime 
strategy and our national tasking.
    Second, I would like to tell you more about the outstanding 
sailors who are actually doing the work of our Navy Reserve. 
Following a strength reduction of nearly 25 percent since 2003, 
our central focus of our manpower strategy is now to establish 
a true continuum of service culture. This is a culture that 
offers our sailors the opportunity to truly be a sailor for 
life, providing a life/work balance that accommodates 
individual circumstances while also sustaining the inventory of 
skilled and experienced professionals we need for our total 
force missions.
    And finally, I would like to bridge from the what we are 
doing and who is doing it to communicate what I believe is a 
real value proposition of the Navy Reserve. We are proud of 
what we bring to the fight today. We are also acutely aware of 
the necessity of our long-term contribution to our Navy and our 
Nation, and I believe we are demonstrating that daily by the 
incredible return on investment that your Navy Reserve 
represents. Today's Navy Reserve, from civil affairs to Navy 
SEALs, are integral to total force; and we stand shoulder to 
shoulder with our active component executing full-spectrum 
operations that represent every facet of Navy's global maritime 
strategy for the 21st century. We have proven ourselves to be a 
ready, responsive, and adaptive operational force while 
maintaining our strategic depth. This is an important and, I 
think, very meaningful time for all of us to be serving our 
Nation's defense and particularly, I would assert, as a 
reservist.
    I thank you for your continued support and I look forward 
to your questions, sir.
    Chairman Inouye. I thank you very much, Admiral.
    [The statement follows:]

           Prepared Statement of Vice Admiral Dirk J. Debbink

                              INTRODUCTION

    Chairman Inouye, Senator Cochran, and distinguished members of the 
Defense Subcommittee, thank you for the opportunity to speak with you 
today about the capabilities, capacity, and readiness of the dedicated 
men and women who serve in our Navy's Reserve Component (RC). I offer 
my heartfelt thanks for all of the support you have provided these 
great Sailors.
    On July 22 last year I had the distinct honor of reporting to the 
Chief of Naval Operations (CNO), Admiral Gary Roughead, as the 12th 
Chief of Navy Reserve. In that capacity, I have the privilege of 
working for over 67,000 Sailors in our Navy's RC. I take to heart that 
each of them has promised to support and defend the Constitution of the 
United States, against all enemies, foreign and domestic. That promise 
is their covenant to our Nation, and my covenant back to these Sailors 
is to do everything I can to make their service truly meaningful, 
significant, and rewarding; these Sailors form an incredibly capable 
and motivated force, and they deserve nothing less. I find myself 
amazed and truly in awe of the daily sacrifices our RC Sailors are 
making for our Nation and our Navy.
    My predecessor, Vice Admiral John Cotton, laid a strong foundation 
during the past 5 years for a more responsive and operational force; 
and we are a better Navy because of his leadership. We remain steady on 
course and we will look to increase speed where able by improving upon 
our strengths and efficiencies to further advance our ``Support to the 
Fleet . . . Ready and Fully Integrated.'' We are also working on new 
initiatives in order to more fully implement the Navy Reserve's vision 
of: ``Ready Now. Anytime, Anywhere.''
    The Navy Reserve is an integral component of our Total Force--
inextricably linked with the Active Component (AC), civil servants, and 
contractor personnel. Our focus is on strategic objectives and specific 
initiatives that will enable us to optimize our support for the CNO's 
priorities: (1) Build the Future Force, (2) Maintain Warfighting 
Readiness, and (3) Develop and Support our Sailors, Navy Civilians, and 
Families. Within this framework, I would like to take this opportunity 
to update you on the operational contributions, support to the Sailor 
and family, and the people policies and programs of the Navy Reserve.

                       OPERATIONAL CONTRIBUTIONS

    The Navy's RC contributions are directed when and where they make 
the most operational and cost-effective sense--the right Sailor, in the 
right assignment, at the right time, and importantly, at the right 
cost. Leveraging valuable military and civilian skill-sets and 
capabilities--when possible and consistent with volunteerism--Navy 
Reservists operate in all corners of the world. RC Sailors are on the 
ground in Iraq and Afghanistan; they help project power from the 
Arabian Gulf; and they aid in providing a stabilizing influence in the 
Eastern Mediterranean. They patrol waters off the Horn of Africa and 
deliver humanitarian assistance and disaster relief throughout the 
world.
    To meet global requirements, the Navy continues to mobilize 
thousands of Selected Reserve (SELRES) RC personnel. These mobilized 
SELRES personnel provide a growing spectrum of capabilities to 
prosecute our current fights by integrating seamlessly into a multitude 
of augmentation missions, in addition to mobilizing as Navy units. We 
are called to execute missions well beyond core requirements with new 
capability missions (Civil Affairs Units, Mobile Training Teams, and 
Provincial Reconstruction Teams, in particular) and mission-unique 
training such as Detainee Operations and Customs Inspection battalions. 
One-third of Navy augmentees currently serve in non-traditional 
missions that involve new capabilities or require unique training. 
Mobilized SELRES Sailors have sustained their largest footprints in 
Iraq (1,018 Sailors), Kuwait (796 Sailors), and Afghanistan (277 
Sailors). At the Landstuhl Regional Medical Center (LRMC), more than 90 
percent of the expeditionary medical support personnel are RC 
augmentees. Navy RC medical augmentees are generally activated for 
mobilization employment periods from 3 months to 1 year from various 
Operational Health Support Units to form the highly valued Navy 
Expeditionary Medical Units (NEMUs). Over 380 RC medical personnel 
served in our NEMUs in 2008, and 294 are expected to serve in 2009 and 
2010.
    In addition to the contributions of mobilized SELRES and those 
conducting Active Duty Operational Support in fiscal year 2008, an 
additional 21,803 Navy Reservists provided 385,291 man-days of Fleet 
Operational Support above the traditional 39 days each SELRES provides 
under current law. The Navy Expeditionary Combat Command (NECC) sets 
the example of RC's operational contributions. Led by Rear Admiral 
Carol Pottenger--a Full Time Support (FTS) Officer of the RC (the Navy 
RC equivalent of Active Guard and Reserve (AGR)), its expeditionary 
forces deployed across five continents and 12 countries in 2008, and 
continue fighting the war on terror and supporting the Global Maritime 
Strategy. With 48 percent of the NECC force comprised of RC members, 
NECC's global support to the Navy Component Commanders (NCCs) and 
unified Combatant Commanders (COCOMs) is only executable with integral 
contributions from the RC. In 2008 alone, nearly 2,300 RC members from 
17 NECC units deployed globally, with more than 95 percent of the 
deployed units and personnel supporting Operation Iraqi Freedom (OIF) 
and Operation Enduring Freedom (OEF) in the Central Command (CENTCOM) 
Area of Responsibility (AOR). NECC RC forces continue to support 
operations that include: construction/engineering operations with the 
Naval Construction Forces (e.g., Construction Battalions, or SEABEEs), 
maritime expeditionary landward and seaward security with Maritime 
Expeditionary Security Forces (MESF), Customs Inspections and port/
cargo operations with Navy Expeditionary Logistics Support Group 
(NAVELSG), warfighting documentation with Combat Camera, document and 
electronic media exploitation with Navy Expeditionary Intelligence 
Command, and Anti-Terrorism/Force Protection (AT/FP) training with the 
Expeditionary Training Command.
    The Navy's RC has been the driver behind an enormous success story 
Navy-wide through its lead role in the critical Customs Inspection 
mission, currently providing virtually the entire deployed footprint 
with more than 500 RC Sailors on Individual Augmentee (IA) assignments. 
The Navy is projected to sustain this footprint in 2009 with planned 
Customs rotations throughout the year. The mobilized Customs Inspectors 
include police officers, corrections officers, state police/sheriffs, 
full-time students, engineers, and small business owners. Others 
include teachers, postal clerks, carpenters, nurses, emergency medical 
technicians, auto technicians, and fire fighters. The most recent 
rotation of RC Sailors to deploy for an 8-month Customs/Ports tour of 
duty in Iraq and Kuwait departed in November. These Customs personnel 
are drawn from 96 Navy Operational Support Centers (NOSCs) representing 
38 states and territories, including Puerto Rico and Guam.
    RC Sailors are also found in the Navy Special Warfare (NSW), 
Maritime Expeditionary Security, and Explosive Ordnance Disposal (EOD) 
communities. Reservists comprise 17 percent of the NSW community, 
including SEALs and Special Warfare Combatant-Craft Crewmen (SWCC). As 
a CNO initiative to relieve stress on the AC EOD force, the RC EOD 
force was established in 2007. In 2008, RC EOD units deployed to 
support two OIF/OEF/Global Naval Force Presence Posture (GNFPP) 
requirements. Through Maritime Expeditionary Security units, the Navy's 
RC also directly augments the Maritime Expeditionary Security mission.
    The RC aviation community is equally involved in Total Force 
operational support. Electronic Attack Squadron 209 (VAQ 209) 
mobilized, deploying 188 FTS and SELRES personnel to Bagram Air Base, 
Afghanistan in support of Coalition operations from January 14th thru 
March 14th in 2008. Helicopter Sea Combat Squadron 84 (HSC 84) 
continues its deployment to Balad Air Base, Iraq to conduct air assault 
combat missions in support of CENTCOM Joint Special Operations. RC 
members of Helicopter Sea Combat Squadron 85 (HSC 85) are deployed to 
Kuwait to support the 2515th Naval Air Ambulance mission, while RC 
members of Helicopter Mine Countermeasures Squadron 15 (HM 15) are 
deployed alongside the AC to the CENTCOM AOR for Fifth Fleet and Navy 
tasking by the U.S. Central Command. Eight RC Sailors from HM 14 are 
also deployed to Korea, conducting Airborne Mine Countermeasures and 
Vertical Onboard Delivery (VOD) missions.
    A detachment from Carrier Airborne Early Warning Squadron 77(VAW 
77), consisting of more than 30 FTS/SELRES personnel and 25 maintenance 
contractors completed 4 month deployments in 2008 to various sites in 
the Southern Command (SOUTHCOM) AOR for counter-narcotics operations, 
directly assisting in the capture of cocaine and heroin with an 
approximate street value of $700 million. A 25-person detachment from 
Helicopter Antisubmarine (Light) Squadron 60 (HSL 60) deployed aboard 
the USS Dewert (FFG 45) last year to support SOUTHCOM and Fourth Fleet 
counter-narcotics operations, assisting in the interdiction of cocaine 
that was valued at $350 million. Currently, HSL 60 has another 25-
person detachment onboard USS Samuel B. Roberts, seizing seven metric-
tons of narcotics to date. The Navy Air Logistics Office scheduled 
aircraft and forward-deployed detachments from all 15 Fleet Logistics 
Support Wing (VR) squadrons, enabling the efficient and effective 
transport of more than 127,000 personnel and 21.7 million pounds of 
cargo to/from various overseas locations in support of COCOM and 
theater-validated requirements. The VR Wing routinely fulfills three 
CENTCOM Deployment Orders, and in excess of 160 RC personnel from the 
VR Wing are deployed to Japan, Italy, Qatar, and Bahrain each day.
    The VR Wing also enables the Fleet Readiness Training Plan (FRTP) 
by transporting personnel and cargo throughout the Continental United 
States in support of FRTP airlift requirements for Carrier Air Wings 
(CVWs), Carrier Strike Groups, Fleet Replacement Squadron (FRS) 
detachments, and NSW training requirements. Fighter Squadron Composite 
12 (VFC 12), Fighter Squadron Composite 13 (VFC 13), Fighter Squadron 
Composite 111 (VFC 111), and Strike Fighter Squadron 204 (VFA 204) also 
enable FRTP initiatives by executing adversary sorties for multiple CVW 
and FRS detachments. The Squadron Augmentation Units (SAUs) from 
Commander, Naval Air Training Command (CNATRA) flew 20 percent of all 
sorties conducted in support of student Pilot/Naval Flight Officer 
(NFO) production during 2008, while the FRS SAUs flew nearly 10 percent 
of the syllabus flight events in support of Pilot/NFO and aircrew 
production.

                       EQUIPPING THE NAVY RESERVE

    For Navy Reservists to continue providing superior operational 
support to the Navy through the competencies they have acquired both in 
the Fleet and in their civilian careers, the Navy must also have 
interoperability between all elements of the Total Force. The 
acquisition of AC and RC equipment, enhancements and upgrades to 
programs, and equipment redistribution (AC to RC, as well as RC to AC) 
have virtually eliminated capability and compatibility gaps between AC, 
RC, and Joint forces. Current and future RC equipment requirements that 
are vital to our combat forces include aircraft and NECC equipment.
    The aircraft needed to recapitalize the RC and ensure complete 
alignment with the AC are: the EA-18G ``Growler'' for Electronic 
Attack, the P-8A ``Poseidon'' Multi-Mission Aircraft, the KC-130J 
``Hercules'' for over- and out-sized cargo intra-theatre transport, and 
the C-40A ``Clipper'' for intra-theatre cargo and passenger transport. 
In addition to RC operators, the AC will also have aircrew personnel 
who will operate the EA-18G, P-8A, and the KC-130J (USMC AC). The C-40A 
is unique among these aircraft as it is only operated by RC aircrew 
personnel--the AC does not have any ``Clipper'' operators. Further, the 
C-40A is essential to providing flexible, time-critical, and intra-
theater logistics support, serving as a connector between strategic 
airlift points of delivery to Carrier Onboard Delivery and VOD 
locations. The C-40A is the replacement for aging DC-9/C-9B and C-20G 
aircraft, and it can simultaneously transport cargo and passengers. The 
Clipper has twice the range, payload, and days of availability of the 
C-9 models, and it has twice the availability and eight times the 
payload of the C-20G. The C-40A is an outstanding asset and has 
provided enormous operational support, while facilitating the FRTP, 
since its arrival in 2001.
    NECC provides equipment for its subordinate commands, such as 
SEABEE, MESF, EOD, and NAVELSG units. The equipment utilized by these 
type commands include counter-IED (Improvised Explosive Device) 
equipment, tactical vehicles, construction and maintenance equipment, 
material handling equipment, communications gear, boats, and 
expeditionary camp equipment. Like NECC's mission, the equipment it 
operates is both dynamic and diverse.
    The Navy has trimmed the RC force structure to the appropriate 
capacity and capability required to sustain the operational Reserve 
Force. The perceived value and the return on investment that the RC 
delivers in personnel and equipment to the Total Force are measured on 
a daily basis. Critical recapitalization continues to be a priority, 
and budgetary dynamics make us ever reliant on a combination of the 
service priority and the direct appropriation for these aging and 
depreciating assets. Some of these requirements have been mitigated by 
your continued support through the National Guard and Reserve Equipment 
Appropriation.

                    SUPPORTING THE SAILOR AND FAMILY

    As we continue supporting the Fleet, we proactively extend our 
support to individual Sailors and their families. Our Sailors will do 
almost anything we ask of them, and we see evidence of their dedicated 
service everyday, especially in Iraq and Afghanistan. Their expectation 
that we will support their families while they are away from home is 
both fair and reasonable.
    With so many RC Sailors filling IA and mobilization requirements, 
the July 2008 release of the RC IA Business Rules (Navy Administrative 
message 235/08) directly addressed how we care for our RC Sailors. In 
particular, these business rules authorized RC Sailors who volunteer 
for unit mobilization to combat zones inside their 1:5 ``Dwell Time,'' 
to reset their ``Dwell Clock'' and receive Post-Deployment/Mobilization 
Respite Absence (administrative leave).
    To ensure that our Reserve Force was ready to deploy at any time, 
the Navy's RC introduced the Medical Readiness Reporting System (MRRS) 
to address Individual Medical Readiness. MRRS use was expanded in 
fiscal year 2008, and is now used by the Navy's AC and RC, as well as 
the Coast Guard and Marine Corps. In addition, MRRS was recently 
enhanced to allow more accurate tracking of those Sailors at risk due 
to combat operational stress, and to ensure they receive the 
appropriate attention during Post Deployment Health Re-assessments 
(PDHRAs) conducted 90-180 days after demobilization.
    To facilitate a continuum of readiness, given the stress that 
oftentimes results from operational deployments overseas, funding was 
approved in 2008 to establish the Navy Reserve Psychological Health 
Outreach Program. This program provides outreach services to Reservists 
returning from deployment, both during the reintegration process and 
beyond. It ensures early identification and timely clinical assessments 
of Navy Reservists at risk for stress injuries. The Program 
Coordinators facilitate access to psychological health support 
resources for the service members and their families, and serve as 
Facilitators at Psychological Health/Traumatic Brain Injury seminars 
and Returning Warrior Workshops.
    The Navy Reserve continues to make exceptional progress in 
advancing a standardized, world-class Continuum of Care for SELRES 
Sailors, FTS Sailors, and their families through all phases of the 
mobilization deployment cycle. United States Fleet Forces (USFF), as 
executive agent for IA and IA Family Support, was vital to the 
evolution of a Total Force Continuum of Care in 2008 by standing up the 
IA and IA Family Cross Functional Team and Executive Steering 
Committee. The Navy Reserve is a lead stakeholder supporting USFF in 
this initiative, and is well-aligned with the Total Force in developing 
and implementing deployment support and reintegration programs for 
deploying IA personnel and units throughout all phases of the 
mobilization cycle.
    The Returning Warrior Workshop (RWW) is now available to RC and AC 
Sailors, Marines, and their spouses throughout the country. The RWW 
serves as a model in the development of a broad spectrum of additional 
``Continuum of Care'' programs and events. The workshops epitomize 
Sailors taking care of Sailors; they reflect the Navy's dedication to 
supporting, educating, and honoring our Sailors and families, and they 
communicate a strong message that the Navy values their service and 
sacrifice.
    RWWs are ``five-star events'' conducted on weekends and attended by 
up to 200 Sailors, Marines, and spouses. Attending participants have 
the opportunity to address personal, family, or professional situations 
experienced during deployment and receive readjustment and 
reintegration support and resources from a network of counselors, 
psychological health outreach coordinators, chaplains, and Fleet and 
Family Support Center representatives. Throughout the weekend, 
participants benefit greatly from considerable counseling opportunities 
to educate and support the Navy Family and assist Sailors in re-
acclimating with their families and to civilian lives.
    The future for RWWs is bright given the unprecedented success of 
the workshops completed in 2008 and those already completed in 2009. 
The recent event in Albuquerque, New Mexico was the 21st successful 
event since the inception of the program by Navy Region Southwest 
Reserve Component Command (at Navy Operational Support Center, Phoenix) 
in late 2007. Looking ahead, 29 additional workshops are contracted and 
funded through July 2010.
    Our Return-Reunion-Reintegration team is placing strong emphasis on 
the development, implementation, and enhancement of several other 
transformational programs and events. These high profile initiatives 
include: Full implementation of DOD's Yellow Ribbon Reintegration 
Program by Navy; modification of the Chaplain's Religious Enrichment 
Development Operation (CREDO) retreats to provide a ``One-Day Up-
Check'' for returning Sailors as an alternative to the RWW; and 
development of comprehensive roles and responsibilities for 
Psychological Health Outreach Coordinators assigned to each region.

                      PEOPLE POLICIES AND PROGRAMS

    A central component of Navy's Total Force strategy is the 
establishment of a culture of a ``Continuum of Service'' to provide 
opportunities for Sailors to transition in and out of active service at 
different stages of their careers. The Continuum of Service represents 
a new operating paradigm which can be summarized by the phrase: 
``Recruit once, Retain for life.'' Last year, the Navy's accession and 
retention bonuses for RC Sailors increased to $108 million, enhancing 
our ability to recruit and retain the right people for the right job. 
For fiscal year 2008, Navy Recruiting Command achieved 100 percent of 
the RC enlisted accession goal, and 105 percent of RC General Officer 
goal. As recently stated by our Chief of Naval Personnel, VADM Mark E. 
Ferguson, we believe we are on track to repeat this success in fiscal 
year 2009. Once we recruit, train, and lead these Sailors through their 
initial tours of duty, our imperative is to give them opportunities to 
transition between the Active and Reserve Components, allowing them to 
find the life/work balance that's right for them. This will strengthen 
the focus on retention and reduce the burden on recruiting.
    In addition to achieving the Navy's recruiting goals, the retention 
and attrition for RC personnel have been just as successful. Improved 
retention and lower attrition rates are attributed to a slowing economy 
and an effective recruiting campaign through our ``Stay Navy'' 
initiatives. These efforts target affiliation and retention bonuses on 
skill sets we need the most. In fiscal year 2009, we continue to target 
high-demand/low-supply communities and critical skill sets with 
competitive monetary incentives.
    Navy Reserve end strength has declined by approximately 20,000 
Sailors from 2003 through 2008 (88,156 RC Sailors in 2003 to 68,136 RC 
Sailors in 2008). The anticipated steady state end strength is 
approximately 66,000 in fiscal year 2013. During fiscal year 2008, to 
provide for a stable RC inventory, we implemented several force shaping 
measures that included a reduction in prior service accessions, as well 
as proactive management of Transient Personnel Units (TPUs), overmanned 
designators, and Sailors reaching High Year Tenure. These measures 
proved to be effective, as the Navy ended fiscal year 2008 with 68,136 
RC personnel (approximately 0.5 percent above our statutory end 
strength authorization of 67,800).
    In fiscal year 2009, we already see higher retention and fewer 
losses than planned in the enlisted and officer populations. To 
mitigate this over-execution, we continue to enforce current policies 
and adjust enlisted prior service accessions. Our goal is to finish 
fiscal year 2009 with a more stable, balanced inventory of Sailors that 
positions our Reserve force for continued Total Force support.
    Vice Admiral Ferguson and I are identifying legislative, financial, 
technological, and policy barriers impeding a Continuum of Service and 
developing management practices to quickly and efficiently transition 
Sailors between components to meet changing workforce demands. One of 
our key initiatives is to implement a process that transitions Sailors 
between the AC and RC within 72 hours. As we provide opportunities to 
transition seamlessly between active and reserve statuses, Navy's Total 
Force will capitalize on the spirit of volunteerism to encourage a 
Sailor's lifetime of service to the Nation.
    The Navy needs Total Force systems that will reduce administrative 
impediments to a Continuum of Service. The administrative 
inefficiencies created by multiple electronic pay and manpower systems 
create waste and unnecessary burdens on Sailors, and they also hinder 
Force readiness. A common AC/RC pay and personnel system is crucial to 
building seamless transitions and the success of our Sailor for Life 
and Continuum of Service initiatives. In the future, manpower 
transactions will ideally be accomplished with the click of a mouse, 
and records will be shared through a common data repository within all 
DOD enterprises. Navy fully supports this vision of an integrated set 
of processes to manage all pay and personnel needs for service members, 
concurrently providing necessary levels of personnel visibility to 
support joint warfighter requirements. Manpower management tools must 
facilitate audits of personnel costs, and support accurate, agile 
decision-making at all levels of DOD.
    One constraint to seamless transitions is the multiple RC funding 
categories. We are working closely with the Office of the Secretary of 
Defense to reduce the number of duty types, aiming to improve 
efficiency while retaining the flexibility Navy Reservists need to 
manage their careers and personal lives. Coupled with a well-developed, 
web-enabled personnel management system, this initiative will enable RC 
Sailors to rapidly surge to support validated requirements. The 
consolidation of most RC order writing to the Navy Reserve Order 
Writing System (NROWS) has been a significant evolution in Navy's 
effort to integrate its Total Force capabilities by aligning funding 
sources and accurately resourcing operational support accounts.
    The Honorable Secretary of the Navy Donald C. Winter recently 
approved the Navy's request to transition to a community management-
based promotion policy for the RC Officer community--both SELRES and 
FTS. As a result, the Navy has implemented a policy change to 
``decouple'' its Reserve Officer promotion zones from the AC Officer 
promotion zones, as was the current practice under the Running Mate 
System (RMS). In place since 1947, the RMS linked RC and AC promotion 
zones without consideration of RC community needs. Under the Navy Total 
Force construct, Officer Community Managers (OCMs) now have the 
flexibility to develop promotion plans and policies that meet 
individual community and component needs, especially for SELRES 
Officers.
    For Navy Reservists who look to further their professional 
development, the Navy has recently obtained Joint and Combined 
Warfighting class quotas for RC personnel (both FTS and SELRES) at the 
Joint Forces Staff College. These new class quotas complement the 
Advanced Joint Professional Military Education course that is already 
in place. The Navy is also in the early stages of establishing an RC 
Foreign Area Officer (FAO) program. RC FAOs will be part of a cadre of 
Officers aligned with the AC who have the skills required to manage and 
analyze politico-military activities overseas.

                               CONCLUSION

    Since 9/11, nearly 53,000 contingency activation requirements have 
been filled by SELRES personnel, along with an additional 4,300 
contingency requirements filled by FTS Sailors in support of on-going 
conflicts in Iraq, Afghanistan, and the Horn of Africa. On any given 
day, more than 18,000 Navy Reservists, or about 26 percent of the 
Force, are on some type of orders that provide support to global 
operation requirements of Fleet Commanders and COCOMs. Our more than 
67,000 Sailors serving in the RC are forward deployed in support of 
Coalition forces, at their supported commands around the world, or in 
strategic reserve, ready to surge 24/7 each day if more Navy Total 
Force requirements arise.
    I am proud to be a Navy Reservist, and I am humbled by the 
commitment of the men and women of our Navy Reserve. It is very 
rewarding and fulfilling to stand shoulder to shoulder with the Navy's 
AC as we meet our Nation's requirements. Although I readily admit my 
bias, there has never been a more meaningful time to be part of the 
Navy-Marine Corps team, and our Navy Reserve is clearly an integral 
part of the this hard-working, high-spirited and amazingly capable 
force.
    The Navy's ability to be present in support of any operation, in 
war and peace, without permanent infrastructure in the area of 
operations, is a key advantage that will become even more important in 
the future. Our Navy remains the preeminent maritime power, providing 
our Nation with a global naval expeditionary force that is committed to 
global security, while defending our homeland as well as our vital 
interests around the world. The Navy Reserve's flexibility, 
responsiveness, and ability to serve across a wide spectrum of 
operations clearly enhances the Navy Total Force, acts as a true force 
multiplier, and provides unique skill sets towards fulfilling Navy's 
requirements in an increasingly uncertain world.
    On behalf of the Sailors, civilians, and contract personnel of our 
Navy Reserve, we thank you for the continued support within Congress 
and your commitment to the Navy Reserve and our Navy's Total Force.

    Chairman Inouye. Now may I call upon General Bergman?

STATEMENT OF LIEUTENANT GENERAL JACK W. BERGMAN, 
            COMMANDER, MARINE FORCES RESERVE, UNITED 
            STATES MARINE CORPS
    General Bergman. Good morning, Chairman Inouye, Vice 
Chairman Cochran. First, thank you, to you and all the members 
of the subcommittee, for your continued support, your continued 
strong support because, without it, the Marine Corps Reserve's 
ability to sustain capability, warfighting capability, in the 
longest call-up of Reserve and Guard units in the history of 
the Nation, it has made a big difference. Your support has made 
the Marine Corps Reserve the ready and relevant fighting force 
that it is today.
    During the past several years, a basic underlying change 
has occurred. Instead of being a strategic reserve, we are now 
largely in the Marine Corps as an operational reserve. About 80 
percent of our drilling reservists are unit-based, and that 
makes up our operational reserve. As that unit-based force, we 
have implemented the force generation model. This model creates 
maximum predictability, predictability for everyone, 
predictability for the marines, for their families, for their 
employers, and for our active component as we work on the ever-
complex issues of force flow and who goes in what rotation, 
predictability for manning, equipping, training, all of which 
are tied to budgeting. The force generation model is now just 
beginning to allow us to plan for a 5-year well-budgeted, 
highly effective training/dwell time for our units.
    I would suggest to you that there is nothing more adaptable 
than a marine in the fight. Our force generation model has 
enabled us to transition to that highly adaptable operational 
reserve.
    However, because of recent Marine Corps focus on building 
the active component to 202,000, which we have successfully 
done and will be 2 years ahead of schedule here by the end of 
this fiscal year, some of the manpower planning and policies 
that were focused on the active component are just now 
beginning to be refocused to ensure that this transition from 
the strategic to the operational Reserve is effectively planned 
for and effectively implemented.
    I look forward to your questions.
    Chairman Inouye. Thank you very much.
    [The statement follows:]

        Prepared Statement of Lieutenant General Jack W. Bergman

    Chairman Inouye, Senator Cochran, and distinguished Members of the 
Subcommittee, it is my honor to report to you on the state of your 
Marine Corps Reserve.
    I am pleased to report that your Marine Corps Reserve continues to 
equip and train the best and brightest of our Nation's sons and 
daughters. In an environment where the Marine Corps continues to 
rapidly adapt to broad strategic conditions and wide-ranging threats, 
your Marine Corps Reserve--a primarily Operational Reserve--continues 
to meet all challenges and commitments. Whether in Iraq today, 
Afghanistan tomorrow or in subsequent campaigns, your Marine Corps 
Reserve continues to answer the clarion call to arms in defense of this 
great Nation.
    On behalf of all our Marines, sailors and their families, I would 
like to take this opportunity to thank the Subcommittee for its 
continuing support. The support of Congress and the American people 
reveal both a commitment to ensure the common defense and a genuine 
concern for the welfare of our Marines, sailors and their families.

                      TODAY'S MARINE CORPS RESERVE

    Your Marine Corps Reserve continues to be fully capable of war 
fighting excellence. As a vested partner in the Total Force Marine 
Corps, we faithfully continue our steadfast commitment to provide 
Reserve units and personnel who stand shoulder-to-shoulder with their 
Active Component counterparts in all contingencies, operations and 
exercises.
    As of March 3, 2009, 52,369 Reserve Marines and approximately 99 
percent of U.S. Marine Corps Reserve units were activated since 9/11--
98 percent of our activated units deployed to the U.S. Central Command 
area of responsibility.
    Today's Marine Corps Reserve is characterized by a strong resolve 
that enables us to sustain the current operational pace during the 
longest mobilization period in our Nation's history. However, to 
continue this unprecedented pace will require adequate funding. Without 
the total funding, currently provided through baseline and supplemental 
processes, we would be unable to maintain a truly Operational Reserve.
    The Force Generation Model, implemented in October 2006, continues 
to provide predictability of future activation and deployment schedules 
for our Marines and sailors. The predictability the Model provides has 
been well received by our Marines, sailors and employers. The Model 
provides our Reservists the opportunity to effectively plan their lives 
throughout their Reserve contractual agreement, enabling them to 
creatively strike a successful balance between family, civilian career 
and service to community, country and Corps. I am happy to report that 
we recently activated the fifth rotation based upon the Model to 
Operations Iraqi and Enduring Freedom (OIF and OEF) with 5,500 Marines 
being activated and deployed during fiscal year 2008. Additionally, we 
have activated approximately 2,500 more Marines during the timeframe 
November 2008 to February 2009.
    The Force Generation Model continues to assist Service and Joint 
Force planners in maintaining a consistent flow of fully capable Marine 
Corps Reserve units. This steady flow of Reserve units is essential in 
enabling our Active Component to reach a 1:2 dwell time. The Model, 
based on 1-year activation to 4-plus years in a non-activated status, 
continues to be both supportable and sustainable. Predictable 
activation dates permit unit commanders to focus training on core 
mission capabilities early in the dwell period; and then train to 
specific OIF and OEF mission tasks once the unit is within 12 to 18 
months of activation. Additionally, the amount of cross-leveling has 
been significantly reduced. With each subsequent rotation, the 
requirement to cross-level continues to decrease. For example, the 
upcoming activation of the St. Louis, Missouri-based 3rd Battalion, 
24th Marine Regiment, will require minimal cross-leveling of enlisted 
personnel.
    We believe the full benefit of the Force Generation Model will 
begin to be realized once we have completed a full cycle of nine 
rotations and the Active Component reaches the authorized end strength 
of 202,000. A very important byproduct of the Force Generation Model 
will be our emerging ability to more accurately budget for training and 
equipment requirements during the 5 year dwell time.
    In addition to the 5,500 Marines activated and deployed during 
fiscal year 2008 in support of OIF and OEF, we deployed an additional 
3,300 Marines worldwide in support of joint and/or combined Theater 
Security Cooperation Exercises. In each of the past 3 years, between 
OIF, OEF, Theater Security Cooperation Exercises, and recently emerging 
security cooperation mobile training teams that conduct Phase-0 
operations, nearly one-third of our force has deployed outside the 
continental United States both in an activated and non-activated 
status.
    During this past year, more than 3,300 Marines from Fourth Marine 
Division have served in Iraq. Included are two infantry battalions, as 
well as armor, reconnaissance, combat engineer, military police, and 
truck units. Of particular note, the El Paso, Texas-based Battery D, 
2nd Battalion, 14th Marine Regiment, became the second Marine Corps 
High Mobility Artillery Rocket System (HIMARS) unit to be deployed. 
Another highlight was the success of New Orleans, Louisiana-based 3rd 
Battalion, 23rd Marine Regiment, in al-Anbar Province. This infantry 
battalion, with companies in Louisiana and Texas, played a key role in 
the redevelopment of the Haditha K3 Oil Refinery and transport of crude 
oil in al-Anbar Province. Their efforts, spurred primarily by several 
of the battalion's Marines who are consultants and executives within 
the U.S. oil and energy industry, resulted in the successful rail 
transport of crude oil into Anbar and restart of the oil refinery by 
July 2008, several years after the refinery and rail system had ceased 
to operate. Also of note was the ability and flexibility of the 
Division units to train for and conduct ``in lieu of'' or provisional 
missions due to changing operational requirements in OIF/OEF.
    Fourth Marine Division also deployed two of its regimental 
headquarters in the role of Marine Air Ground Task Forces (MAGTF) 
command elements. Kansas City, Missouri-based 24th Marine Regiment 
deployed as a Special Purpose MAGTF to U.S. Southern Command to support 
the new Partnership of the Americas series of small combined Theater 
Security Cooperation Exercises in South America. The San Bruno, 
California-based 23rd Marine Regiment led a combined joint regimental 
headquarters in support of exercise African Lion in Morocco as well as 
a combined joint battalion headquarters in support of Exercise Shared 
Accord in Ghana. These three exercises alone incorporated the 
deployment of more than 1,100 Marines from across Marine Forces 
Reserve. Fourth Marine Division also conducted training to assist our 
allies in foreign militaries from Korea to the Republic of Georgia. 
Calendar Year 2009 will be a busy year for the Division as they conduct 
training in Benin, Brunei, Ukraine, the Dominican Republic, the 
Bahamas, Brazil, Guatemala and Guyana. Returning to exercises in 
Morocco and Australia and supporting the 50th anniversary of UNITAS 
Gold with a command element from 24th Marine Regiment will be key 
engagements. From May through August 2009, an activated Reserve 
reinforced rifle company from the 24th Marine Regiment and a composite 
platoon of Marines from the 4th Amphibious Armored Battalion, in 
partnership with the U.S. Navy, will conduct training and exercises in 
Brunei, Singapore, Malaysia, Indonesia, Thailand and the Philippines 
during exercise Cooperation and Readiness Afloat Training (CARAT).
    Fourth Marine Aircraft Wing has continued to provide essential 
exercise support and pre-deployment training normally provided by 
Active Component squadrons. The Marine Corps' premier pre-deployment 
training exercise, Mojave Viper, received a majority of air support 
from our fixed wing and helicopter squadrons. Fourth Marine Aircraft 
Wing deployed Mount Clemens, Michigan-based, Marine Wing Support 
Squadron 471 as a Provisional Security Company to Camp Lemonier, 
Djibouti, in the Horn of Africa, provided a truck platoon to support 
combat operations for the Active Component's 3rd Battalion, 7th Marine 
Regiment in Iraq, and sourced multiple Marine Air Control detachments 
from Chicago, Illinois-based Marine Air Control Group 48. Marine 
Transport Squadron Belle Chasse (Louisiana) Detachment is currently in 
theater with the UC-35 Citation Encore aircraft providing critical 
Operational Support Airlift capability to U.S. Central Command.
    Additionally, Fourth Marine Aircraft Wing has participated in 
multiple combined, bilateral and joint exercises in Africa, Asia, 
Europe, and South America. Humanitarian Assistance construction 
projects were conducted in Trinidad-Tobago, Peru, and Honduras. 
Participation in these exercises includes support of U.S. and Marine 
Corps forces and facilitates training and interoperability with our 
allies. For example, African Lion participation enabled the Moroccan 
Air Force to develop better close air support and aerial refueling 
techniques.
    Fourth Marine Aircraft Wing continues to be an integral partner in 
the Marine Corps Aviation Transition Strategy. In the near term, 
transition from legacy to leap-ahead aviation capabilities (i.e. MV-22, 
UH-1Y, AH-1Z and JSF) in the Active Component required a transfer of 
certain Reserve Component aviation manpower, airframes and support 
structure to the Active Component Marine Corps. As a result, two 
Reserve Fighter/Attack F/A-18 squadrons were placed in cadre status and 
a Light Attack UH-1N/AH-1W helicopter squadron, a Heavy Lift CH-53E 
helicopter squadron, an Aviation Logistics Squadron and two of four 
Marine Aircraft Group Headquarters were decommissioned. A second Heavy 
Lift CH-53E helicopter squadron has been reduced in size. As the Active 
Component transitions to the new airframes, Fourth Marine Aircraft Wing 
has assumed the Fleet Replacement Squadron role for the legacy model 
KC-130s, UH-1s, and AH-1s. Additionally, as part of the Aviation 
Transition Strategy, two Tactical Air Command Center Augmentation Units 
were commissioned. To complete the Aviation Transition Plan, beginning 
in 2014, Fourth Marine Aircraft Wing will begin transitioning to the 
new airframes and Command and Control (C\2\) capabilities.
    Fourth Marine Logistics Group continues to provide fully capable 
units, detachments and individuals prepared to deliver sustained 
tactical logistics support. In the past year, Fourth Marine Logistics 
Group provided approximately 1,300 Marines and sailors from across the 
spectrum of combat service support to augment the Active Component's 
1st and 2nd Marine Logistics Groups engaged in OIF. In addition to the 
requirements of the Force Generation Model, Fourth Marine Logistics 
Group provided additional support to OIF by sourcing 265 Marines to 
staff the al-Taqauddam Security Force and to OEF by sourcing 279 
Marines from the Portland, Oregon-based 6th Engineer Support Battalion 
to staff Provisional Security Company 8 at Camp Lemonier, Djibouti, in 
the Horn of Africa.
    Increased augmentation in support of OIF/OEF will include a 
complete Combat Logistics Battalion (CLB-46) formed with more than 800 
Marines and sailors from across Fourth Marine Logistics Group's nine 
battalions. Combat Logistics Battalion 46 will provide tactical level 
logistics support to a Marine Regimental Combat Team in al-Anbar 
Province, Iraq. This will be the first CLB formed and deployed by 
Fourth Marine Logistics Group.
    Continuing to aggressively support overseas joint and combined 
exercises, training, and other events in support of the Combatant 
Commanders' Phase-0 operations, Fourth Marine Logistics Group 
participated in 29 overseas events spread across all of the Unified 
Commands, ranging in size from exercises involving 75 Marines down to 
3-person Traveling Country Teams that conducted engagement with foreign 
militaries. Olympic Thrust in June 2008 began the preparation of Fourth 
Marine Logistics Group's battalions' staffs to form the nucleus of a 
CLB headquarters. Exercise Javelin Thrust (June 2009) will be a 
capstone preparation event for CLB-46.
    Fourth Marine Logistics Group has taken the lead on coordinating 
Marine Forces Reserve's participation in Innovative Readiness Training 
(IRT) program events. The purpose of the IRT program is to provide 
civic assistance projects in the United States, possessions and 
territories while simultaneously improving military readiness. Fourth 
Marine Logistics Group has initiated and conducted IRT planning during 
the last year and will execute two events in Alaska and one event in 
the Marianas Islands during 2009. These events will focus on 
infrastructure improvements and medical/dental assistance projects.
    In addition to ground, aviation, and logistic elements, Marine 
Forces Reserve has provided civil affairs capabilities since the start 
of OIF. Air-Naval Gunfire Liaison Detachments from Marine Forces 
Reserve have augmented the supported Marine Air Ground Task Forces and 
adjacent commands with air/ground fires liaison elements. Marine Forces 
Reserve also continues to provide intelligence augmentation, to include 
Human Exploitation Teams, Sensor Employment Teams, and Intelligence 
Production Teams.
    The trend in recent years toward increased participation of Marines 
in the Individual Ready Reserve (IRR) continued in fiscal year 2008. 
During the fiscal year, the Marine Corps Mobilization Command (MOBCOM) 
mustered more than 1,500 Marines from the IRR to screen and prepare 
them for activation. More than 1,500 sets of mobilization orders were 
issued with a total of 1,002 IRR Marines reporting for activation 
during fiscal year 2008. MOBCOM also processed more than 8,100 sets of 
shorter duration active duty orders for IRR Marines during fiscal year 
2008. We have expanded our family programs to reach out to the families 
of our deployed IRR Marines, using local Peacetime/Wartime Support 
Teams as well as MOBCOM assets. With the advent of Yellow Ribbon 
Legislation, we continue to develop programs to better support our 
deploying and returning Marines and their families.
    MOBCOM modified its IRR muster program during 2008, from large 
scale metropolitan musters to a combination of large scale musters and 
smaller, more personalized musters at Reserve sites. We completed the 
fiscal year screening of approximately 11,000 of the 55,000 Marines in 
our IRR population. Our screening effectiveness continues to rise as we 
continue to develop better communication methods with our IRR 
population. For example, MOBCOM contacted and engaged the IRR Marines 
through email, letter correspondence and telephone calls. Higher 
quality communications keeps our Marines better informed and prolongs 
their connection with each other and our Corps. We believe that these 
longer-term connections will be critical as we truly seek to create the 
Continuum of Service necessary to support a sustainable Operational 
Reserve.
    The Marine Corps Reserve's continuing augmentation and 
reinforcement of the Active Component is not without cost. Continuing 
activations and high Reserve operational tempo highlight personnel 
challenges in select military occupational specialties and significant 
strain on Reserve equipment.

                               PERSONNEL

    The Selected Marine Corps Reserve is comprised of Reserve unit 
Marines, Active Reserve Marines, Individual Mobilization Augmentees, 
and Reserve Marines in the training pipeline, which when added 
together, form the inventory of the end strength in the Selected Marine 
Corps Reserve.
End Strength
    Although we continue to benefit from strong volunteerism of our 
Reserve Marines, a degradation in our ability to achieve authorized end 
strength has occurred. Fiscal years 2002 to 2005 had percentages of 
authorized end strength above 100 percent and fiscal year 2006 
percentage of authorized end strength at 99.71 percent. Fiscal years 
2007 and 2008 percentages of authorized end strength were at 97.36 and 
94.76 percent--shortfalls of 1,044 and 2,077 Marines respectively. This 
resulted in the only fiscal years since 9/11 that the Selected Marine 
Corps Reserve fell below the Title 10 allowable 3 percent variance from 
authorization.
    As previously stated in my testimonies before the House and Senate 
Appropriations Committees' Subcommittees on Defense during 2008, we 
anticipated an adverse affect on meeting an acceptable percentage of 
authorized Marine Corps Selected Reserve end strength as greater 
numbers of Reserve Component Marines volunteered for full-time active 
duty due to the Marine Corps' accelerated build to a 202,000 Active 
Component Marine Corps.
    During the past fiscal year, we accepted the short-term risk in our 
ability to obtain our Selected Marine Corps Reserve Component end 
strength of 39,600 as the Reserve accession plans were adjusted and our 
experienced and combat tested Reserve Marines were encouraged to 
transition back to active duty to support the build effort, and they 
responded in force: From 2007 to present, approximately 1,946 Reserve 
Marines returned to, or are awaiting return to, active duty.
    The fact is that the Active Component Marine Corps will continue to 
rely heavily upon augmentation and reinforcement provided by our 
Reserve Marines. I firmly believe our authorized end strength of 39,600 
is still highly relevant and appropriate, and will consequently drive 
recruiting and retention. This number provides us with the Marines we 
require to support the Force and to achieve our goal of a 1:5 
deployment-to-dwell ratio in the Selected Marine Corps Reserve.
    Additionally, it is worth noting, the Marine Corps is on pace to 
reach an active duty end strength of 202,000 by the end of fiscal year 
2009, which will enable the Marine Corps to refocus the Reserve 
recruiting and retention efforts to achieve the expected percentage of 
authorized Selected Marine Corps Reserve Component end strength. The 
bonuses and incentives for recruiting and retention provided by the 
Congress are essential tools for helping us accomplish this goal and I 
thank you for your continued support.
Recruiting
    The Marine Corps is unique in that all recruiting efforts (officer, 
enlisted, regular, Reserve, and prior-service) fall under the direction 
of the Marine Corps Recruiting Command. Operationally, this provides 
the Marine Corps with tremendous flexibility and unity of command in 
order to annually meet Total Force Marine Corps objectives.
    Like the Active Component, Marine Corps Reserve units primarily 
rely upon a first term enlisted force. Currently, the Marine Corps 
Reserve continues to recruit and retain quality men and women willing 
to manage commitments to their families, their communities, their 
civilian careers, and their Corps. Despite high operational tempo, the 
morale and patriotic spirit of Reserve Marines, their families, and 
employers remains extraordinarily high.
    The Marine Corps Recruiting Command achieved 100 percent of its 
recruiting goal for non-prior service recruiting (5,287) and exceeded 
its goal for enlisted prior service recruiting (2,672) during fiscal 
year 2007; and achieved 100 percent of its recruiting goal for non-
prior service recruiting (4,235) and prior service recruiting (4,501) 
in fiscal year 2008. As of February 1, 2009, 1,756 non-prior service 
and 1,227 enlisted prior service Marines have been accessed, which 
reflects 48 percent of the annual enlisted recruiting mission for the 
Selected Marine Corps Reserve. We fully expect to meet our Selected 
Marine Corps Reserve recruiting goals again this year.
    An initiative implemented during June 2006 at Marine Forces Reserve 
to enhance recruiting efforts of prior service Marines was the Selected 
Marine Corps Reserve Affiliation Involuntary Activation Deferment 
policy. Realizing that deployments take a toll on Active Component 
Marines, causing some to transition from active duty because of high 
personnel tempo, we continue to offer this program. This program allows 
a Marine who has recently deployed an option for a 2-year deferment 
from involuntary activation if they join a Selected Marine Corps 
Reserve unit after transitioning from active duty. The intent of the 2-
year involuntary deferment is to allow transitioning Marines the 
opportunity to participate in the Selected Marine Corps Reserve without 
sacrificing the ability to build a new civilian career.
    Junior officer recruiting and consequently meeting our Reserve 
company grade requirement remains the most challenging area. 
Historically, the Active Component Marine Corps has been the source of 
company grade officers to the Selected Marine Corps Reserve, due to 
initial active duty contractual requirements of all Reserve-
commissioned officers. There are, however, three programs in place now 
that enable Reserve officer accessions without the typical 3 to 4-year 
active duty obligation: the Reserve Enlisted Commissioning Program 
(RECP), the Meritorious Commissioning Program--Reserve (MCP-R) and the 
Officer Candidate Course--Reserve (OCC-R).
    These programs strive to increase the number and quality of company 
grade officers within deploying Reserve units while addressing our 
overall shortage of junior officers in our Reserve units. The three 
programs combined to access 108 Reserve officers during fiscal years 
2007 and 2008, and are an essential tool to help mitigate company grade 
officer shortages in the Selected Marine Corps Reserve.
    Eligibility for the RECP was expanded to qualified Active Duty 
enlisted Marines. The MCP-R was established for qualified enlisted 
Marines, Reserve and Active, who possess an Associates Degree or 
equivalent number of semester hours. The third program, the OCC-R, has 
proven to be the most successful as 93 candidates have been 
commissioned second lieutenants in the Marine Corps Reserve during 
fiscals years 2007 and 2008. We anticipate commissioning between 50 and 
75 more second lieutenants through the OCC-R this fiscal year.
    The OCC-R focuses on ground-related billets, with an emphasis on 
ground combat and combat service support within Reserve units that are 
scheduled for mobilization. The priority to recruit candidates is tied 
to the Marine Forces Reserve Force Generation Model. Refinement of the 
OCC-R program to target geographic company grade officer shortfalls is 
a logical next step.
Retention
    All subordinate commanders and senior enlisted leaders at each 
echelon of command are required to retain quality Marines. On a monthly 
basis, these leaders identify Marines who either have to re-enlist or 
extend. Identified Marines are counseled concerning the opportunity for 
their retention in the Selected Marine Corps Reserve.
    Enlisted retention trends remain a concern and are being monitored 
very closely, but were obviously affected by the Active Component 
202,000 build. The good news is that the Active Component Marine Corps 
is no longer making a concerted effort to draw personnel from the 
Selected Marine Corps Reserve to active duty.
    For fiscal year 2008, Reserve officer retention remained at the 
same level as during the previous fiscal year, which was above historic 
levels.
    We continue to offer retention incentives for enlisted Marines in 
the Selected Marine Corps Reserve, to include the maximum allowable 
$15,000 Selected Marine Corps Reserve Affiliation Bonus for an initial 
3-year commitment. We also offer a $10,000 Selected Marine Corps 
Reserve Officer Affiliation Bonus for those officers who affiliate with 
a Selected Marine Corps Reserve unit and agree to participate for 3 
years. I greatly appreciate the continuance of the increased 
reenlistment incentive, which was initially provided in the fiscal year 
2008 National Defense Authorization Act.
    These incentives are necessary tools to help us retain quality 
Marines and consequently assist us in achieving an acceptable 
percentage of authorized Selected Reserve end strength.
    I read with interest the Memorandum of July 24, 2008, by Secretary 
Gates concerning the recommendations of the Commission on the National 
Guard and Reserves. I am pleased to see the strong emphasis on study of 
the various recommendations that pertain to the Continuum of Service 
personnel management construct. As the Continuum of Service concept is 
refined, it should facilitate the affiliation of prior service Marines 
into the Selected Marine Corps Reserve as well as retain those good 
Marines already serving.

                               EQUIPMENT

    The Marine Corps Reserve, like the Active Component, has two 
primary equipping priorities: first--equipping individual deploying 
Marines and sailors, and second--equipping our units to conduct home 
station training. We will continue to provide every deploying Marine 
and sailor with the latest generation of individual combat and 
protective equipment. Our unit equipping efforts include the full 
complement of equipment to support training efforts across the MAGTF. 
This complement includes essential communications; crew-served weapon 
systems such as Light Armored Vehicles (LAVs), Assault Amphibian 
Vehicles (AAVs), Tanks, and Artillery; ground mobility; and ground 
support equipment, which requires continued adequate funding of our 
Operations and Maintenance accounts. Your continued support in this 
area has enabled us to adequately sustain home station training and 
pre-deployment operations.
    As with all we do, our focus will continue to be on the individual 
Marine and sailor. Ongoing efforts to equip and train this most valued 
resource have resulted in obtaining the latest generation individual 
combat and protective equipment: M16A4 service rifles, M4 carbines, 
Rifle Combat Optic scopes, improved helmet pad suspension systems, 
enhanced Small Arms Protective Insert plates, Modular Tactical Vests, 
and the latest generation AN/PVS-14 Night Vision Devices, to name a 
few. Every member of Marine Forces Reserve has deployed fully equipped 
with the most current authorized Individual Combat Clothing and 
Equipment to include Personal Protective Equipment.
    Marine Forces Reserve's unit equipping priority is to obtain the 
principal end items necessary to establish or replenish the appropriate 
inventory of equipment to the level dictated by our Training Allowance 
(TA). Training Allowance is the amount of equipment needed by each unit 
to conduct home station training. Our Reserve units should train with 
the equipment necessary for Marine Forces Reserve to effectively 
augment and reinforce the Active Component.
    Currently, our equipping focus is on mitigating the short-term 
impact of reduced supply of certain principal end items, e.g.; seven 
LAV variants, Digital Terrain Analysis Mapping Systems, and the Theater 
Provide Equipment Sensors. We employ adaptive resourcing and training 
management approaches to ensure our Reserve units can adequately train. 
The inherent latency in procurement timelines and competing priorities 
for resources continue to challenge the training and equipping of our 
Operational Reserve. Since the Marine Corps procures and fields 
equipment as a Total Force, equipment modernization efforts of the 
Marine Corps Reserve are synchronized with the efforts of the Active 
Component. The approved $37.3 million fiscal year 2009 NGREA will 
provide Marine Forces Reserve the funds to procure much needed Tactical 
Laptop Computer Packages (Ruggedized Laptops and General Purpose 
Laptops), Supporting Arms upgrade to Digital Virtual Training 
Environment (DVTE), Bright Star FLIR, Light Armored Vehicle 25 A2 
Variant (LAV-25A2), and a Tactical Remote Sensor Suite (TRSS).
    To maintain an inventory of current equipment necessary to conduct 
home station training, Marine Forces Reserves utilizes several 
resources and programs. Routine preventive and corrective maintenance 
are still performed throughout the country by our Marines. However, 
ground equipment maintenance efforts have expanded over the past few 
years, leveraging contracted services and depot-level capabilities. 
Marine Corps Logistics Command (LOGCOM), through mobile maintenance 
teams, provides preventive and corrective maintenance support to our 
Reserve units. Marine Forces Reserve is actively involved in the Marine 
Corps Depot Level Maintenance Program (DLMP) to support the continued 
operation of principal end items. Marine Corps Logistics Command 
continues to uniquely provide Marine Forces Reserve a ``Repair and 
Return'' (R&R) program which enables us to request additional 
maintenance support when requirements exceed the Marine Forces Reserve 
maintenance capacity.
    Another key maintenance program utilized by Marine Forces Reserve 
is the Corrosion Prevention and Control (CPAC) program which extends 
the useful life of all Marine Corps tactical ground and ground support 
equipment. This program reduces significant maintenance requirements 
and associated costs due to corrosion through the application of 
corrosion-resistant compounds, establishing environmentally-safe wash-
down racks, and providing climate controlled storage. Additionally, the 
program identifies, classifies, and effects repair, or recommends 
replacement of equipment that has already succumbed to the elements.
    Marine Corps Reserve ground equipment readiness rates are currently 
above 90 percent (Maintenance--97 percent and Supply--92 percent as of 
March 9, 2009), based on our Reserve equipment Training Allowance. The 
Marine Corps Reserve equipment investment overseas MAGTF operations 
since 2004 is approximately 5 percent of our overall equipment and 
includes various communications, motor transport, engineer, and 
ordnance equipment, as well as several modern weapons systems such as 
the new HIMARS artillery system and the latest generation Light Armored 
Vehicle. This investment has presented challenges for our home station 
training requirements yet greatly adds to the war fighting capability 
of the Marine Corps. Deliberate planning at the Service level is 
currently underway to reset the Total Force, to include resourcing the 
Reserve equipment. This resourcing will enable the Marine Corps Reserve 
to remain ready, relevant, and responsive to the demands of our Corps.
    Marine Corps Reserve equipment requirements are captured as part of 
Marine Corps Total Force submissions. Priority Reserve equipment 
requirements that cannot be timely met with these vehicles are 
identified in the Commandant's Unfunded Programs List and/or my NGREA 
Request.
    We especially appreciate Congress' support of the Marine Corps 
Reserve through NGREA. It would be impossible for me to overstate the 
importance of NGREA and in particular, the consistency of these 
appropriations. Since 2002, NGREA has provided more than $240 million 
for equipment procurements. The stability of NGREA funding has 
significantly increased our ability to forecast meeting priority 
equipment requirements. The NGREA provides immediate flexibility, 
allowing procurement of items necessary to meet specific combat 
capability, training, and support requirements.
    In the last 3 years, we have been able to close the gap on combat 
equipment requirements necessary to effectively train our Marines and 
sailors. Examples of high-priority combat equipment purchases we have 
made or will make through fiscal years 2007, 2008 and 2009 NGREA 
funding are: the LITENING II Targeting Pod; the AN/ARC-210 (V) Multi-
Modal Radio system for our KC-130 aircraft; the UC-12+ aircraft; 
multiple C\2\ systems component; and as previously stated, the BRITE 
STAR FLIR; the Tactical Remote Sensor System; and the LAV-25A2. Through 
consistent NGREA funding, we have been able to completely eliminate 
some deficiencies.
    Additionally, with NGREA, we have been able to establish a robust 
ground combat modeling and simulation program, our NGREA-procured 
Virtual Combat Convoy Trainers (VCCTs), Combat Vehicle Training 
Simulators (CVTSs), Medium Tactical Vehicle Replacement--Training 
Systems (MTVR-TS), HMMWV Egress Trainer, and Digital Virtual Training 
Environments (DVTEs) enable us to overcome many resource and time-
related challenges while increasing the individual and unit's combat 
readiness. Our fiscal year 2009 NGREA plan includes Supporting Arms-
Helmet Mounted Displays (SA-HMDs) for our DVTEs, giving our Marines the 
ability to enhance Forward Air Control and Indirect Fire Control 
proficiency without leaving the Reserve Training Center. It is accurate 
to say that we could not have provided some critical capabilities 
without these NGREA funds.

                                TRAINING

    The collective lessons wrought from our unit and individual combat 
experiences, Theater Security Cooperation Exercises and other Active 
Component operational tempo relief deployments have helped improve 
nearly all facets of our current Reserve Component training. In this 
regard, one of the most exciting areas where we are continuing to 
transform the depth and scope of our training remains the cutting-edge 
arena of Modeling and Simulations Technology.
    Rapid advancement in modeling and simulation software, hardware and 
network technologies are providing new and increasingly realistic 
training capabilities. Marine Forces Reserve is training with and 
continuing to field several complex digital video-based training 
systems which literally immerse our Reserve Component Marines into 
``virtual'' combat environments, complete with the sights, sounds and 
chaos of today's battlefield environment in any climate or place, day 
or night, spanning the full continuum of warfare from high-intensity 
conventional warfare to low-intensity urban conflict.
    One new capability that we are fielding to support our Reserve 
Marines is the Indoor Simulated Marksmanship Trainer-XP. This 
interactive audio/video weapons simulator provides enhanced 
marksmanship, weapons employment and tactical decision making training 
for a variety of small arms. The system consists of infantry weapons 
instrumented with lasers that enable Marines to simulate engaging 
multiple target types.
    Another system addressed in lasts year's testimony that continues 
to prove invaluable in the pre-deployment training of our tactical 
drivers is the Virtual Combat Convoy Trainer-Reconfigurable Vehicle 
System. This is an advanced, full-scale vehicle simulator that trains 
Marines in both basic and advanced combat convoy skills using variable 
terrain and roads in a variety of weather, visibility and vehicle 
conditions. The simulator is a mobile, trailer-configured platform that 
utilizes a HMMWV mock-up, small arms, crew-served weapons, 360-degree 
visual display with after-action review/instant replay capability. 
Marine Forces Reserve was the lead agency for initial procurement, 
training and evaluation of this revolutionary training system, which is 
now being used throughout the Marine Corps. We are now preparing to 
accept the fourth generation of this invaluable training system at Camp 
Wilson aboard the Marine Air Ground Combat Center in Twenty Nine Palms, 
California. Upon installation, student throughput capability for combat 
convoy training will double.
    It is important to recognize the key role that Congress has played 
in the fielding of all four generations of the VCCT. Procurement of the 
VCCT resulted directly from NGREA. Of all the training packages our 
deploying units complete, returning combat veterans have consistently 
praised the invaluable benefits of having had the opportunity to train 
in tactics, techniques and procedures using this advanced simulation 
system.
    Beginning this summer, Marine Forces Reserve will field the newly 
developed Deployable Virtual Training Environment (DVTE). This 
advanced, first-person, immersive, simulation-based training system, 
made up of 16 laptops and peripherals packaged in ruggedized deployable 
cases, is capable of emulating and simulating a wide variety of weapons 
systems and generating hi-fidelity, relevant terrain databases. The 
DVTE also provides small-unit echelons with the opportunity to 
continuously review and rehearse Command and Control procedures and 
battlefield concepts in a virtual environment. The system consists of 
two components, the Combined Arms Network, which provides integrated 
first person combat skills, and Tactical Decision Simulations, which 
provides individual, fire team, squad and platoon-level training 
associated with patrolling, ambushes and convoy operations. Additional 
features include combat engineer training, small-unit tactics training, 
tactical foreign language training and event-driven, ethics-based, 
decision-making training.
    One of our newest and rapidly advancing training initiatives 
involves the collocation of a select number of the previously cited 
training systems aboard Camp Upshur at Marine Corps Base Quantico, 
Virginia. Our intent is to provide an advanced, unit-level training 
capability within easy access of the I-95 corridor. When fully 
established this summer, the Camp Upshur training capabilities will 
include eight mobile VCCT trailers, two mobile HMMWV egress trainers, a 
mobile multi-platform tactical vehicle operator simulation system, 
three Indoor Simulated Marksmanship Trainers that are networked for 
combined arms training, and 80 DVTE terminals. These resources, in 
combination with the billeting, training ranges and facilities 
available aboard MCB Quantico, will provide the opportunity for 
reinforced battalions to conduct training and force-on-force exercises 
using combinations of live, virtual and constructive training systems 
and resources. This initiative provides state-of-the-art training 
support to units while revitalizing long-established Camp Upshur into a 
cost effective, vital and dynamic training resource for Marine Forces 
Reserve and other agencies. In addition to facilitating training at 
Camp Upshur, the numerous mobile training systems will remain available 
for movement and redeployment anywhere in the lower 48 states in 
support of training Reserve Marines.
    All of these advanced training systems have been rapidly acquired 
and fielded with vital Supplemental and NGREA funding. These critical 
funding resources are not only providing a near-term training 
capability in support of combat deployments, but are also providing a 
solid foundation for the transformation of our training environment 
from legacy static training methods to more realistic virtual combat 
training environments designed to prepare our Marines and sailors to 
succeed on future battlefields.

                               FACILITIES

    Marine Forces Reserve is comprised of 185 locations in 48 states, 
the District of Columbia, and Puerto Rico. These facilities are 
comprised of 32 owned and 153 tenant locations. In contrast to Active 
Duty installations that are normally closed to the general public, our 
Reserve sites are openly located within civilian communities. This 
arrangement requires close partnering with state and local entities 
nationwide. Thus, the condition and appearance of our facilities may 
directly influence the American people's perception of the Marine Corps 
and the Armed Forces as well as possibly impacting our recruiting and 
retention efforts.
    Marine Forces Reserve Facilities Sustainment, Restoration, and 
Modernization (FSRM) program funding levels continue to address 
immediate maintenance requirements and longer-term improvements to our 
older facilities. Sustainment funding has allowed us to maintain our 
current level of facility readiness without further facility 
degradation. Your continued support for both the Military Construction 
Navy Reserve (MCNR) program and a strong FSRM program are essential to 
addressing the aging infrastructure of the Marine Corps Reserve. With 
more than 57 percent of our Reserve Centers being more than 30 years 
old and 44 percent being more than 50 years old, the continued need for 
support of both MCNR and FSRM cannot be overstated.
    The Base Realignment and Closure (BRAC) 2005 continues to move 
forward and the Marine Corps Reserve will begin relocating many Reserve 
units to new consolidated Reserve centers during fiscal year 2009. Like 
other BRAC Business Plans, the Marine Corps Reserve BRAC program is 
tightly linked to other service's business plans for our shared reserve 
centers. Of the 25 BRAC actions for the Marine Corps Reserve, 21 are in 
conjunction with Army and Navy military construction projects.
    In September 2008, the Department of the Navy and the State of 
Louisiana signed a lease for a new Federal City in New Orleans, which 
will provide a new headquarters compound for Marine Forces Reserve. The 
state of Louisiana is providing construction dollars for the new 
headquarters facility and saving the federal government more than $130 
million.
    Our Marine Forces Reserve Environmental Program promotes accepted 
stewardship principles as well as compliance with all regulatory 
requirements in support of training both on site and outside the fence 
line. We employ the Environmental Management System (EMS), which uses a 
systematic approach ensuring that environmental activities are well 
managed and continuously improving. Additionally, Marine Forces Reserve 
has initiated a nationwide program to reduce waste production and 
ensure proper disposal at our centers. We have also executed several 
major projects to protect the nation's waterways near our Reserve 
centers.

                            HEALTH SERVICES

    Military healthcare support (medical prevention and treatment) 
programs have grown exponentially over the past few years--fiscal year 
2008 being one of the most significant. A myriad of programs are now 
provided to our Marines, sailors, and their families during pre-
deployment, deployment and post deployment.
    Our Health Services priorities are: (1) maximize education and 
awareness of TRICARE support for Reservists; (2) attain DOD/DON 
Individual Medical Readiness (IMR) goals; and (3) ensure general 
awareness of all health service programs in support of our service 
members.
    TRICARE remains the foundation of our medical support programs, 
providing the full spectrum of medical, dental and behavioral health 
services. As a result of the 2009 Defense Authorization Act analysis of 
TRICARE Reserve Select costs, monthly premiums for TRICARE Reserve 
Select dropped by 42 percent for individual coverage and by 29 percent 
for family coverage on January 1, 2009. Reservists now pay $47.51 a 
month for single coverage, down from $81, while the cost for families 
is down from $253 to $180.17 a month. Reservists and their family 
members are eligible for different TRICARE benefits depending on their 
status: as a member of the Select Reserve, a Reservist may qualify for 
and purchase TRICARE Reserve Select; on military duty for 30 days or 
less a Reservist is covered under Line of Duty care; when activated he 
and his family are covered by TRICARE Prime; and when deactivated a 
Reservist is eligible for transitional health plan options.
    All deploying service members are now required to complete a 
Baseline Pre-Deployment Neuro-Cognitive Functional Assessment. The tool 
used to complete this assessment is called the Automated Neuro-
Psychological Assessment Metric (ANAM). Results from the ANAM will 
assist leaders and medical providers with evaluating service members 
who screen positive and require necessary medical treatment. The intent 
is that ANAM results and implementation of the Psychological Health 
Outreach Program will provide standardized guidance for providers who 
follow up on identified issues and concerns from results of the Post-
Deployment Health Assessments, to include development of protocols and 
creation and implementation of an information/benefits tracking system. 
Our Commanders and staff are coordinating with the Navy's Bureau of 
Medicine (BUMED) in order to ensure that deploying Marines and sailors 
are properly evaluated prior to deployment.
    Efforts to assess health post deployment have also increased 
significantly over the past year. In addition to completing a Post 
Deployment Health Assessment prior to returning to the United States, 
our Marines and sailors now complete a Post Deployment Health 
Reassessment (PDHRA) 3 to 6 months after returning from deployment. The 
PDHRA is crucial in identifying and addressing health concerns with 
specific emphasis on mental health issues which may have emerged since 
returning from deployment. Active tracking of this process ensures that 
we meet the post-deployment health care needs of our Marines and 
sailors.
    The Psychological Health Outreach Program, introduced by BUMED, is 
another specialty program which addresses post deployment behavioral 
health concerns. This program is designed to provide early 
identification and clinical assessment of our Reserve Marines and 
sailors who return from deployment at risk for not having stress-
related injuries identified and treated in an expeditious manner. This 
program, funded by supplemental Defense Health Program appropriations, 
provides outreach and educational activities to improve the overall 
psychological health of our Reservists and identifies long-term 
strategies to improve psychological health support services for the 
Reserve community. We are currently developing our concept and 
implementation strategy to best support the Force.
    Individual medical and dental readiness for our Marines and sailors 
remains a top priority. To improve current readiness of our Reservists, 
which is 64 percent and 73 percent as of March 1, 2009 respectively, we 
continue to utilize the Reserve Health Readiness Program (RHRP). This 
program funds medical and dental contracted specialists to provide 
health care services to units specifically to increase individual 
medical and dental readiness. During fiscal year 2008, this service 
provided more than 3,020 Preventive Health Assessments; 4,013 Dental 
examinations, 402 Dental Panoramic x-rays; 529 Blood Draws; 803 
Immunizations; and 3,149 PDHRAs for our Marines and sailors.
    The Armed Forces Health Longitudinal Technology Application 
(AHLTA), which provides electronic health records for the entire U.S. 
Armed Forces, is currently being rolled out to all Reserve Components 
to include Marine Forces Reserve. The transition to electronic medical 
records will enable optimal health services to our Marines and sailors 
with the end result being increased individual and unit medical 
readiness.

                            QUALITY OF LIFE

    We continue to aggressively institute new Family Readiness 
Programs, revitalize services, and proactively reach out to our 
Reservists and their families to ensure our programs and services meet 
the needs and expectations of our Marines and their families.
    As part of widespread Marine Corps reforms to enhance family 
support, we are placing full-time Family Readiness Officers (FROs), 
staffed by either civilians or Active Duty Marines, at the battalion/
squadron level and above to support the Commander's family readiness 
mission. Modern communication technologies, procedures and processes 
are being expanded to better inform and empower family members 
including spouses, children and parents of single Marines.
    The Marine Forces Reserve Lifelong Learning Program continues to 
provide educational information to service members, families, retirees, 
and civilian employees. More than 1,200 Marine Forces Reserve personnel 
(Active and Reserve) enjoyed the benefit of Tuition Assistance, 
utilizing more than $2.4 million that funded more than 4,000 courses 
during fiscal year 2008. Tuition Assistance greatly eases the financial 
burden of education for our service members while enabling them to 
maintain progress toward their education goals.
    The Marine Corps' partnership with the Boys and Girls Clubs of 
America (BGCA) and the National Association for Child Care Resources 
and Referral Agencies (NACCRRA) continues to provide a great resource 
for service members and their families in selecting child care, before, 
during, and after a deployment in support of overseas contingency 
operations. The Boys and Girls Clubs of America provide outstanding 
programs for our Reserve Marines' children between the ages of 6 and 18 
after school and on the weekends. Under our agreement with BGCA, 
Reserve families can participate in more than 40 programs at no cost. 
With NACCRRA, we help families of our Reservists locate affordable 
child care that is comparable to high-quality, on-base, military-
operated programs. The NACCRRA provides child care subsidies at quality 
child care providers for our Reservists who are deployed in support of 
overseas contingency operations and for those Active Duty Marines who 
are stationed in regions that are geographically separated from 
military installations. We also partnered with the Early Head Start 
National Resource Center Zero to Three to expand services for family 
members of our Reservists who reside in isolated and geographically-
separated areas. Additionally, our Marine families (on active duty 30 
or more days) enrolled in the Exceptional Family Member Program are 
offered up to 40 hours of free respite care per month for each 
exceptional family member. This allows our families the comfort that 
their family member will be taken care of when they are in need of 
assistance.
    We fully recognize the strategic role our families have in mission 
readiness, particularly mobilization preparedness. We prepare our 
families for day-to-day military life and the deployment cycle (Pre-
Deployment, Deployment, Post-Deployment, and Follow-On) by providing 
educational opportunities at unit Family Days, Pre-Deployment Briefs, 
Return and Reunion Briefs, and Post-Deployment Briefs. This is 
accomplished through unit level Family Readiness programs that are the 
responsibility of the Commanding Officer managed by the full-time, non-
deploying FRO and supported by trained volunteers and Force level 
programs such as Lifestyle Insights, Networking, Knowledge, and Skills 
(L.I.N.K.S.).
    Every Marine Corps Reserve unit throughout the country has a Family 
Readiness program that serves as the link between the command and 
family members--providing official communication, information, and 
referrals. The FRO proactively educates families on the military 
lifestyle and benefits, provides answers for individual questions and 
areas of concerns, and enhances the sense of community and camaraderie 
within the unit. The L.I.N.K.S. program is a training and mentoring 
program designed by Marine spouses to help new spouses thrive in the 
military lifestyle and adapt to challenges--including those brought 
about by deployments. This program has recently been expanded to 
support the extended family of a Marine--children and parents. Online 
and CD-ROM versions of L.I.N.K.S. make this valuable tool more readily 
accessible to families of Reserve Marines who are not located near 
Marine Corps installations.
    To better prepare our Marines and their families for activation, 
Marine Forces Reserve is fully engaged with OSD to implement the Yellow 
Ribbon Reintegration Program, much of which we have had in place for 
quite some time. We continue to implement an interactive approach that 
provides numerous resources and services throughout the deployment 
cycle. Available resources include, but are not limited to, family-
related publications, online volunteer training opportunities, and a 
family readiness/mobilization support toll free number. Family 
readiness educational materials have been updated to reflect the 
current deployment environment. Specifically, deployment guide 
templates that are easily adapted to be unit-specific were distributed 
to unit commanders and family readiness personnel, as well as Marine 
Corps families, and are currently available on our Web site. Services 
such as pastoral care, Military OneSource, and various mental health 
services are readily available to our Reserve Marines' families. Also, 
through the DOD contract with the Armed Services YMCA, the families of 
our deployed Reserve Marines are enjoying complimentary fitness 
memberships at participating YMCA's throughout the United States and 
Puerto Rico. Our Active Duty Marines and their families located at 
Independent Duty Stations have the ability to access these services as 
well.
    Managed Health Network (MHN) is an OSD-contracted support resource 
that provides surge augmentation counselors for our base counseling 
centers and primary support at sites around the country to address 
catastrophic requirements. This unique program is designed to bring 
counselors on-site at Reserve Training Centers to support all phases of 
the deployment cycle. Marine Forces Reserve has incorporated this 
resource into post-demobilization drill periods, Family Days, Pre-
Deployment Briefs, and Return and Reunion Briefs. Follow-up services 
are scheduled after Marines return from combat at various intervals to 
facilitate on-site individual and group counseling. Additionally, we 
are utilizing these counselors to conduct post-demobilization 
telephonic contact with IRR Marines in order to assess their needs and 
connect them to services.
    The Peacetime/Wartime Support Team and the support structure within 
the Inspector-Instructor staffs at our Reserve sites provides families 
of activated and deployed Marines with assistance in developing 
proactive, prevention-oriented steps such as family care plans, powers 
of attorney, family financial planning, and enrollment in the Dependent 
Eligibility and Enrollment Reporting System. During their homecoming, 
our Marines who have deployed consistently cite the positive importance 
of family support programs.
    To strengthen family support programs, we will continue to enhance, 
market, and sustain outreach capabilities. The current OSD-level 
oversight, sponsorship, and funding of family support programs properly 
corresponds to current requirements. We are particularly supportive of 
Military OneSource, which provides our Reservists and their families 
with an around-the-clock information and referral service via toll-free 
telephone and Internet access on a variety of subjects such as 
parenting, childcare, education, finances, legal issues, elder care, 
health, wellness, deployment, crisis support, and relocation.
    Marines and their families, who sacrifice so much for our Nation's 
defense, should not be asked to sacrifice quality of life. We will 
continue to be a forceful advocate for these programs and services. We 
will continue to evolve and adapt to the changing needs and 
environments in order to ensure that quality support programs and 
services are provided to our Marines and their families.

            CASUALTY ASSISTANCE AND MILITARY FUNERAL HONORS

    One of the most significant responsibilities of the Reserve site 
support staff is that of casualty assistance. It is at the darkest hour 
for our Marine families that our support is most needed. By virtue of 
our dispersed composition, Marine Forces Reserve site support staffs 
are uniquely positioned to accomplish the vast majority of all Marine 
Corps casualty notifications and are trained to provide assistance to 
the family. Historically, Marine Forces Reserve personnel have been 
involved in approximately 90 percent of all notifications and follow-on 
assistance to the next of kin. There is no duty to our families that we 
treat with more importance, and the responsibilities of our Casualty 
Assistance Officers continue well beyond notification. We ensure that 
our Casualty Assistance Officers are adequately trained, equipped, and 
supported by all levels of command. Once a Casualty Assistance Officer 
is designated, he or she assists the family members in every possible 
way, from planning the return and final rest of their Marine to 
counseling them on benefits and entitlements to providing a strong 
shoulder to lean on when needed. The Casualty Assistance Officer is the 
family's central point of contact and support; available to serve as a 
representative or liaison with the media, funeral home, government 
agencies, or any other agency that may become involved.
    Additionally, Marine Forces Reserve units provide significant 
support for military funeral honors for our veterans. The active duty 
site support staff members, with augmentation from their Reserve 
Marines, performed more than 12,000 military funeral honors in 2008 (91 
percent of the Marine Corps total) and we anticipate supporting nearly 
13,000 during 2009. The authorization and funding to bring Reserve 
Marines on active duty to assist in the performance of military funeral 
honors has greatly assisted us at sites such as Bridgeton, Missouri, 
Chicago, and Fort Devens, Massachusetts, where we frequently perform 
more than 10 funerals each week. As with Casualty Assistance, we place 
enormous emphasis on providing military funeral honor support.

                               CONCLUSION

    The Marine Corps Reserve--your Operational Reserve--continues to 
shoulder the war fighting burden with our Active Component 
counterparts. Operations Enduring and Iraqi Freedom, as well as support 
to Combatant Commanders' Theater Support Cooperation Exercises, have 
required continuous activations of Selected Marine Corps Reserve 
forces. We will continue to focus upon the future challenges to the 
Total Force and corresponding requirements of modernization, training 
and personnel readiness to ensure that the Marine Corps Reserve remains 
on equal footing with our Active Component. Your consistent and 
steadfast support of our Marines, sailors and their families directly 
contributes to our ability to do so. Semper Fidelis!

    Chairman Inouye. General Stenner.
STATEMENT OF LIEUTENANT GENERAL CHARLES E. STENNER, 
            JR., CHIEF, AIR FORCE RESERVE
    General Stenner. Chairman Inouye and Vice Chairman Cochran, 
Senator Murray, I am very, very happy to be here today on 
behalf of the Air Force Reserve and the Air Force Reserve 
Command.
    Before I go any farther, I would like to tell you that I am 
joined today by my command chief, Chief Master Sergeant Troy 
MacIntosh, who is the senior ranking enlisted member of that 
very, very powerful and strong backbone that we have as an Air 
Force Reserve, the enlisted force. And I am pleased that he has 
been around to help me as we move through the transitions that 
we have been making and keep us strong in that regard. So thank 
you very much, Chief, for being here.
    I also have to say thank you, as have the rest of my 
compatriots, for all of the things that this Appropriations 
Committee has done for the Air Force Reserve. The fact that we 
are, in fact, able to provide 14 percent of this Nation's total 
air force for just a little over 5 percent of the military 
personnel budget is a very cost-effective way to deliver the 
capability that the combatant commanders need.
    I believe that we are, in fact, funded appropriately to be 
that tier-one force that can join our two component partners in 
the Guard and the active duty regular Air Force, to seamlessly 
provide that capability as we are showing on a daily basis, 
whether it is deployed or whether it is in place at home 
station. And the capability we provide from home station is 
sometimes a little bit unnoticed as well because we do fight in 
place with our mobility forces and our space forces and our 
cyber forces, our intercontinental ballistic missile (ICBM) 
forces, et cetera, all of which play a part in a three-
component Air Force.
    I will also tell you that the modernization has happened. 
Our Air Force is modernizing and recapitalizing, and the NGREA 
dollars have been well used to take the equipment that we have 
and get it into the fight earlier, quicker, along with our 
Guard and active component partners.
    My priorities--and I am on the record as to how we are 
about to do business and continue to do business--are to be 
cognizant of the fact that we are, first and foremost, a 
strategic reserve, which I believe we are leveraging on a daily 
basis to provide an operational capability and be that 
operational force around the world. And we will continue to do 
that and retain and recruit the best and the brightest. And as 
a Reserve, we are able to be everywhere we need to be and move 
folks to and from, growing into the new capabilities, and then 
adjust what we need to do in that capability, both in the unit 
world and in that very unique individual mobilization augmentee 
world that we have as well, bringing again a dramatic 
capability to the Air Force.
    The military construction that is required and the manpower 
that we will need to do the new mission sets that are coming 
in, the unmanned aerial systems, the intelligence, 
surveillance, reconnaissance and with our nuclear fleet of 
bombers--all of these things are part and parcel of what we as 
an Air Force Reserve do as part of that three-component Air 
Force. And we are very, very proud of the 67,400 men and women 
that are deployed around the world today doing what the Nation 
needs us to do, and we look forward to your questions about how 
we can do that better.
    Thank you, sir.
    Chairman Inouye. Thank you very much.
    [The statement follows:]
    Prepared Statement of Lieutenant General Charles E. Stenner, Jr.
    Mr. Chairman and distinguished members of the committee, I 
appreciate the opportunity to appear before you today and discuss the 
state of the Air Force Reserve.
    The Air Force Reserve is a powerful manifestation of the finest 
American qualities; pursuit of happiness and dedication to our Nation. 
It is an organization of ordinary working people, wedded to the fabric 
of our great Nation through their individual pursuits. Reserve Airmen 
are linguists, utility technicians, police, railway engineers, 
entomologists, school teachers, salespeople, analysts, aviators, and 
nurses, to name just a few. All are dedicated to the greater purpose of 
serving our Nation; all are essential.
    The Air Force Reserve provides these dedicated individuals the 
opportunity to be a citizen and an Airman. Like the Reserve Components 
from our sister services, we perform the essential task of bringing 
citizens to service. In doing so we gain from them their civilian 
skills, capabilities and experience; alternative approaches to solving 
problems; and expertise and judgment. Civilian employers benefit from 
Air Force Reservists who are instilled with the enduring values of the 
Air Force--integrity, service before self, and excellence in all we do.
    Secretary of Defense Robert Gates recently remarked that if we are 
to meet the myriad of challenges facing our Nation, we must strengthen 
and fully integrate other important elements of national power; that 
military success is not sufficient to win in conflict; that we must 
urgently devote time, energy and thought to how we better organize 
ourselves to meet these challenges.
    The Air Force is already recognizing the benefits of using all of 
its resources from the Reserve, Guard, and Regular Components as it 
increasingly relies on Reservists to support operational missions 
throughout the world. Moreover, the Air Force is encouraging the 
Reserve and Guard to integrate more fully with the Regular Air Force in 
a whole host of missions, adding tremendous value to the forces the Air 
Force provides to the joint warfighter.
    As the Nation looks for ways to strengthen its organizations and 
integrate all of the untapped resources it will need in facing the 
challenges of the 21st Century, we submit that a model by which 
ordinary people, dedicated to serving their country in a way that meets 
both their needs and the needs of the Nation, is already manifest in 
the U.S. Air Force everyday--in the extraordinary Americans of the Air 
Force Reserve.
    I'm proud to serve along side these great Airmen and as Chief and 
Commander of the Air Force Reserve, I have made a promise to them that 
I will advocate on their behalf for resources and legislation that will 
allow them to serve more flexibly in peace and war with minimum impact 
to their civilian career and employer. I will work to eliminate 
barriers of service, so that they can more easily serve in the status 
that meets their needs and those of the Air Force. And, I will work to 
efficiently and effectively manage our Air Force Reserve to meet the 
requirements of the Joint warfighter and the Nation.

                        RECRUITING AND RETENTION

    Over the last 8 years, the Air Force Reserve has exceeded its 
recruiting goals. Our success in great part has been due to the 
accessions of experienced Regular Air Force members upon completion of 
their active duty commitments. Indeed, recruiting highly trained 
individuals is essential to lowering training costs for the Air Force 
Reserve. For the past couple of years we have been able to recruit 
experienced Airmen from the Regular Air Force as a result of force 
structure changes and internal Departmental decisions.
    We no longer have the luxury of large numbers of experienced Airmen 
leaving Regular service. As both the Regular Air Force and the Air 
Force Reserve once again build end strength, we expect we will face 
some recruiting challenges in the near future: not only will the Air 
Force Reserve have access to fewer prior service members, but we will 
be competing with all other services for non-prior recruits.
    We are also facing challenges with retention. The Air Force Reserve 
continued to execute force structure changes in fiscal year 2008, to 
include BRAC and Total Force Initiatives, which prompted a reduction of 
over 7,000 positions. As a result, we again missed our historical 
officer and enlisted retention targets but met end strength 
requirements. Second term reenlistments and extensions fell slightly 
for the third straight year--we also attribute this to the large 
population of Airmen affected by the Air Force drawdown over the past 
few years. There is, however, a bright spot: in fiscal year 2008, for 
the first time in 3 years, we saw a dramatic upswing in reenlistments/
extensions for first-termers and a modest gain for career Airmen.
    Nevertheless, our forecast models indicate that we will continue to 
face challenges. Accordingly, as outlined in our Air Force Reserve 
priorities discussed below in greater detail, we are striving to 
improve Reserve Airmen awareness of benefits, incentives and policies 
affecting deployments; we are emphasizing the importance of the 
Employer Support of the Guard and Reserve (ESGR) program and the Yellow 
Ribbon Reintegration Program (YRRP); and we are striving to better 
understand this very complicated dynamic by surveying the attitudes and 
beliefs of our Airmen on the array of policies, benefits and incentives 
that affect them to determine what appropriate adjustments can be made 
to improve our retention outlook. The Department of Defense and the Air 
Force have improved our ability to make deployments more predictable. 
And as I discuss below, I believe we need to take a hard look at the 
number of Airmen held in Reserve.
    I am confident that as we act on not only our Air Force Reserve 
priorities, but those of the Air Force and the Department of Defense, 
and with the continued support of this committee and Congress, we will 
be able to continue to meet the needs of combatant commanders and the 
Nation with a viable operational and strategic Air Force Reserve.

 PRESERVING, LEVERAGING AND IMPROVING AIR FORCE RESERVE VALUE AND OUR 
                               PRIORITIES

    The Air Force Reserve is a repository of experience and expertise 
for the Air Force. Air Force Reserve Airmen are among the most 
experienced Airmen in the Air Force. Air Force Reserve officers average 
roughly 15 years of experience, and enlisted members average 14 years 
of experience, compared to 11 years and 9 years for Regular Air Force 
officers and enlisted respectively. In fact, roughly 64 percent of Air 
Force Reserve Airmen have prior military experience.
    Airmen of the Selected Reserve remain mission-ready, training to 
the same standards and maintaining the same currencies as those in the 
Regular Air Force, and are capable of deploying within 72 hours of 
notification. These Airmen provide the insurance policy the Air Force 
and the Nation need: a surge capability in times of national crises.
    Reserve Airmen are a cost-effective force provider, comprising 
nearly 14 percent of the total Air Force authorized end-strength at 
only 5.3 percent of the military personnel budget. Put differently, Air 
Force Reserve Airmen cost per capita is 27.7 percent of that of Regular 
Air Force Airmen, or roughly 3.5 Reserve Airman to one Regular 
Airman.\1\
---------------------------------------------------------------------------
    \1\ Fiscal year 2008 President's Budget request, figures derived 
from ABIDES (Automated Budget Interactive Data Environment System), the 
budget system currently in use by the Air Force and recognized as the 
official Air Force position with respect to the Planning, Programming 
and Budget Execution (PPBE) system. Inflation data used for any 
constant dollar calculations were based on average Consumer Price Index 
for All Urban Consumers (CPI-U) rates for the past 10 years: roughly 
2.6 percent average annual rate of inflation. Medicare Eligible 
Retirement Health Care (MERHC) is an accrual account used to pay for 
health care of Medicare-eligible retirees (age 65 and beyond). Cost per 
capita figures were derived dividing cost of Selected Reserve program 
by Selected Reserve end-strength. When MERHC figures are included, the 
cost of Air Force Reserve Airmen to Regular Air Force Airmen increases 
to 30.4 percent.
---------------------------------------------------------------------------
    The Air Force leverages the inherent value of the Air Force Reserve 
in furtherance of its priorities, which are to: reinvigorate the Air 
Force nuclear enterprise; partner with the joint and coalition team to 
win today's fight; develop and care for Airmen and their families; 
modernize our air and space inventories, organizations and training; 
and recapture acquisition excellence.
    Preserving, utilizing and improving this value in pursuit of Air 
Force priorities underlie each of our Air Force Reserve priorities. We 
must provide an operational, combat ready force while maintaining a 
strategic reserve. We must preserve the viability of the triad of the 
relationships Reservists must sustain with their families, the Air 
Force Reserve and their employers. We must broaden Total Force 
Initiatives. And we must modernize our equipment and facilities. Each 
of these priorities is vital to preserving our value and sustaining our 
forces as we meet the needs of the Nation.

 OPERATIONAL, COMBAT READY FORCE WHILE MAINTAINING A STRATEGIC RESERVE

    The Air Force Reserve is first and foremost a strategic reserve, 
providing the Air Force with a surge capacity in times of national 
crisis. Over time, the Reserve has become a mission-ready reserve force 
capable of serving operationally throughout the world. Since OPERATION 
DESERT STORM, Air Force Reserve Airmen have been continuously engaged 
around the world supporting ongoing contingencies, serving side by side 
with the joint team.\2\
---------------------------------------------------------------------------
    \2\ Airmen of the Selected Reserve are mission-ready, capable of 
performing ongoing operations. Collectively, they have met the 
operational needs of the Air Force for decades--largely through 
volunteerism, but also through full-time mobilization. For example, 
Reserve and Guard Airmen have continuously supported Operation Coronet 
Oak in Southern Command year-round, 24/7, since 1977. Between 1991 and 
2003, Reservists supported the no-fly areas of Operations Northern and 
Southern Watch. Since the attacks on September 11, 2001, 54,000 
Reservists have been mobilized to participate in Operations Enduring 
Freedom, Noble Eagle and Operation Iraqi Freedom--6,000 remain on 
active duty status today. It is a fact that the Air Force, more than 
any other time, now relies on members of the Reserve and Guard to meet 
its operational requirements around the globe.
    Our Reserve community continues to answer our Nation's call to duty 
with large numbers of volunteer Reservists providing essential support 
to Combatant Commanders. Forty-six percent of the Air Force's strategic 
airlift mission and 23 percent of its tanker mission capability are 
provided by Reserve Airmen. We currently have over 450 C-17, C-5, KC-
135 and KC-10 personnel on active duty orders supporting the air 
refueling and airlift requirements.
    In Operations Enduring and Iraqi Freedom, Reserve C-130 crews flew 
over 6,000 hours in 2008; Reserve F-16 and A-10 crews flew over 3,700 
hours. The Air Force Reserve provides 24 crews and 12 fighter aircraft 
to USCENTCOM in their regularly scheduled rotations for the close air 
support mission.
    The Air Force Reserve maintains 60 percent of the Air Force's total 
Aeromedical Evacuation (AE) capability. Reserve AE crews and operations 
teams provide a critical lifeline home for our injured warfighters. Our 
highly trained AE personnel fill 39 percent of each AEF rotation and 
fulfill 12 Tanker Airlift Control Center tasked AE channel missions 
each quarter--all on a volunteer basis. On the home front in 2008, the 
Air Force Reserve provided 21 of 24 AE crews, 88 percent of the mission 
requirement, for the response to Hurricane's Ike and Gustav. 
Additionally, the Reserve provided 4 standby crews, 100 percent of the 
mission requirement, in support the Democratic and Republican National 
Conventions.
    In 2008, the men and women of our Combat Search and Rescue forces 
have been heavily engaged in life saving operations at home and abroad. 
Since February, Airmen of the 920th Rescue Wing at Patrick Air Force 
Base, Florida, and their sister units in Arizona and Oregon, flew over 
745 hours and saved more than 300 U.S. troops on HH-60 helicopter 
missions in support of U.S. Army medical evacuation operations in Iraq 
and Afghanistan. While mobilized for 14 months in support of combat 
missions abroad, the 920th continued to provide humanitarian relief in 
response to natural disasters at home, as well as provide search and 
rescue support for NASA shuttle and rocket launches.
    The Reserve made use of its organic ISR and firefighting 
capabilities to protect the lives and property of our citizens 
threatened by an especially severe fire season. Defense Support to 
Civilian Authorities engagement started with planning and directing 
exploitation and analysis of the first Global Hawk imagery to support 
Incident Analysis and Assessments. In fact, the first Distributed 
Ground System Mission Commander was an Air Force Reserve Officer that 
directed analysis of the areas devastated and movement of the fire 
lines. Aircrews in the 302nd Air Expeditionary Group (AEG) flew more 
than 980 airdrops and delivered in excess of 1.3 million gallons of 
fire retardant to help firefighters on the ground and mitigate further 
damage and destruction. The AEG is a Joint unit made up of eight C-130 
Hercules aircraft equipped with the Air Force Modular Airborne Fire 
Fighting System, six Marine Corps helicopters, and two Navy Reserve 
helicopters. Two of the C-130s belong to the Air Force Reserve's 302nd 
Airlift Wing at Peterson Air Force Base, Colorado. Reserve and Guard 
personnel helped fight the more than 2,000 fires that ravaged the 
California wilderness this past summer.
    The Air Force Reserve provides 100 percent of the airborne weather 
(hurricane hunting) capability for the Department of Defense. This past 
hurricane season tied as the fourth most active with 16 named storms 
and five major hurricanes. Throughout the year, Air Force Reserve 
``Hurricane Hunters'', C-130J aircraft flown by citizen Airmen of the 
403rd Wing at Keesler Air Force Base, Mississippi flew over 1,000 
hours, collecting life-saving data that was sent directly to the 
National Hurricane Center in Miami, Florida, contributing to better 
forecasts and landfall predictions. Following the end of the hurricane 
season in the Caribbean, the 403rd deployed 2 aircraft and 4 crews to 
the Pacific region to continue its support of storm research.
    In addition to our hurricane mission, the Air Force Reserve 
provides 100 percent of the aerial spray mission in support of the 
Federal Emergency Management Agency, the Centers for Disease Control, 
and state public health officials. Air Force Reserve aircrews and C-
130s from the 910th Airlift Wing, Youngstown Air Reserve Station, Ohio, 
sprayed more than a million storm ravaged acres of land with pesticides 
to control the spread of disease.
    Our intelligence, surveillance and reconnaissance professionals are 
providing critical information as they answer the Nation's call to 
service. In 2008, 192 intelligence personnel deployed in support of 
world-wide contingency missions to include Afghanistan and Iraq. For 
the foreseeable future, Reserve intelligence professionals will 
continue to be deployed throughout the Combatant Command theaters, 
engaged in operations ranging from intelligence support to fighter, 
airlift, and tanker missions to ISR operations in Combined Air 
Operations Centers and Combined/Joint Task Forces.
    These are but a few examples of the dedication and contributions 
our Air Force Reserve Airmen have made and will continue to make around 
the clock, around the world, each and every day.
---------------------------------------------------------------------------
    Using Reservists in operational missions makes sense: it leverages 
the experience and comparatively lower costs of a predominantly part-
time force. Moreover, it improves relationships between Regular Air 
Force and Air Force Reserve members--it gives Airmen of each component 
an opportunity to demonstrate their capability and relevancy to each 
other, as well as Sister Services and coalition forces; it provides 
Airmen of each component the opportunity to lead each other. Equally 
important, operational duty provides Reserve Airmen the benefit of 
operating as a member of the joint team in diverse environments. 
Operational taskings also improve unit morale and enhance unit pride--
important factors in achieving and sustaining high performance.
    Yet, for all of our operational capability and contributions, we 
must not lose sight that we--along with our Air National Guard brothers 
and sisters--are also a strategic reserve that must be available to 
surge in times of national emergency. For us to serve as both an 
operational and strategic reserve, it is critical that we find the 
right balance between the two. Too few Reserve Airmen means a higher 
operational tempo for all Airmen--Regular or Reserve; it means less 
capacity to surge in times of national emergency; it means exhausting 
our people and jeopardizing the cornerstone of Air Force Reserve 
service.
    We are now 18 years in continuous combat operations, and in our 
eighth year of OPERATION ENDURING FREEDOM; soon to be in our sixth year 
of OPERATION IRAQI FREEDOM. By any measure, our Airmen are performing 
admirably. But, our retention rates are dropping, our experience levels 
are dropping, indeed the Air Force is ``going deep'' into the Inactive 
Ready Reserve and Retired Reserve with its Limited Pilot Recall 
Program. Are these anomalies that can each be explained; or are they 
the signposts of a more serious problem? My concern and challenge, 
indeed our collective challenge, is to ensure we are able to refocus, 
reconstitute and recapitalize while remaining engaged in the full 
spectrum of operations--in a word, our efforts must be ``sustainable'' 
over the long run.
    Volunteerism is vital to the overall capability of not just the Air 
Force Reserve, but the entire Air Force--today we meet roughly 80 
percent of our taskings through volunteerism. Without it, I do not 
believe we can sustain this level of commitment indefinitely. From this 
essential fact flow all of my other priorities.

   PRESERVING THE VIABILITY OF THE RESERVE TRIAD (FAMILY, AIR FORCE 
                         RESERVE AND EMPLOYER)

    Air Force Reserve Airmen must strike a balance between their 
commitments to the Air Force, their families and their civilian 
employers, i.e., their main source of income. We must be ever mindful 
of these commitments and the balancing act our Reservists undertake to 
sustain these relationships. We must strive to preserve these 
relationships through open communication with each of these essential 
partners. And, we must strive to provide predictability in deployments, 
and parity with benefits. Doing so is critically important in ensuring 
we provide ready and capable Reserve Airmen to the Nation.
    This past year, the Air Force Reserve has endeavored to improve 
communication with Reservists by rolling out awareness campaigns 
concerning the differences in benefits Congress has provided over the 
past few years, and how these accrue for those who voluntarily deploy 
and those who are mobilized. We have also put a spotlight on other 
important benefits such as reduced eligibility age for retirement pay, 
improved availability of health benefits, and lower premiums for 
TRICARE Reserve Select. We have begun surveying focus groups within the 
Air Force Reserve to better understand the needs of our Reservists and 
whether we are meeting these needs. And I personally send e-mails to 
all of our Selected Reserve members to highlight important issues 
concerning their service. In the coming months, as we learn more, we 
will be rolling out an awareness campaign on the Post 9/11 Montgomery 
GI Bill and how it works vis-a-vis other education benefits.
    We have worked with the Small Business Association to provide 
Reservists and Employers awareness of improved access to increased, 
uncollateralized, low interest loans that Congress authorized last 
year. We have made it a point to educate our Airmen about the 
importance of the ESGR program, and we have asked that they nominate 
their employers for ESGR recognition and take time to accurately fill 
out employer data in the DOD employer database. I am pleased to report 
that we have increased our nominations by 149 percent this past year.
    We are moving ahead with implementation of the YRRP to support 
Reserve members and their families throughout the entire deployment 
cycle. Prior to the enactment of this program, Air Force Reserve Wings 
dedicated time and a notable level of effort to support their deploying 
Airmen and families, as evidenced by the number of deployment support 
and reintegration activities in the past. In 2008, the Air Force 
Reserve hosted 58 YRRP events that served over 1,250 Airmen and 500 
family members.
    In addition, the Air Force Reserve Command has formed a Yellow 
Ribbon Reintegration Office. This multi-functional team has begun 
identifying challenges, assessing strategic, operational and fiscal 
gaps, and evaluating effective and implementable options. We're working 
towards full implementation of Department of Defense directives.
    In the future, the Air Force Reserve will publish an overarching 
YRRP strategy that optimizes benefits to service members and their 
families. A key component of this strategy will be to support and unify 
the current independent efforts, and identify the successes of those 
efforts.
    As a Total Force, we continue to work through continuum of service 
(CoS) challenges to better enable varying degrees of service commitment 
that members can provide as their life circumstances change throughout 
their career. The Air Force and the Air Reserve Components are taking a 
coordinated approach to identifying the issues that make reserve 
component members disinclined to frequently volunteer for active duty 
tours. We're identifying barriers and options for reducing or removing 
impediments to service. These impediments range from financial, 
cultural, technological to policy and legislative. Through this program 
the services have thus far identified dozens of impediments, three of 
which were mitigated by improving policies concerning enlisted 
promotion, chaplain service age waiver, and security clearances. 
Although still in its formative stage, the Air Force developed a CoS 
Tracking Tool which is gaining wider DOD acceptance and we hope will 
continue to gain momentum as all Services look to act on this important 
reform initiative.
    The fiscal year 2008 National Defense Authorization Act included 
legislation to authorize reimbursement of travel expenses not to exceed 
$300 for certain Selected Reserve members who travel outside the normal 
commuting distance because they are assigned to a unit with a critical 
manpower shortage, or assigned to a unit or position that is 
disestablished or relocated as a result of defense base closure, 
realignment or another force structure reallocation. Because of this 
authorization, the Air Force Reserve has been able to retain trained 
and qualified personnel, rather than having to recruit and train new 
personnel.

                    BROADEN TOTAL FORCE INITIATIVES

    The Air Force leverages the value of its reserve components through 
association constructs. The basic model is an associate wing in which a 
unit of one component has primary responsibility for operating and 
maintaining equipment (such as aircraft), while a unit of another 
component (Air Force Reserve, Air National Guard, or Regular Air Force) 
also operates and maintains that equipment.\3\ This arrangement 
effectively places more people against a piece of equipment, thereby 
gaining more utility from each piece of equipment, and the ability to 
surge as needed, and pull back when not.
---------------------------------------------------------------------------
    \3\ The Air Force uses three types of associations to leverage the 
combined resources and experience levels of all three components: 
``Classic Association'', ``Active Association'', and ``Air Reserve 
Component Association''.
    Under the ``Classic'' model, so-called because it is the first to 
be used, a Regular Air Force unit is the host unit and retains primary 
responsibility for the weapon system, and a Reserve or Guard unit is 
the tenant. This model has flourished in the Military Airlift and Air 
Mobility Commands for over 40 years. We are now beginning to use it in 
the Combat Air Forces (CAF): our first fighter aircraft ``Classic'' 
association at Hill Air Force Base, Utah, attained Initial Operational 
Capability in June 2008. This association combined the Regular Air 
Force's 388th Fighter Wing, the Air Force's largest F-16 fleet, with 
the Air Force Reserve's 419th Fighter Wing, becoming the benchmark and 
lens through which the Air Force will look at every new mission. The 
477th Fighter Group, an F-22 unit in Elmendorf, Alaska, continues to 
mature as the first F-22A associate unit. This unit also achieved 
Initial Operating Capability in 2008 and will eventually grow into a 
two-squadron association with the Regular Air Force.
    The Air Force Reserve also established its first Intelligence 
Squadron Association with the 50th Intelligence Squadron at Beale Air 
Force Base, California. This unit of Reserve and Regular Airmen 
delivers real-time, tailored intelligence to combat forces engaged in 
missions in Iraq and Afghanistan, with data derived from theater 
Predator/Reapers, Global Hawks and U-2s, in partnership with the Total 
Force team. The Air Force is considering additional associate 
intelligence units for Beale and Langley Air Force Bases. These new 
capabilities create a strategic reserve force ready to respond to the 
call of our Nation, capable of being leveraged as operational crews 
ready and willing to support the Regular Air Force in everyday missions 
around the world. This model has proven itself and is the basis for the 
growth of associations over the last 5 years.
    Under the ``Active'' model, the Air Force Reserve or Guard unit is 
host and has primary responsibility for the weapon system while the 
Regular Air Force provides additional aircrews to the unit. The 932nd 
Airlift Wing is the first ever Operational Support Airlift Wing in the 
Air Force Reserve with 3 C-9Cs and 3 C-40s. Additionally, the Air Force 
Reserve will take delivery of an additional C-40 in fiscal year 2011, 
appropriated in the fiscal year 2009 Consolidated Security, Disaster 
Assistance and Continuing Appropriations Act. This additional C-40 will 
help to replace the 3 C-9Cs, which are costly to maintain and fly. To 
better utilize the current fleet of C-40s at the 932nd, the Air Force 
created an Active Association. We also are benefiting from our first C-
130 Active Association with the 440th AW at Pope AFB.
    Under the ``Air Reserve Component (ARC)'' model, now resident at 
Niagara Falls Air Reserve Station (ARS) in New York, the Air Force 
Reserve has primary responsibility for the equipment while the Guard 
shares in the operation of the equipment and works side by side with 
the Reserve to maintain the equipment. The Air National Guard has 
transitioned from the KC-135 air refueling tanker to the C-130, 
associating with the 914th Reserve Airlift Wing. The 914th added four 
additional C-130s, resulting in 12 C-130s at Niagara ARS. This ARC 
Association model provides a strategic and operational force for the 
Regular Air Force while capitalizing on the strengths of the Air 
National Guard and Air Force Reserve. Additionally, in this case it 
provides the State of New York with the needed capability to respond to 
state emergencies.
    The Air Force Reserve has 9 host units and is the tenant at 53 
locations. There are currently more than 100 integration initiatives 
being undertaken by the Air Force and Air Reserve Components.
---------------------------------------------------------------------------
    Beyond fiscal efficiencies, however, associations use the inherent 
values that each component brings to the mix. For example, less 
experienced Airmen from Regular Air Force can be more favorably 
balanced against higher experienced Reserve Component Airmen. Moreover, 
these constructs can foster mutual respect among components, and can 
lead to a cross flow of ideas. Regular Air Force Airmen can bring a 
wider perspective of Air Force operations to an associate unit based on 
their ability to change assignments on a regular basis. For their part, 
Reserve Airmen lend stability and continuity to the organization and 
the mission. The ultimate goal is to provide the Air Force and 
combatant commanders the best possible capabilities with fewer physical 
resources by leveraging the combined resources of the Regular Air 
Force, Air National Guard, and Air Force Reserve.
    The Air Force has been using associations modestly, with varying 
degrees of success, since 1968, primarily in the air mobility missions. 
However, during the last 5 years we have aggressively pursued 
fundamental change to maintain our war fighting capabilities. Our 
central strategy is to use integration/association initiatives to 
leverage the strengths of all three components to make one strong Air 
Force in many mission areas. Failing to consider the Air Force 
holistically risks unbalancing the contributions of each component, 
which are central to the success of the efficient and effective 
delivery of combat capability to the war fighter.
    Associations also present new challenges in the way we develop 
plans to meet the needs of combatant commanders. It used to be, and in 
some cases still is, that our mobilization plans were developed for a 
unit and its equipment to deploy together in support of a given 
operations plan. Associations now must be worked into those plans. We 
have made progress in developing war mobilization plans that deploy 
equipment separately from the units that deploy. But we will 
undoubtedly encounter difficulties in the execution of these plans. We 
still will have to find the sweet spot in the Regular Air Force/Air 
Reserve Component (ARC) manpower mix when allocating our people against 
various missions within the Air and Space Expeditionary Force 
construct. We will have to determine how long and how best to access 
ARC personnel--i.e., mobilize or volunteer--to meet that mix so that we 
can give combatant commanders the most effective force. And we should 
consider measuring taskings by associations instead of wings.
    If it is to succeed, the Air Force must educate Airmen about the 
unique challenges of associations--at all levels, within and among each 
of the components. Advancement within each Service is premised upon 
joint education and experience; advancement should also be premised on 
joint component education and experience. Candidates for leadership in 
associations should be screened and selected based on their experience 
and abilities to lead and work well with other components.
    Force integration is not a process unto itself; it has a purpose, 
an end state. Properly understood, an integrated force is a unified, 
harmonious, effective entity. We are merely at the beginning of this 
process; it will take many, many years before we approach the end 
state. We must look beyond the fiscal efficiencies touted as the basis 
for our undertaking, roll up our sleeves, and get to the hard work 
needed to make us a more effective combat force. Should we do so, we 
will some day look about us and recognize a truly integrated Air Force.

                   MODERNIZE EQUIPMENT AND FACILITIES

    The Department of Defense's goal is to fully equip Reserve 
Component units, thereby providing a trained and ready force at every 
stage of the service's force rotation plan. The Air Reserve Components, 
along with the Regular Air Force, face significant modernization and 
recapitalization challenges, for both our aircraft and infrastructure. 
Some Air Force Reserve platforms remain out of the fight due to lack of 
defensive and countermeasure systems needed in the USCENTCOM Area of 
Responsibility, including some of our C-5A, A-10 and C-130 aircraft. In 
addition, as with the Regular Air Force, we are facing unpredictable 
fatigue, corrosion, and structural component availability concerns on 
platforms that even our superior maintainers cannot correct forever, as 
we have seen in our C-5, KC-135 and A-10 fleets. While we continue to 
meet the requirements of the Air Force and the Joint team, the current 
high operations tempo has led to our current reality--the increasing 
uncertainty of our long-term fleet viability. Similarly, continued risk 
in the Air Force Military Construction (MILCON) program has caused a 
significant growth in the Air Force Reserve Command's facility project 
backlog. Timely modernization is critical to remaining a relevant and 
capable combat ready Reserve force.
National Guard Reserve Equipment Account (NGREA)
    The NGREA appropriation has resulted in an increase in readiness 
and combat capability for both the Reserve and the Guard. For fiscal 
year 2009, we received $37.5 million in NGREA appropriations which 
resulted in the Air Force Reserve Command's ability to purchase 
additional upgrades for Reserve owned equipment. Some of the items that 
we purchased using NGREA funding include: Defensive Systems for C-5s, 
Line of Sight/Beyond Line of Sight capability and new upgraded radar 
for our C-130 aircraft, and an upgrade to the F-16 Commercial Fire 
Control Computer. Many of these new capabilities are directly tied to 
better air support for our Soldiers and Marines in Iraq and 
Afghanistan. NGREA funding has helped the Air Force Reserve to remain 
relevant in today's fight as well as the ability to remain ready and 
capable in future conflicts. We thank you for your support with this 
critical program.
Milcon and Facilities Modernization
    Along with challenges in modernizing our equipment, we face 
challenges modernizing our facilities. During the fiscal year 2008 
budget formulation, both the Regular Air Force and the Air Force 
Reserve took risk in MILCON appropriation in order to fund higher 
priorities. This reduction coupled with past shortfall funding in 
MILCON has resulted in a backlog nearing $1 billion for the Air Force 
Reserve.
    We will continue to work within the fiscal constraints and mitigate 
risk where possible to ensure our equipment and facilities are 
modernized to provide a safe and adequate working environment for all 
of our Airmen.

                               CONCLUSION

    Mr. Chairman and Members of this Committee, I am excited to have 
been able to take on this role as Chief of the Air Force Reserve and 
Commander of Air Force Reserve Command. I take pride in the fact that 
when our Nation calls on the Air Force Reserve, we are trained and 
ready to go to the fight. Over 67,000 strong, we are a mission-ready 
reserve force capable of serving operationally throughout the world 
with little or no notice.
    The rapidly changing security and economic environment will cause 
Congress, the Department of Defense, and the Air Force to make some 
difficult choices in the year ahead. The Air Force Reserve is highly 
experienced, cost-effective force provider well-suited for this 
challenge. I submit it is a hedge against the uncertainties we are 
facing for which you pay a relatively small premium. I firmly believe 
paying this premium will enable the Air Force to achieve its force 
integration goals and address not only its priorities, but also help 
Congress address the more pressing issues we will face as a nation in 
the years to come.
    I appreciate the support of this committee for the appropriations 
it provides to fund our readiness and combat capability. I look forward 
to working with each of you in the future on the challenges facing the 
Air Force Reserve, the Air Force, and the Nation.

                  YELLOW RIBBON REINTEGRATION PROGRAM

    Chairman Inouye. I would like to begin asking a question. 
In the fiscal year 2008 Defense Authorization Act, the Defense 
Department was directed to establish a centralized office for 
the Yellow Ribbon Reintegration Program. Now, some have 
questioned the wisdom of this. I would like to get your 
thoughts on this. General Stultz.
    General Stultz. Yes, sir. I think my candid assessment on 
that, it probably slowed down the process for us to implement 
the Yellow Ribbon Program because anytime we try to bring all 
the services together and gain some kind of consensus of how we 
are going to implement something, it takes a long time. And I 
think what we came to agreement on is we cannot apply a cookie-
cutter approach. Each service is different in terms of the way 
we mobilize and deploy soldiers, in terms of the length of time 
we deploy them, and to what they are exposed to during those 
deployments. And so at the end of the day, we came back and 
said--you know, let each service sort of design its own 
implementation plan. So I think we have slowed down part of the 
implementation by going through that process.
    At the same time, I will say when you do raise it to that 
level, to the OSD level, you get buy-in as a Department that 
this is not just a program we are going to throw to the 
services and say you figure it out. It is something that 
Congress has mandated this to us, and as the OSD level, we are 
going to fund it, we are going to buy into it, fund it, and 
make sure it gets implemented properly.
    From the Army Reserve's perspective, we have already 
conducted 70 of the programmed events this year. We are well on 
our way. We have got another 70 or so already scheduled. The 
challenge we are finding with the Yellow Ribbon Program is the 
difficulty in trying to bring a dispersed force back together. 
Unlike an active duty force where everybody comes back home to 
Fort Hood and you can go through a reintegration process there 
at Fort Hood, with the Army Reserve, because our units are 
geographically dispersed, you may have a soldier who lives 
three States away from the unit and he is willing to travel, a 
lot of times at his own expense, to be part of that unit, but 
when we come back for a Yellow Ribbon event and we try to 
engage the families, it makes it tough.
    One approach that was developed was to say, okay, let us 
have a regional approach. Let us have geographic events, and 
that way soldiers can choose where to go to the reintegration 
event based on their geography. I have an issue with that, and 
I have told my commanders that because I think it is imperative 
that we bring soldiers back together as a unit and we look the 
soldiers in the eye and put them through that reintegration 
together as a unit. If you took me and said you go somewhere 
off to an event that is not part of your unit and I go sit in 
the corner and sit there and nobody else knows who I am there, 
they are going to say, well, he's just a quiet guy. If I go and 
do the same thing with my unit, they are going to say something 
is wrong with Jack. He needs help because he is not himself. 
And so it is imperative, if we implement a Yellow Ribbon 
Program properly, it is a unit-based program and the exceptions 
are where we have to disperse geographically. We will always 
have the exceptions.
    Of particular concern to me on Yellow Ribbon is the IRR, 
the Individual Ready Reserve. We do not really have a Yellow 
Ribbon Program for them, in my opinion. I get occasionally, not 
very often, an IRR soldier that is assigned to the Army 
Reserve. It is my, I think, obligation to take care of that 
soldier and his family with the Yellow Ribbon Program. Even 
though the unit may be from Pennsylvania and he goes back to 
Texas, I have got to figure out how to get him the 
reintegration he needs back in Texas. But I just get a very 
small piece of the IRR.
    Most of the IRR are filling active duty units, and when 
that unit comes back to Fort Hood and that soldier goes back to 
Pennsylvania, nobody looks out for him. I have raised this at 
the Vice Chief and the Chief of Staff level to say we have got 
to figure out to do Yellow Ribbon for our IRR soldiers, as well 
as my active Reserve soldiers.
    I think it is a great program, sir, and I appreciate the 
funding we have gotten for that. I think we are still learning 
as to the best way to implement it, and we have been a little 
bit slow to get there.
    Chairman Inouye. Admiral, any thoughts on this?
    Admiral Debbink. Yes, sir, Chairman. The Yellow Ribbon 
Program has been instrumental in the Navy Reserve to helping us 
really propel our Returning Warrior Workshop, as our main 
program, forward with the funding that came with it. It has 
been a very successful program. They're done on weekends not 
because it is a Reserve program, but because that is when we 
can get the spouses there too, which is also very important to 
us because it is a reintegration event. You want to bring the 
members back together who served, as well as the families.
    The other thing we have done is employed the funds from 
Yellow Ribbon to deploy psychological health outreach 
coordinators to each of our regions, and they have been 
instrumental as well, staying in touch with our sailors, 
particularly those who might be at risk for psychological 
health reasons. And I have had a couple of great new stories of 
interventions of possible suicides. So we have been very 
pleased with the funding. It has been very instrumental to our 
programs.
    Chairman Inouye. Thank you.
    General Bergman.
    General Bergman. Yes, sir. General Stultz articulated it 
very, very well. I will just add to the fact that the unit-
based approach is important because the marines in the unit 
know the other marines. They know who is in distress quicker 
than if you just show up at an individual event by yourself. 
That has paid dividends.
    Number two, Mobilization Command, which is the Marine 
Corps' element in charge of managing the IRR, has been a great 
asset in ensuring that, at least to the 80 percent level, we 
maintain some level of in-touch capability with those IRR 
members. Regardless of whether they went to an active component 
unit or whether they came to a reserve unit, they are included.
    And as Admiral Debbink said, the Marine Corps also utilizes 
a psychological health outreach program that has been 
established for us. We are in the process of building the 32 
teams across the country which will be comprised of about four 
mental health professionals each that will allow us to ensure 
that we dig a little deeper each time. So we appreciate the 
continued funding and support.
    Chairman Inouye. Thank you.
    General Stenner.
    General Stenner. Mr. Chairman, thanks. I do agree with just 
about everything that has been said as far as units are 
concerned. We would love to be able to deploy as a unit. We 
would love to be able to reintegrate and take a look at 
everybody as they come home at the 30-, 90-, 180-day point as a 
unit. We are, however, also involved with our individual 
mobilization augmentees (IMA) who do regularly deploy. So we 
are reintegrating them as well.
    Some of the things the program has done, regardless of the 
implementation, has certainly raised the awareness of what is 
out there, what is necessary, and how we might go about doing 
this. As an example, I was at Youngstown, Ohio, a couple of 
weeks ago, and they had a wonderful Yellow Ribbon Program event 
that brought a security forces squadron back together with 
their families, and it was a wonderful time for all.
    Across the river in Pennsylvania at Pittsburgh 2 weeks 
earlier they had had a similar event, their first. Those two 
units, being in proximity, have in fact generated some great 
discussion, and they are going to share assets, will be able to 
share resources, will be able to, as an example, use the time 
that they are having at one location to have other folks come 
over, if they cannot make it somewhere else.
    We are looking at all those kinds of locations to put our 
IMAs, who also need to be understood and taken care of as well, 
as well as the Individual Ready Reserve. And I think that one 
of the best things that we can do right now is we can get a 
database that shows where these things are. It is up to each of 
us as commanders and unit-equipped members to figure out how 
best to monitor and watch and get all of our folks, regardless 
of unit, IMA, IRR, reintegrated appropriately and monitored 
carefully. So we are working together with our service partners 
to do that as well.
    Thank you, sir.
    Chairman Inouye. Thank you.
    General Stultz, you have implemented an Employer 
Partnership Program. How is that working?
    General Stultz. Yes, sir. It has probably been about 1\1/2\ 
years ago, we started really looking seriously. If we are going 
to sustain the up tempo we have with our Army Reserve force, we 
have got to have the employers. I have got to have soldiers who 
have the confidence that they can have a civilian career and be 
in the Army Reserve. And that led us into some discussions with 
employers to sit down and talk about how we are going to work 
together, make sure we have got their support.
    What we found is that the employers of America have the 
same challenge we have in the military, and that is finding the 
talent--not the workers, the talent--that they need to run good 
corporations or good industry in America. And so rather than 
having the discussion about what is going to happen when I take 
workers away from those employers to be soldiers for me, I said 
we ought to be having a discussion--let me bring soldiers to 
you to be workers for you because I have got great talent in my 
ranks. These three individuals that I introduced earlier 
represent that.
    And what we found is there is a natural synergy where we 
have in the Army Reserve, because we are a combat support, 
service support, the same skill sets in our ranks that American 
industry is looking for. We have truck drivers. The American 
Truckers Association said they were desperately short of long-
haul truck drivers in America. We have medical technologists. 
America's medical centers said that we are desperately short of 
medical technologists, respiratory, x-ray, surgical, ER. Law 
enforcement. We have military police. A lot of law enforcement 
agencies, to include right here in the District of Columbia, 
said we are desperately short of law enforcement. And it goes 
on and on and on.
    So we started this initiative called the Employer 
Partnership where we basically said let the Army Reserve become 
a reservoir of talent to help populate America's industry. Let 
us develop a human capital strategy where I can go recruit a 
soldier to be a medical technologist for me in one of my Army 
Reserve hospitals on the battlefield in Bilad. But when they 
come home, they will come to work for you here at Inova Health 
Care Center in Northern Virginia.
    And so we started signing agreements where we said we will 
go help you. We will find the talent. And as word got out, it 
just kind of snowballed. To date, we have 225 companies that 
have come to us and said we want to sign up with the Army 
Reserve to be partners with you. We have got probably another 
100 that are on a waiting list.
    The recognition is when we bring an Army Reserve--and I 
would just say not Army Reserve. It is Navy Reserve, Marine 
Corps Reserve, National Guard, Air Reserve, whatever--that 
comes to work for us, these industries tell us it is a 
different individual, different work ethic. They understand 
leadership. They understand team work. They understand 
responsibility. They are drug-free. They are physically fit. 
They have an aptitude. And so it is very, very positive.
    I was just a few weeks ago in Kosovo visiting one of my 
units, and a sergeant came up and said, sir, I was not sure 
what I was going to do when I got home, but I went on the Army 
Reserve Employer Partnership website and I have three offers 
now for a job when I get home. So it is very, very encouraging.
    We are still in the infant stages of how we properly 
implement this to match the talent and then expand it across 
all the services that are represented here. But it is very, 
very successful to date, and we have got companies, everything 
from Joe's garage in Slidell, Louisiana, to General Electric, 
which has 300,000 employees around the world, and Wal-Mart or 
somebody like that. So it spans the spectrum in terms of 
employers that really are reaching out and saying we want to 
engage with the talent that you bring us.
    Chairman Inouye. Congratulations.
    General Stultz. Thank you, sir.
    Chairman Inouye. Do the other Reserve components have 
similar programs?
    General Stenner. Sir, I will tell you that one of the most 
valuable resources that we deal with, as far as an Air Force 
Reserve, is the rated crew member that generally has a civilian 
job as an airline participant one way or the other, whether as 
a pilot or in some other kind of other capacity. So right now, 
to share that resource, to understand how we use them, and 
where we can, leverage the talents that come from the Air Force 
Reserve, we are working with the Airline Transport Association 
to see how we can, in fact, deploy our folks, get them back, 
and get that talent where it needs to be. And we bring in folks 
that the airlines would like to have for exactly the same 
reasons that General Stultz is talking about, and I think that 
we are leveraging that, at least in that capacity right now. 
And I will emulate his program. It sounds like it is a good 
one.
    Thank you, sir.
    Chairman Inouye. Admiral.
    Admiral Debbink. Mr. Chairman, I would offer that we are 
terrifically excited about the program that the Army Reserve 
has put in place, and the four of us, plus the National Guard 
Chiefs as well, get together on a monthly basis and share these 
stories. And so we are eager, as this program continues, to see 
how we can piggyback on it.
    In the meantime, we think one of the very important 
programs that we are all very supportive of that has been a 
longstanding program in a similar vein is the employer support 
of the Guard and Reserve and using that as a very important 
outreach to the employers that really are the third leg of the 
stool that we all rely upon, the servicemember, the family, and 
the employer.
    Chairman Inouye. General Bergman.
    General Bergman. Sir, back when General Jones was 
Commandant in around the 1999-2000 timeframe, the Marine Corps 
implemented the Marine for Life Program which put drilling 
marine reservists, some on active duty, some on the drilling 
reserve status, around the country to facilitate reintegration 
into the communities for the marines coming back, whether it be 
through helping them find jobs, connect with employers, or just 
in general reassimilating back into their community.
    Our program is not anywhere near as evolved as the Army's, 
but nonetheless, for the last 8-plus years, it has been serving 
on a smaller level. So I applaud the Army Reserve and General 
Stultz for what they have done because they really have become 
the model for all of us.
    Chairman Inouye. Thank you very much.
    Senator Cochran.
    Senator Cochran. Mr. Chairman, I just wanted to raise one 
issue. I noticed in the Army's report, it talks about meeting 
homeland defense and disaster relief missions and how you need 
to maintain a training level and equipment status in order to 
make that kind of contribution. I was just curious to know 
whether in Hurricane Katrina you had experiences in helping to 
provide assistance to the victims of that terrible tragedy?
    General Stultz. Yes, sir, very much so. A lot of those CH-
47 helicopters you saw picking people up off the roofs or 
dropping sandbags into the dikes were Army Reserve helicopters 
that we sent down there. A lot of the trucks that you saw 
bringing in bottled water and other medical supplies and 
everything were Army Reserve trucks that we dispatched down 
there to that location. Some of the engineers that were down 
there working hand in hand with the Guard folks were Army 
Reserve engineers.
    The challenge we have got is I had no authority to do that 
because it had not been declared a Federal disaster at that 
point. Knowing that my counterparts in the National Guard and 
all, as well as my own soldiers and their families who lived in 
Mississippi, Louisiana, and that area, were suffering, we said 
we cannot wait. We have got to go ahead and get the help down 
there.
    You know, we went through this in Hurricane Andrew when I 
was in Florida, and the question from some of the Guard folks 
was, how come we are driving past Army Reserve equipment that 
could be helping us? And we said, we do not have the authority 
yet to put that equipment into the operation.
    What I did is I put them on annual training. You know, I am 
authorized to do annual training every year, and so I said, 
okay, this is going to be a training exercise for you guys. Get 
down to Louisiana and get those helicopters down there, get 
everything down there, and eventually we will get you into a 
proper status, but we cannot wait.
    What we have said--and the Office of the Secretary of 
Defense has taken it on as far as legislative initiative--we 
need to put some kind authority in place for call-ups of title 
10 forces for homeland emergencies other than just the one we 
have now, which is for weapons of mass destruction. But we have 
a lot of resources populated around America that are ideal for 
these homeland type missions, but again, because of the way the 
laws are written and the title 32 status for the National Guard 
being responsive but it is still a State response, even though 
I have got units sitting there available, they cannot be 
utilized. That is what I am pushing for. We have got to change 
the law to be able to say let us be able to utilize the Marine 
Corps Reserve, the Navy Reserve, the Army Reserve, the Air 
Reserve in homeland missions and give us the authority to put 
these people on orders on short notice.
    Senator Cochran. I wonder if any of the other services have 
had similar experiences, maybe not with Hurricane Katrina. 
General Stenner.
    General Stenner. Yes, sir. Thank you very much for that 
question because it is, in fact germane, I think to all of the 
services here, as our title 10 reserve status puts us in that 
predicament.
    But our combat search and rescue helicopters have been very 
much involved in almost every one of these kind of disasters. 
We know that our spray mission at Youngstown, Ohio is going to 
be called upon almost immediately afterward to start making 
sure that we do not have those infestations that we have had in 
the past with bugs and disease. We know that our lift capacity 
is going to be just as essential as anything else that is in 
there as the supplies continue to get to where they need to be.
    So all of those things that--we have gone out of our way to 
make sure they are positioned as far as we can take them before 
we have the authorities to get them into the fight. So we will 
bring them from all over the country, preposition and prestige 
with our component Air Force. We will coordinate in-house as 
far as we can to the point of what General Stultz said and put 
them on an appropriate order to get the job done until we can 
get the rest of the authorities in place.
    So I have the same issues. I have the same, I think, 
requirements and what we can do as four services would be 
wonderful.
    Senator Cochran. Thank you.
    General Bergman.
    General Bergman. Yes, sir. Well, as I am sure you are very 
well aware, our amphibious assault vehicles, headquartered in 
Gulfport, were out swimming literally before Katrina had moved 
all the way through doing lifesaving kinds of missions and 
continued to do that throughout as necessary.
    We had also in advance, from both the east and the west, 
prepositioned some long-haul vehicles to a point, let us say, 
somewhere between their station of assignment and the central 
gulf coast area in anticipation of a potential event. We were 
as prepared as we could be.
    But more importantly, the lesson learned from that that I 
think paid dividends, let us say, in Hurricane Ike was the fact 
that, for example, the advance coordination between the local 
community and the local governments with our Reserve unit there 
in Galveston allowed for a clearer understanding of who was 
going to do what, who had the capabilities to do what. In other 
words, do not count on us because we are probably going to be 
evacuated. We will be coming back from a different direction.
    In echoing what General Stultz has said, the need for 
ongoing dialogue to understand in our region of the country--
and I would suggest to you every region, but we just happen to 
have a defined hurricane season every year that allows us to 
preplan for--the lesson learned from Katrina and from follow-on 
hurricanes has helped us become better prepared.
    Senator Cochran. Admiral Debbink.
    Admiral Debbink. Mr. Vice Chairman, I'd offer our example 
would be the California wildfires last year where HSC-85, a 
Reserve helicopter squadron, worked through our regional 
organization there, Navy Region Southwest, to provide support. 
Using this total force look at things, one of our Navy 
reservist's home was threatened by the fire, and Navy Region 
Southwest, the active component, relocated that sailor. So the 
way we see it is employing it through our total force, and it 
is working pretty well for us.
    Senator Cochran. Well, thank you very much for the 
contributions you have made to not only our national security 
interests in terms of traditional military activities, but some 
of these other events that are just as important and can be 
just as deadly. But thank you very much for your service.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. General Stultz, Admiral Debbink, General 
Bergman, General Stenner, we thank you very much for your 
testimony and for your vision and your wisdom. And through you, 
may we thank the men and women in your Reserve components for 
their service to our country.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

        Questions Submitted to Lieutenant General Jack S. Stultz
             Question Submitted by Senator Byron L. Dorgan

                              END STRENGTH

    Question. With increased operational demands placed on the reserve 
component for the past several years, signs of stress and strain are 
showing. All reserve component services are facing increased challenges 
retaining experienced, mid-grade career service members, precisely 
those eligible for retirement after having served 20-years of service. 
I am concerned we are not maintaining a balanced force, retaining 
enough of the very individuals who have gained the benefit of 
experience these past years of increased operations. I'm considering 
introducing legislation that would enhance retention of those 
experienced career service members, providing an incentive to serve 
beyond 20-years, initial retirement eligibility, to continue to serve 
in the reserve component in exchange for lowering the age at which they 
will be eligible to receive retired pay. For example, if a member 
commits to serving 2 years beyond 20, the age for which they are 
eligible to receive retired pay would be lowered by one year.
    What is your opinion of this idea?
    Answer. The Army Reserve continues to seek to shape the force 
ensuring we keep the right talent, expertise and experience to sustain 
a superior level of operational performance. Benefits and incentives 
are among the tools the Army Reserve can utilize to shape the force. We 
are looking at other targeted incentives to retain the right talent as 
well. There is no evidence that a reduced retirement age would serve as 
an incentive to retention. RAND studies and current information does 
not support this assertion. Furthermore, reduced retirement would 
create expensive entitlements with no demonstrated improvements in 
force management. It does little to improve the compensation and 
benefits for those who are bearing the burden of mobilization and 
deployment.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

                     INDIVIDUAL READY RESERVE (IRR)

    Question. As the Army Reserves have transitioned from a strategic 
force to an operational force, what is your opinion on whether the 
Individual Ready Reserve has kept pace with that transformation? What, 
if any, role do you see for the Army Reserves to manage the Individual 
Ready Reserve?
    Answer. With the creation of the Army Human Resources Command (HRC) 
in 2003, the Individual Ready Reserve (IRR) was moved from the command 
and control of the Chief, Army Reserve and placed under the command of 
the Commanding General, HRC. In 2006, the Secretary of the Army 
approved the IRR Transformation Plan, which was an integrated and 
systemic approach to reset and reinvigorate the IRR. Since 
implementation, the IRR, along with the rest of the Army Reserve, has 
undergone major transformation from a strategic to an operational force 
and made significant progress towards creating a viable pool of 
trained, ready and deployable Soldiers to meet the needs of today's 
Army.
    However, this transformation and the recent operational pace have 
also caused the IRR to evolve away from its traditional role as a place 
where Soldiers can ``take a knee.'' No longer can Soldiers simply wait 
in the IRR while catching up on military education or choosing to focus 
on family and civilian work after a deployment--they are subject to 
mobilization in the IRR. Some active component Soldiers are even 
choosing to be discharged rather than opt to serve in the IRR upon 
transitioning out of the Active Component.
    I believe the Army Reserve needs a place for Soldiers to disengage 
from traditional unit affiliation or possible mobilization in the IRR 
and provide them with a short-term, transitional status. Additionally, 
I think that the Army Reserve would benefit from a program that 
affiliates IRR Soldiers with Army Reserve Units to serve as a ``force 
in reserve'' for contingency operations. This would also benefit the 
IRR Soldiers by providing a home unit for training and support 
requirements.
    Management of the IRR must continue to be a coordinated effort 
between both the Active Army and Army Reserve since the IRR plays an 
integral part in the readiness of the Total Force. I see a role for the 
Chief, Army Reserve in the management of programs that would affiliate 
IRR Soldiers with Troop Program Units and provide a respite for 
Soldiers in transition.

                               PERSONNEL

    Question. The fiscal year 2009 Omnibus contained the provision to 
help federal employees in the National Guard and Reserves avoid a loss 
of income when they are called the active duty.
    What efforts will the Army Reserve undertake to quickly implement 
this new provision?
    Answer. At this point, we are coordinating with the relevant 
agencies within the Army to develop the appropriate policies to 
implement these initiatives. It doesn't appear that legislation is 
necessary, but if that viewpoint changes, we will inform the Committee 
promptly.
    Question. Can you provide the number of current Army Reserve 
members who are federal government employees?
    Answer. The Army does not maintain a central data base that allows 
us to garner the data for all Army Reserve Soldiers who are employed by 
the Federal Government.
    Currently we are able to provide information on the Dual Status 
Military Technicians. There are 8,180 Army Reserve Soldiers employed as 
Military Technicians.
    Question. Of that number, how many have served at least one tour in 
Operation Enduring Freedom or Operation Iraqi Freedom? How many are 
currently deployed?
    Answer. Of the Dual Status Military Technician population:
  --There are 894 currently mobilized; 375 for OEF, 516 for OIF. Of the 
        894 currently mobilized, 667 have past mobilizations.
  --There are 4,723 not currently mobilized that have past 
        mobilization.
  --There are 2,563 with no mobilization (current or past).
    Source is FTS provided file of employee SSN and DFAS pay files 
(mid-month July 2009) using APC directly correlating to OIF and OEF 
only.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

                                TRICARE

    Question. Is there a need to find a way to extend TRICARE service 
to cover the ``gray area'' between the end of affiliation with the 
Reserves and the start of retirement benefits?
    Answer. Expanding TRICARE coverage to ``gray area'' retirees must 
be weighed against costs and the ultimate impact to overall force 
readiness--an effort to be undertaken by the Army Surgeon General and 
Program Analysis. Study and validation of cost estimates and cost 
sharing is required. Expanding TRICARE coverage (authority to utilize 
TRICARE Reserve Select) similar to the fee based enrollment offered to 
members of the National Guard and Army Reserve in the National Defense 
Authorization Act of Fiscal Year 2007, offers potential benefits to the 
force, which would become clearer once cost study analysis is 
furthered. Expanding TRICARE coverage as a benefit for ``gray area'' 
retirees could be used as a retention/force management tool, through 
appropriate qualifying criteria, to retain or release select 
populations of service members--advancing a ``continuum of service'' to 
more effectively manage the total force.

                              END STRENGTH

    Question. Gentlemen, each of you has a full time support entity 
within your organization. With the increase in usage of the Reserve 
component, do you feel you have the full time end strength to fulfill 
your obligations to each of your active duty components requirements?
    Answer. The increased demand and resultant operational tempo since 
September 11, 2001 caused the Army to integrate and employ the Army 
Reserve as an operational force. The Army Reserve has realigned the 
force in accordance with the Army Force Generation (ARFORGEN) unit 
deployment construct and changed its training paradigm from a 
``mobilize, train, deploy'' to a ``train, mobilize, deploy'' process. 
To sustain the Army Reserve as a truly operational force requires 
increased readiness best achieved by evolving and improving full time 
support (FTS) manning and processes.
    While we have commissioned studies (to be completed by September 
2009) to determine the optimum strength and balance of FTS staffing 
(Active Guard and Reserve (AGR), full time equivalents (FTE), military 
technicians, civilians) we have recognized we must increase FTS to 
support the unit deployment model. FTS provides both steady-state 
support for generating ready forces but also must be flexible enough 
(potentially through FTEs) to meet dynamic, evolving Army Reserve 
mission requirements. A unit in a reset posture may require current 
``strategic reserve'' staffing (12 percent), however, as the unit moves 
through progressives years of training in preparation for deployment 
FTS must increase until ultimately the entire unit is mobilized on to 
active duty (100 percent). Our preliminary estimates suggest, at a 
minimum, Army Reserve FTS must increase as a percent of total strength 
of between 3 to 6 percent (bringing FTS/FTE to approximately 15 
percent). Appropriately building FTS capability is required for the 
Army Reserve to continue to fulfill obligations to the Army.
    Question. If you do not have the end strength numbers, what 
increase would each of you like to see if there was an acceleration 
plan for your projected future growth?
    Answer. The Army Reserve has reached its fiscal year 2013 end-
strength objective of 206,000. We are postured to continue to grow. 
However, we have select grade and skill set shortages that will require 
us to continue to shape the force so we have the highest quality force 
available. Further growth of the Army Reserve will be determined by the 
needs of the total force and future mission demands.
                                 ______
                                 
          Questions Submitted to Vice Admiral Dirk J. Debbink
            Questions Submitted by Chairman Daniel K. Inouye

    Question. Admiral Debbink, the Navy Reserve is initiating a 
Continuum of Service program to make it easier for sailors to 
transition between the active and reserve components.
    What is the timeline for implementing this program?
    Answer. The Navy's Continuum of Service is a personnel management 
strategy, to include a series of policy initiatives, enhancements and 
management actions designed to simplify the processes used by Sailors 
to move between Active and Reserve Components. Opportunities for this 
type of movement have always existed; the Navy's current focus is to 
remove barriers and establish or revise policies and programs to 
streamline the process. The Navy needs to better integrate both HR 
business processes between the Components and develop a single Navy pay 
and personnel system to streamline a Sailor's transition between 
Components.
    I am working closely with the Chief of Naval Personnel, VADM Mark 
Ferguson, on the many moving parts involved in the Continuum of 
Service. The timeline for implementing initiatives to develop career 
and workforce flexibilities that encourage volunteerism, increase 
options to ``Stay Navy,'' and promote a lifetime of service to the Navy 
Total Force is 2012. Efforts are underway to make seamless transitions 
a reality sooner than our overall 2012 objective.
    Question. Given the current economic situation, are you concerned 
that these initiatives could temporarily hurt Navy Reserve retention as 
reservists transition to full time active duty positions?
    Answer. We do not expect Active or Reserve retention to be 
negatively affected by the Continuum of Service. Opportunities for 
Reservists to transition to the Active Component will be managed 
closely to maximize FIT and health of officer and enlisted communities 
within fiscal and end strength controls for both the Reserve and Active 
Components.
    Question. Admiral Debbink, with the active duty Navy currently well 
over its authorized end strength, do you expect that there will be 
active duty slots available for reservists to fill? How will the active 
component afford to pay for these additional personnel given the 
budgetary constraints that the Navy is currently under?
    Answer. Movement between the Active and Reserve Components is built 
into annual officer and enlisted strength plans, and funding is 
programmed accordingly. Plans are monitored and adjusted continuously 
through the fiscal year to ensure the Navy remains within fiscal and 
end strength controls established by Congress.
                                 ______
                                 
             Question Submitted by Senator Byron L. Dorgan

    Question. With increased operational demands placed on the reserve 
component for the past several years, signs of stress and strain are 
showing. All reserve component services are facing increased challenges 
retaining experienced, mid-grade career servicemembers, precisely those 
eligible for retirement after having served 20 years of service. I am 
concerned we are not maintaining a balanced force, retaining enough of 
the very individuals who have gained the benefit of experience these 
past years of increased operations. I'm considering introducing 
legislation that would enhance retention of those experienced career 
servicemembers, providing an incentive to serve beyond 20 years, 
initial retirement eligibility, to continue to serve in the reserve 
component in exchange for lowering the age at which they will be 
eligible to receive retired pay. For example, if a member commits to 
serving 2 years beyond 20, the age for which they are eligible to 
receive retired pay would be lowered by 1 year. What is your opinion of 
this idea?
    Answer. Current Navy manpower policies provide the necessary 
incentives for the individuals the Navy Reserve needs to deliver its 
required capabilities, including career personnel.
    Bonus payment plans for retention strategically targeted at 
specific year groups (to include those service members with 20 years of 
qualifying service) and critical wartime specialties. These bonuses 
enhance the Navy's ability to recruit and retain the right people for 
the right job. The Reserve bonuses also target the ``right type'' of 
Sailor and focus on undermanned ratings and critical skills. Congress 
has been generous with the authorization of these bonus plans, and I 
appreciate the Congress' foresight and concern for retention of our 
Reserve servicemembers.
    Another key aspect that enables high RC retention, at all pay-
grades, is to provide the Sailors with real and meaningful work. Having 
recently visited the Central Command Area of Responsibility, I met with 
many RC Sailors in-theatre and know that their motivation is high and 
that their desire to continue serving is remarkable. My job as the 
Chief of Navy Reserve is to ensure that RC Sailors are provided the 
opportunities for such real and meaningful work--I intend to do that.
    For amplification, Enlisted and Officer Reserve retention rates 
remain high, and attrition rates remain at historic lows. The fiscal 
year 2008 Enlisted attrition rate was 25 percent, and the fiscal year 
2008 Officer attrition rate was 15 percent, down from the 3-year 
rolling averages of 29 percent and 19 percent, respectively. As a 
result, the Navy Reserve Officer corps is actually ``over-manned'' in 
the ranks that are tied to 20 years of qualifying service. In addition, 
we continue to enforce policies to shape the Force and maximize 
``Fit,'' while targeting the optimal number of prior service Enlisted 
accessions to ensure we remain within budgetary limits and strength 
controls.
    Our goal remains to finish fiscal year 2009 with a stable, balanced 
inventory of Sailors that positions our Reserve Force for continued, 
outstanding Total Force support, now and well into the future.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

    Question. The fiscal year 2009 Omnibus contained the provision to 
help federal employees in the National Guard and Reserves avoid a loss 
of income when they are called the active duty.
    What efforts will the Navy Reserve undertake to quickly implement 
this new provision?
    Answer. The Navy Reserve, in coordination with the Employer Support 
of the Guard and Reserve (ESGR), is planning an informational campaign 
aimed at highlighting Section 751 benefits to Reservists throughout the 
country. The specifics of this program will be discussed at ESGR 
presentations and annual pre-deployment briefings at Navy Operational 
Support Centers (NOSCs) and other Navy Reserve Activities (NRAs).
    Question. Can you provide the number of current Navy Reserve 
members who are federal government employees?
    Answer. There are currently 4,720 current Navy Reservists who are 
federal government employees.
    Question. Of that number, how many have served at least one tour in 
Operation Enduring Freedom or Operation Iraqi Freedom? How many are 
currently deployed?
    Answer. Of the 4,720 Navy Reservists that are federal government 
employees, 2,014 have been mobilized during OEF/OIF operations. 
Currently, there are six such Reservists who are deployed, plus another 
89 Reservists from this group who have been identified for deployment 
in the next 3 months.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

    Question. Gentlemen, each of you has a full time support entity 
within your organization. With the increase in usage of the Reserve 
component, do you feel you have the full time end strength to fulfill 
your obligations to each of your active duty components requirements? 
If you do not have the end strength numbers, what increase would each 
of you like to see if there was an acceleration plan for your projected 
future growth?
    Answer. I do feel that Navy has the Full Time Support end strength 
required to fulfill obligations.
    Since 2004 the Navy has conducted two extensive and comprehensive 
Flag Pole studies of the Reserve Component (RC) Full Time Support (FTS) 
community. These studies included all aspects of Selected Reserve 
(SELRES) training and administration as well as FTS community health 
and career progression. The studies also focused on ways to further 
optimize active-reserve integration (ARI) and maximize operational 
support.
    During the second Flag Pole study, several management options were 
analyzed and the one chosen allowed each Warfare Enterprise (Air, 
Surface, Sub, etc.) to determine what percentage of their Total Force 
(AD, FTS, SELRES, CIV, and Contractor) would provide full-time support 
to the Reserve component. This was essential due to the significant 
operational differences between the various warfare communities. In the 
end, senior leadership concluded that a rigid ``one size fits all'' 
approach was not the optimum solution for Navy. At the completion of 
the study, Warfare Enterprises implemented changes as part of their PR-
09 and POM-10 budget submissions.
    As the Navy continues to institutionalize its operational and 
strategic reserve, the training, administration and overall management 
of manpower requirements will be continually reevaluated by each of the 
Warfare Enterprises. The size of each component of the Navy's Total 
Force (AD, FTS, SELRES, CIV, and Contractor) required to support the 
Reserve component will be adjusted as needed in the annual POM/PR 
process.
    Question. Is there a need to find a way to extend TRICARE service 
to cover the ``gray area'' between the end of affiliation with the 
Reserves and the start of retirement benefits?
    Answer. With changes to the frequency and duration of service for 
activated Guard and Reserve components since 1991, and recognizing the 
tremendous sacrifice of those members and their families, we need to 
carefully balance the benefit structure supporting both active and 
reserve components without adversely affecting our ability to attract, 
recruit and retain in both programs while at the same time recognizing 
potential healthcare implications.
    Extending TRICARE benefits for the ``gray area'', the period 
between retirement under official orders from the selected Guard or 
Reserve component after satisfactorily completing 20 or more years of 
service and eligible for retired pay at age 60 should strongly be 
considered. Currently, ``gray area'' reserve members may purchase the 
TRICARE Retiree Dental Program even before they draw retirement pay. A 
similar program could be shaped to provide healthcare benefits under 
the TRICARE Reserve Select Program, a premium-based health plan which 
requires a monthly premium and offers coverage similar to TRICARE 
Standard and Extra. This option should be carefully reviewed to ensure 
it has its desired affects on personnel programs as well as addressing 
potential access and monetary challenges associated with delivering the 
expanded healthcare benefit.
    The implications of an individual going without healthcare coverage 
during the ``gray period'' are profound. During this period, routine 
healthcare preventive measures that should be incorporated may not be, 
and may result in undiagnosed, treatable disease(s). This failure to 
monitor age appropriate conditions could possibly lead to increased 
disease morbidity as well as increases in the severity of the 
disease(s) when there is delay in detection. An increase in undiagnosed 
diseases could result in cost increases for healthcare at age 60.
                                 ______
                                 
       Questions Submitted to Lieutenant General Jack W. Bergman
             Question Submitted by Senator Byron L. Dorgan

    Question. With increased operational demands placed on the Reserve 
Component for the past several years, signs of stress and strain are 
showing. All Reserve Component services are facing increased challenges 
retaining experienced, mid-grade career servicemembers, precisely those 
eligible for retirement after having served 20 years of service. I am 
concerned we are not maintaining a balanced force, retaining enough of 
the very individuals who have gained the benefit of experience these 
past years of increased operations. I'm considering introducing 
legislation that would enhance retention of those experienced career 
servicemembers, providing an incentive to serve beyond 20 years, 
initial retirement eligibility, to continue to serve in the reserve 
component in exchange for lowering the age at which they will be 
eligible to receive retired pay. For example, if a member commits to 
serving 2 years beyond 20, the age for which they are eligible to 
receive retired pay would be lowered by 1 year. What is your opinion of 
this idea?
    Answer. Although incentives designed to encourage continued service 
in the Reserve Component can be an important tool for maintaining a 
healthy force, they must be implemented carefully to ensure that second 
and third order effects do not manifest unintended consequences such as 
stagnating promotions or exceeding controlled grade strength limits. 
Therefore, while Marine Forces, Reserve (MARFORRES) is always 
interested in exploring new ideas to promote the overall readiness of 
the Reserve force, and consequently the Total Force, we are reluctant 
to take a firm stance one way or the other, absent details that can be 
subject to a thorough manpower analysis. However, as we strive to 
define and implement the Continuum of Service concept, any legislation 
or program that enhances the ability to lengthen the careers of highly 
performing Marines will be a distinct benefit.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

    Question. The fiscal year 2009 Omnibus contained the provision to 
help federal employees in the National Guard and Reserves avoid a loss 
of income when they are called to active duty.
    What efforts will the Marine Forces Reserve undertake to quickly 
implement this new provision?
    Answer. The Marine Corps is preparing information for dissemination 
to Reserve members who are slated to mobilize, or currently mobilized, 
to ensure all members who are civilian federal employees are notified 
of this provision. Additionally, the Marine Corps will publish 
administrative guidance on command and member responsibilities to 
ensure federal government agencies receive accurate information on the 
military compensation, and any income differential, of mobilized 
Reserve members.
    Question. Can you provide the number of current Marine Forces 
Reserve members who are federal government employees?
    Answer. The Marine Corps attempted to access this information 
through the Defense Manpower Data Center (DMDC). However, DMDC is 
unable to provide a macro-level report on the total number of Reserve 
members who are federal government employees, as the data entry fields 
in the Guard and Reserve Portal list employers individually. In 
September and October, the Department of Defense expects to receive 
reports from all agencies of the federal government on civilian federal 
employees who are Reservists, as part of initiatives pertaining to 
Tricare Reserve Select, and the Marine Corps will validate these 
reports in an effort to answer this question.
    Question. Of that number, how many have served at least one tour in 
Operation Enduring Freedom or Operation Iraqi Freedom? How many are 
currently deployed?
    Answer. Once the actions described in the above answer are complete 
the Marine Corps will be able to respond to this question.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

    Question. Gentlemen, each of you has a full time support entity 
within your organization. With the increase in usage of the Reserve 
component, do you feel you have the full time end strength to fulfill 
your obligations to each of your active duty components requirements?
    Answer. The Marine Corps deems the end strength of the Reserve 
Component is adequate. Our full time support program, called our Active 
Reserve (AR), has been under review as required by the NDAA of 2009. 
That review is not yet complete. If we require growth in the AR 
program, however, it will likely be limited and designed to address 
specific grades and specialties affected by the increased operational 
tempo for the Reserves.
    Question. If you do not have the end strength numbers, what 
increase would each of you like to see if there was an acceleration 
plan for your projected future growth?
    Answer. The analysis of the Marine Corps Active Reserve (AR) 
program (full-time support) is a part of the review of full-time 
support requirements identified in the response to Senator Murray's 
question concerning full-time support end strength. We cannot evaluate 
the AR program except in the context of the full-time support 
requirement. The Marine Corps expects to be able to address the need 
for changes to AR strengths and ``composition'' as we go through our 
review of full-time support requirements.
    Question. Does the Marine Corps have a need to extend TRICARE 
service to cover the ``gray area'' between the end of affiliation with 
the Reserves and the start of retirement benefits?
    Answer. If an additional TRICARE Retiree Medical Benefit can be 
offered that covers this ``gray area'' without raising the cost of 
existing programs for the Service or Reservists or otherwise detracting 
from coverage already available, the Marine Corps would be inclined to 
support such a program.
                                 ______
                                 
             Questions Submitted to Charles E. Stenner, Jr.
            Questions Submitted by Chairman Daniel K. Inouye

                           FORCE REALIGNMENT

    Question. General Stenner, for several years now the Air Force 
Reserve has implemented force structure realignments as part of the 
Total Force Integration and base closure initiatives. The resulting 
closures and mission realignments have hurt retention levels. At the 
same time, the Reserve now plans to grow its end strength by 7,000 
airmen.
    Do you think the Air Force Reserve will be able to recruit and 
retain these additional personnel given the instability of the ongoing 
realignments?
    Answer. Yes. We have completed all of our programmed manpower 
realignments and are now stable and growing. The Air Force and Air 
Force Reserve (AFR) have identified additional mission requirements and 
the AFR needs to grow proportionately to the regular component to meet 
these requirements. Recruiting for the AFR is strong--having exceeded 
recruiting goals for 8 consecutive years. Nevertheless we are bringing 
on additional recruiters to ensure that we meet any additions to our 
end strength.
    On the retention side, losses realized over the last 3 to 5 years 
were a direct result of programmed force structure changes and 
realignments. Now that this era is behind us, we are confident that we 
will be able to retain the appropriate number of personnel to stay 
within Department of Defense mandated end strength limits. Measures 
recently enacted by Congress such as expanded TRICARE Reserve Select, 
Reduced Eligibility Age for Retirement Pay, the Post 9/11 GI Bill, and 
authorized travel entitlements for certain Selected Reserve members who 
serve outside the normal commuting distance have generated much 
interest. We have undertaken great efforts to make our members aware of 
these benefits. We believe these benefits and our efforts to improve 
awareness will greatly improve our ability to retain our members as we 
go forward.
    Question. General Stenner, with personnel and mission adjustments, 
the Air Force Reserve will have to train and retrain a large number of 
personnel.
    Have you been provided the training slots and funding needed to 
meet your training requirements?
    Answer. Ensuring the Air Force Reserve maintains individual and 
unit readiness standards to support all aspects of the Air Force's 
missions remains a top priority. The help we received from your 
Committee in moving funding into our training program has allowed us to 
keep pace with the increasing demands resulting from changing missions 
and demographics.
    In terms of formal classroom training, we work closely with 
Headquarters Air Education and Training Command (AETC) in projecting 
and securing the appropriate number of quotas to provide our reservists 
with the required training to meet basic requirements. While there are 
limits to the number of class seats AETC has to offer, we have not had 
any notable issues obtaining quotas for our people in the past and do 
not anticipate any in the future.
    While classroom training is vital, it is our ``seasoning training 
program'' that gives our members the hands-on training needed to become 
fully mission capable. When members return from formal school, they 
must still complete several requirements to become fully proficient in 
their assigned mission. The Air Force Reserve has implemented the 
``seasoning training program'' to bring members back to their units in 
a paid status so that they can more quickly receive the required 
training needed to become fully mission capable in their specialty. 
This program has enabled to us to more readily meet increased demands 
for reserve members needed to augment active duty to prosecute our 
national security objectives.
    Due to the outstanding results we've experienced with this program, 
we would like to expand its reach and scope, but our limited funding 
and inability to tradeoff and reallocate dollars in the year of 
execution inhibits expansion.
    The Air Force Reserve will continue pursue all the avenues 
necessary to ensure we are providing the best trained, combat ready 
force available to meet mission requirements.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

          FEDERAL EMPLOYEES IN THE NATIONAL GUARD AND RESERVES

    Question. The fiscal year 2009 Omnibus contained the provision to 
help federal employees in the National Guard and Reserves avoid a loss 
of income when they are called to active duty.
    What efforts will the Air Force Reserve undertake to quickly 
implement this new provision?
    Answer. The provision is directed to the federal agencies rather 
than to the Reserve Components. Section 751 of the Omnibus 
Appropriations Act, 2009 (Public Law 111-8, March 11, 2009) amends 
Title 5, United States Code, Section 5538, to require federal agencies 
to pay a supplemental payment to eligible civilian employees who are 
absent from their civilian employment while on active duty in support 
of a contingency operation under specific paragraphs of Title 10 of the 
United States Code.
    For each covered biweekly pay period, eligible civilian employees 
will receive a supplemental payment equal to the amount by which 
civilian basic pay exceeds (if at all) military pay and allowances 
allowable to the given period. Civilian employees are not eligible for 
this supplemental payment in pay periods during which they use any 
other form of paid leave from the civilian position.
    Question. Can you provide the number of current Air Force Reserve 
members who are federal government employees? Of that number, how many 
have served at least one tour in Operation Enduring Freedom or 
Operation Iraqi Freedom? How many are currently deployed?
    Answer. A total of 14,016 out of 66,871 Air Force Reservists in the 
Selected Reserve are DOD federal employees. A total of 8,729 of the 
14,016 federal employees have been activated in support of Operations 
Enduring Freedom or Iraqi Freedom. Currently, 403 of the 14,016 federal 
employees are activated in support of a named contingency operation.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray

                                TRICARE

    Question. Is there a need to find a way to extend TRICARE service 
to cover the ``gray area'' between the end of affiliation with the 
Reserves and the start of retirement benefits?
    Answer. Yes. Extending TRICARE service to cover the ``gray area'' 
between retirement from the reserves and the start of retirement health 
benefits would improve our ability to care for reserve members and 
their families, and could serve as an effective recruitment/retention 
tool.
    Such a benefit directly addresses my concerns about caring for our 
people and recognizing the increased service of our reserve forces due 
to higher operations tempo and more frequent deployments: it provides 
``gray area'' reservists--who might have difficulty securing or may 
otherwise not be able to secure health care coverage--the opportunity 
to purchase affordable health care coverage.
    Congress recently dramatically improved TRICARE for Reserve 
component members to mitigate switching back and forth between civilian 
health plans and the military TRICARE system, by offering TRICARE 
Reserve Select as a full time option to our part-time members at a 
reduced cost. An unintended consequence of subscribing to this offering 
is the member could be without any health coverage upon retirement from 
the reserve. A newly retired reservist with ongoing personal or family 
health issues would have difficulty re-engaging in the civilian 
healthcare insurance market.
    As a recruiting tool, this would be an added benefit for recruiting 
new members into the Reserve components. Increased civilian healthcare 
costs, increased co-payments, and employers eliminating plans make 
healthcare issues a topic of concern for individuals, families, and as 
a nation.
    As a retention tool, TRICARE Reserve Select has provided an 
incentive for continued Reserve component participation. Continued 
service by our Reserve component members reduces training costs, 
retains experience, and strengthens our nation.
    I am always concerned about the effects on our overall bottom line: 
such a benefit must be affordable over the long run. A benefit in which 
the ``gray area'' retiree pays 100 percent of the premium cost for 
TRICARE Reserve Select would minimize the impact to our bottom. 
Moreover, the cost differential between reduced premiums for those 
still in service and the full premiums for ``gray area'' retirees would 
also serve as an incentive to stay in service longer. Lastly, although 
the premiums would be greater to them, ``gray area'' retirees would 
have relatively affordable, continued healthcare coverage available to 
them.
    This benefit would provide for the care of our people who have done 
so much for our nation.

                     RESERVE FULL TIME END STRENGTH

    Question. Gentlemen, each of you has a full time support 
requirement with your organization.
    With the increase in usage of the Reserve component, do you feel 
you have the full time strength to fulfill your obligations to each of 
your active duty components requirements?
    Answer. The Air Force Reserve is first and foremost a strategic 
reserve. Our full time support is meant to provide trained and equipped 
Airmen to the active component. In that capacity, we have sufficient 
full time strength to meet our active duty component requirements. 
However, the strategic reserve is a Cold War paradigm that was designed 
for short term high intensity warfare. The conflicts in Iraq and 
Afghanistan are low intensity wars of unknown duration requiring the 
Reserve to continuously provide trained and ready Airmen. Consequently, 
this demand for Airmen requires that we send a portion of our full time 
support away from home station to support operations, thus reducing our 
ability to train and equip Airmen at home station. If the Air Force 
Reserve is to be used operationally, we will need more full time 
strength to support active component requirements.
    Question. If you do not have the end strength numbers, what 
increase would each of you like to see if there was an acceleration 
plan for your projected future growth?
    Answer. The Air Force Reserve's workforce is currently 80 percent 
traditional (part time) citizen Airmen. Our full time support program 
ensures these traditional Airmen are trained and ready to meet the 
requirements of a strategic reserve. For 18 years we've operated at 
higher operations tempo than during peacetime, yet we continued to 
program as if next year this operations tempo will subside and 
peacetime strategic reserve tempo will return. To manage our force and 
sufficiently meet requirements of this new steady state, an increase in 
full time support is needed. We know that certain careers fields like 
security forces and combat search and rescue are enduing higher than 
normal operations tempo and would greatly benefit from an increase in 
full time support end strength. Although we cannot determine an exact 
figure at this time, we will continue to analyze our data to establish 
the right level to ensure our traditional reservist continue to receive 
the proper training.

                 CHANGES IN RESERVE PERSONNEL POLICIES

    Question. With increased operational demands placed on the Reserve 
component for the past several years, signs of stress and strain are 
showing. All Reserve component Services are facing increased challenges 
retaining experienced, mid-grade career service members, precisely 
those eligible for retirement after having served 20 years of service. 
I am concerned we are not maintaining a balanced force, retaining 
enough of the very individuals who have gained the benefit of 
experience these past years of increased operations. I'm considering 
introducing legislation that would enhance retention of those 
experienced career service members, providing an incentive to serve 
beyond 20 years, initial retirement eligibility, to continue to serve 
in the reserve component in exchange for lowering the age at which they 
will be eligible to receive retired pay. For example, if a member 
commits to serving 2 years beyond 20, the age for which they are 
eligible to receive retired pay would be lowered by 1 year.
    What is your opinion of this idea?
    Answer. This proposal would be a huge benefit to reserve members 
and anything that helps with recruiting and increased retention is most 
welcomed. However, we recently did some analysis to determine if 
reservist were leaving earlier after reaching retirement age than they 
have historically. The analysis determined that we have not seen 
significant increases through the era of Base Realignment and Closure, 
Total Force Integration or with the increased operations tempo. 
However, in recognition of the contributions our members are making to 
the nation's security, the fiscal year 2008 National Defense 
Authorization Act authorized a similar benefit for members who serve at 
least 90 aggregate days on most active duty and reserve tours. For each 
90 aggregate days served per fiscal year, on most active duty and 
reserve tours, member's retirement will be reduced by 3 months up to 
age 50. This proposal would serve as additional recognition for those 
reservists that continue to serve beyond retirement age. A legitimate 
concern may be the potential impact this proposal will have on the Air 
Force's retirement account. Given that people are living longer now, we 
must be sure that we are able to sustain this initiative over the long 
run. Bottom line: the proposal would likely encourage members to 
continue to serve beyond retirement age and therefore positively impact 
retention.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The Defense Subcommittee will meet next on 
Tuesday, April 22, at 10:30 a.m., at which time we will receive 
testimony from Secretary Michael Donley and General Norton 
Schwartz on the United States Air Force fiscal year 2010 budget 
request. Until then, we will stand in recess.
    [Whereupon, at 11:59 a.m., Wednesday, March 25, the 
subcommittee was recessed, to reconvene at 10:30 a.m., Tuesday, 
April 22.]

</pre></body></html>
